<html>
<title> - THE AL-MEGRAHI RELEASE: ONE YEAR LATER</title>
<body><pre>[Senate Hearing 111-781]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-781

                 THE AL-MEGRAHI RELEASE: ONE YEAR LATER

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html












                  U.S. GOVERNMENT PRINTING OFFICE
   63-235 PDF             WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        








                            C O N T E N T S

                              ----------                              
                                                                   Page

Barrasso, Hon. John, U.S. Senator from Wyoming, prepared 
  statement......................................................    47
Gillibrand, Hon. Kirsten E., U.S. Senator from New York, 
  statement......................................................     8
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey, 
  statement......................................................     5
    Prepared statement...........................................     7
    List of ``Victims of Pan Am 103 Bombing''....................    54
McEldowney, Hon. Nancy, Principal Deputy Assistant Secretary, 
  Bureau of European Affairs, U.S. Department of State, 
  Washington, DC.................................................    10
    Prepared statement...........................................    14
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    62
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Mohler, Dr. James, senior vice president for translation 
  research, chair, Department of Urology, Roswell Park Cancer 
  Center, Buffalo, NY............................................    31
    Prepared statement...........................................    33
Porter, Dr. Geoff, consultant, New York, NY......................    39
    Prepared statement...........................................    41
Sartor, Dr. Oliver, Piltz Professor of Cancer Research, 
  Departments of Medicine and Urology, Tulane Medical School, 
  Tulane, LA.....................................................    36
    Prepared statment............................................    38
Swartz, Hon. Bruce, Deputy Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice, Washington, DC...........    17
    Prepared statement...........................................    19

              Additional Material Submitted for the Record

Letter from Hon. Alex Salmond MSP, First Minister of Scotland, 
  St. Andrew's House, Edingburgh, with an attachment letter from 
  the Scottish Affairs Office, British Embassy...................    64
Written statements submitted from families of victims of Pan Am 
  Flight 103.....................................................    66

                                 (iii)

  

 
                 THE AL-MEGRAHI RELEASE: ONE YEAR LATER

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez, presiding.
    Present: Senators Menendez, Gillibrand, and Barrasso.
    Also Present: Senator Frank R. Lautenberg.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This hearing of the Senate Foreign 
Relations Committee will come to order. Good morning, everyone.
    Let me start off by thanking our witnesses for being here 
today and participating in this critical hearing to shed some 
light on the troubling circumstances surrounding the early 
release of Abdelbasset al-Megrahi, the convicted Pan Am 103 
Lockerbie bomber.
    There are those within my own government, certainly within 
the Scottish and British Governments, and even some of my 
colleagues, who wonder why we have collectively pursued today's 
hearing. Why I am pushing--and have been pushing--for an 
investigation into the early release of al-Megrahi.
    My staff and I have heard from many people who say, ``You 
will never get al-Megrahi to return to prison, so why bother? 
Why,'' they ask, ``would we test the strong relationships 
between the United Kingdom and the United States? Why, when we 
have so many other important issues to worry about, like 
Afghanistan, Iran, and climate change, would you go down this 
road?''
    Why? I will tell you why. Because on December 21, 1988, 270 
innocent people were sent to their deaths at the hands of a 
Libyan terrorist, a mass murderer named Abdelbasset al-Megrahi. 
One hundred and eighty-nine of the victims were from the United 
States of America. Thirty-four of them were from New Jersey. 
Fifty-three of them were from New York. All tolled, we lost 
citizens from 21 States and the District of Columbia.
    We are here today because it matters to those who lost 
their lives, to those who represented them, and, most 
importantly, it matters to their families. It matters very 
much. It matters also, in terms of the standards that we set 
for our fight against terrorism. Do we send a message that a 
convicted terrorist, a mass murderer can ultimately, after a 
period of time, be free and live in the lap of luxury? Is that 
the message that we want to send to other would-be terrorists 
in the world? So, it matters to our national security, as well.
    We will never forget, nor should we. And I am so, so sorry 
that we are inconveniencing those who would rather sweep this 
away into the dustbin of history.
    We're here today because the terms of the 1998 Lockerbie 
justice agreement clearly state that any sentence must be 
served in the United Kingdom. In the letter of agreement from 
the United Kingdom and the U.S. Acting Permanent Representative 
to the United Nations, formally approved by the Security 
Council Resolution 1192, it states, ``For the purpose of the 
trial, we shall not seek their transfer to any jurisdiction 
other than the Scottish court sitting in the Netherlands, and, 
if found guilty, the two accused will serve their sentence in 
the United Kingdom.'' The language of the agreement could not 
be any clearer: ``they would serve their sentence in the United 
Kingdom.''
    We are a nation founded on the rule of law; and when the 
law and our notion of justice is turned on its head, for 
whatever reason, we believe it is our obligation to turn it 
back again. It is our obligation to ask hard questions, to 
demand answers, to get the truth, no matter where it leads or 
who might be inconvenienced by it.
    The fact is that the Scottish Government claims to have 
released Mr. al-Megrahi from prison because he was dying of 
prostate cancer and had just 3 months to live. They offered him 
compassionate release, something that clearly is permissible 
under Scottish law. But, precedent provided that certain 
conditions be met. Had those conditions been met, had laws and 
precedent been appropriately followed, while I would still 
vehemently disagree with the decision, I would respect the 
right of the Scottish Government to exercise its jurisdiction. 
But, as we will see as the testimony unfolds, the release on 
compassionate grounds was deeply, deeply flawed, and perhaps 
even intentionally skewed to allow for Mr. al-Megrahi's 
release.
    Scottish law allows prisoners who are suffering and have 3 
months or less to live to receive consideration for 
compassionate release. As Scottish authorities said on August 
20, 2009, Mr. Megrahi had 3 months or less to live, so they 
sent him home to die.
    I'd like to have the video played, now, of Mr. al-Megrahi's 
release and trip back to Libya.

[Video presentation.]

    Senator Menendez. The video is important, for two reasons. 
We'll hear testimony about how someone who has the ability to 
walk up and down a flight of stairs by themselves, based upon 
the determination they had only 3 months to live, would not 
likely be able to do so. Second, the images at the end, at his 
reception in Libya, paint an image that is incredibly 
upsetting, to say the least, to have a hero's welcome, flag-
waving admirers shouting his name, praising him, celebrating 
his return; a man who is supposedly dying. And here we are, 13 
months after he landed back in Libya, and Mr. al-Megrahi is 
still alive, living in freedom. That's why we're here today, to 
get to the bottom of this miscarriage of justice.
    Obviously the 3-month prognosis was wrong, yet, shockingly, 
Scottish authorities still, to this day, insist the initial 
prognosis was correct. Well, Mr. al-Megrahi is alive. Instead 
of living 3 months, he's lived 13 months and counting, which 
clearly means someone was wrong, or worse.
    This committee and the families of the victims want to 
understand how and why the decision to release was made. What 
were the circumstances behind it? Who made the medical 
judgments that led to it? Whose interests were served by his 
release, and were those interests discussed in advance of his 
release?
    Now, we have tried to get the answers in a more 
comprehensive way. We have asked for the cooperation of 
numerous representatives from the Scottish Government, from the 
United Kingdom's Government, and representatives of BP. Over 30 
people were asked to cooperate with our investigation--All 
refused.
    Now, I understand the right of any foreign government 
official not to choose to participate, but these were clearly a 
unique set of circumstances in which I think the greater cause, 
the greater good, the greater transparency would have led to a 
degree of cooperation. They include former U.K. Ministers of 
Justice; the former U.K. Ambassador to Libya; the Scottish 
Secretary of Justice, Mr. MacAskill; Dr. Andrew Fraser, the 
Chief Medical Officer for the Scottish Prison Service; Dr. 
Peter Kay, Mr. al-Megrahi's primary-care physician; Dr. Latif, 
his consulting urologist; Drs. Jones and Howard, Mr. al-
Megrahi's consulting oncologist; and many others.
    I also want to make it clear, for the record, that we 
exchanged correspondence with Mr. al-Megrahi's Scottish lawyer, 
with a simple request: Authorize the release of your full 
medical records regarding the diagnosis, treatment, and 
prognosis of your prostate cancer. And we also asked, if they 
were unwilling to do so at this time, to allow for their 
publication upon his death. According to response we received 
from Mr. al-Megrahi's attorney, Mr. al-Megrahi has declined 
those requests.
    Among those from BP who refused to cooperate with this 
investigation were Tony Hayward, the CEO; Andy Inglis, the 
chief executive of BP's exploration and production; Felipe 
Posada, chief executive of BP North Africa; Ian Smale, vice 
president for strategy; Sir Mark Allen, a consultant and former 
MI6 intelligence officer directly involved in this matter. All 
refused to cooperate.
    I'm most concerned about the refusal of BP to send a single 
representative to this hearing. I'm concerned that BP, 
operating in our country, extracting resources, seeking permits 
for further drilling, is hiding information. I'm concerned, 
given their refusal to testify and tell us what they know about 
their lobbying efforts and advocacy for Mr. al-Megrahi's 
release, given their pitiful early reactions to the devastating 
spill in the gulf and their initial withholding information on 
the seriousness of the spill, that they are simply bad 
corporate citizens.
    Hiding information then, hiding it now from the committee, 
I find reprehensible. I, frankly, don't know how BP expects to 
continue to do business in American if this is the way they 
treat Americans, including the families of the victims of al-
Megrahi. I don't know why, given the circumstances, BP should 
get a single permit to do business in this country again. And 
I'll be looking at that in a separate forum.
    Now let me go to the essence of what we will hope to 
achieve in the hearing. And I apologize for the extended nature 
of this opening statement, but given the challenges that we 
have had, we need to set the framework here of what we are 
trying to accomplish.
    Notwithstanding the stonewalling this committee has been 
subjected to, today's hearing will thoroughly explore two 
central issues: First, how such an incorrect prognosis was 
made. I think we'll make quite clear that the basis for al-
Megrahi's compassionate release was incorrect, so incorrect 
that the Scottish Government knew, or should have known, it was 
incorrect; and second, if the Scottish Government did know that 
Mr. al-Megrahi had more than 3 months to live, why would they 
release him?
    We're here today to do what we can to get to the bottom of 
this. We owe it to ourselves as a nation founded on the rule of 
law. We owe it to the families. So, in the absence of those 
witnesses, we've gathered experts who will testify today about 
Mr. al-Megrahi's medical diagnosis. They'll tell us about the 
treatment he received, and the prognosis. They've evaluated the 
published facts released by the Scottish Government. These 
medical experts will be offering their assessment of that 
information. And, according to their written testimony, they 
will confirm what we have suspected all along: no medical 
professional familiar with prostate cancer, given the facts at 
hand, could reasonably have given a 3-month prognosis to Mr. 
al-Megrahi.
    I also want to announce, at the outset of this hearing, 
that we have uncovered new information that the medical experts 
have considered.
    First, an official with the Scottish Government confirmed 
that it was a general practitioner, Dr. Peter Kay, who gave the 
final 3-month prognosis when not one of the cancer specialists 
was willing to say that the 3 months was an appropriate 
prognosis.
    We also have new information directly from a Scottish 
Government official concerning Mr. al-Megrahi's treatment. A 
medical report released by Scottish officials does not state 
that Mr.
al-Megrahi received chemotherapy. And in fact, al-Megrahi's own 
statements in August 2009 stated that he had not received 
chemotherapy. But, we now have information from George Burgess, 
a Scottish Government official closely involved with al-
Megrahi's case, who now says al-Megrahi did, in fact, start 
chemotherapy in July 2009. We have publicly released redacted 
medical records that say nothing about chemotherapy, but a 
Scottish Government official who says al-Megrahi was receiving 
chemotherapy. I'm not sure which version of the Scottish 
Government's story to believe, but I do know one thing: the 
discrepancy raises a number of questions, including why the 
information was not forthcoming.
    Medical experts have said, in their testimony, that when a 
man has prostate cancer, and you believe he has less than 3 
months to live, you do not give him chemotherapy. Instead, you 
try to allow him to live out his remaining days in as much 
comfort as possible.
    This leads to new questions. Why is it denied, in official 
government documents, that Mr. al-Megrahi received chemotherapy 
in July 2009? Why did those documents not reveal the fact that 
Mr. al-Megrahi received chemotherapy in July 2009? Why are 
there discrepancies?
    These questions may not be answered today and we'll likely 
only find the answers if and when British authorities finally 
undertake a truly independent inquiry, which I have urged the 
Prime Minister to do in a meeting with him when he was in the 
United States.
    But the larger question, which we will explore further in 
this hearing, is why were the Scottish and British Governments 
so determined to release Mr. al-Megrahi? We have an expert 
today who'll testify about commercial concerns that may have 
influenced U.K. thinking on the merits of Mr. al-Megrahi's 
release, and how Libya uses its oil interest as a foreign 
policy tool.
    We have a lot of ground to cover, so I won't take any more 
time.
    I appreciate our distinguished colleague, who has been in 
pursuit of justice here for the families of Pan Am 103 from the 
very first days of the tragedy. And, without objection, I will 
turn to him first, because of his schedule, and then turn to 
other members who wish to make opening statements.
    With that, let me recognize Senator Lautenberg.

             STATEMENT OF HON. FRANK R. LAUTENBERG,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman, for your 
diligence in pursuit of the truth as to what happened with this 
grotesque process, that we learned about and saw on the screen 
today, where this murderer was given a hero's welcome. And I 
think it was designed deliberately to give word to the world 
that Libya was thumbing its nose at what amounts to human 
atrocity that was perpetrated by the release of this man; this 
man who murdered so many.
    And I thank the witness for being here. And I particularly 
want to note the presence of family members. Mr. Brian Flynn, 
from Montville, NJ--he lost his brother, John Patrick Flynn, 
age 21--someone I've gotten to know very well, as I have many 
of the victims' families. Bob Monetti, from Cherry Hill, NJ--
his son, Rick, was aboard that plane. He was 20 years old. 
Eileen Walsh, from Glenn Rock, NJ, who lost her father, age 62, 
her brother, age 34, and a pregnant sister, Lorraine, age 31. 
Adelaide Marek lost her sister, Elizabeth, age 30, and 
Elizabeth and Dermot Delude-Dix lost her husband and father, 
Peter Dix, at age 35.
    So, Mr. Chairman, when we see what we can describe as an 
act of betrayal--that's what we're looking at, an act of 
betrayal--unfortunately, by a country that has been one of our 
best friends: Scotland. And so, we look, with your direction 
here, to learn the truth. I started with a--on a commission 
appointed by President Bush; and for the past 22 years, I have 
personally witnessed the quest for justice these families--and 
the incredible decision to release this murderer.
    Two hundred and seventy lives were lost in the Pan Am 
bombing. Thirty-eight came from our home State of New Jersey. 
They were on innocent travel. The average age on the airplane 
was 27. Many of the victims were college students returning 
home for the Christmas holidays. Instead of joy, they were 
robbed of the contacts with their children, never--and their 
families--never to see them again.
    Soon after the bombing, I was appointed to a Presidential 
commission by, I mentioned, President George Bush, to 
investigate this bombing, and dispatched--we were dispatched to 
Lockerbie to learn more about this act of terror. As I saw 
firsthand, the Scottish authorities were clearly determined to 
get to the bottom of this mass murder. Policemen, in rows, I 
saw combing brush and grass, looking for the slightest clue. 
The diligence that went into this search, and the final 
conclusion, were clearly a consequence of their friendship to 
us and the consequence of the damage that happened to families 
not only in the airplane, but 11 people on the ground in the 
small town of Lockerbie perished at same time.
    They were absolutely committed to not leave a stone 
unturned as they combed through the foliage and grassy areas, 
searching for even the tiniest scrap of evidence. And finally, 
over 10 years after the heinous act, the perpetrator, al-
Megrahi, was brought to trial. And I worked hard, here in the 
Senate, to secure funding so that the victims' families could 
attend the trial that took place in The Hague. Megrahi's 
conviction brought them a small degree of comfort, knowing that 
a price would be paid for this unconscionable deed and that 
Megrahi would spend the rest of his life behind bars.
    Unfortunately, the events of last summer tore apart this 
small satisfaction that they had, in that justice was being 
pursued.
Al-Megrahi was supposedly suffering from a fatal form of 
cancer, and the Scottish Government decided to release this 
killer back to Libya on so-called compassionate grounds. What 
irony it is that this man who took these lives and, without a 
thought about it, planned carefully, the court decided that 
this was his idea and his management that brought that airplane 
down. And he is released on compassionate grounds.
    We were told that he had just 3 months to live. And it was 
more than a year ago, and this murderer is still feted as a 
hero. And while Megrahi was sent home to his family, his 
victims never made it home to their families.
    To add further pain to the victims' families, this murderer 
got a welcome unsubstantiated by anything done that--in his 
life, when he arrived in Tripoli, Libya.
    Many questions surrounding the circumstances of Megrahi's 
release remain unanswered. The first is how the Scottish 
Government came to the diagnosis of Megrahi's imminent death, 
and whether cancer specialists were ever consulted.
    We have also learned that BP entered, with their influence, 
anxious to get access to Libya's oil in the months leading up 
to the release. And it does not enhance their reputation to see 
that a company that misled Americans so often when trying to 
cure the problem that developed in the Gulf of Mexico, became 
involved with another business deal that they wanted to enter 
into. Didn't matter with whom and who was a culprit in a 
terrible atrocity. So, with that help, the Lockerbie bomber got 
out of jail free--perhaps bought with BP's oil.
    Now, we don't know what role these commercial interests, 
and perhaps others, played in the final decision. But, we're 
absolutely--Mr. Chairman, evidenced by you and by Senator 
Gillibrand here and people from this committee--determined to 
find out. I requested this hearing, some time ago, last fall, 
soon after Megrahi's release, to get to the bottom of these 
questions, and I'm pleased that the committee is holding this 
hearing today. But, I'm disappointed that the Scottish and the 
British Governments refused to show up at this hearing. It's 
outrageous that BP has refused to cooperate. If they are 
committed to the truth, then they have to give us the answers 
we need and that the victims' families deserve.
    Make no mistake about it, we're not going to stop asking 
these questions. We seek answers. We plead for the truth on 
behalf of justice for the families of Pan Am 103.
    Those who commit vicious acts of terrorism must know that 
they'll be punished. It took over 10 years to bring Megrahi to 
justice, and we're not going to give up, even if it takes 
another decade to discover the truth about his release.
    And I thank you for the opportunity to testify today, and 
for holding this critical hearing.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg,
                      U.S. Senator From New Jersey

    Thank you, Mr. Chairman. And thank you to the witnesses joining us 
today. Most importantly, I want to thank the families of the Pan Am 103 
victims. For the past 22 years, I have personally witnessed their quest 
for justice. Two hundred seventy lives were lost in the Pan Am 
bombing--38 came from my home State of New Jersey. The average age on 
the plane was 27: many of the victims were college students returning 
home for the holidays, but they never made it back to their families. 
Instead, they were robbed of their futures by this barbaric act.
    Soon after the bombing, I was appointed to a Presidential 
commission to investigate this bombing and dispatched to Lockerbie to 
learn more about this terrorist act. As I saw firsthand, the Scottish 
authorities were clearly determined to get to the bottom of this mass 
murder. They were absolutely committed to leaving literally no stone 
unturned as they combed through the foliage and grassy areas searching 
for even the tiniest scrap of evidence to find the killers responsible 
for this cowardly act. Finally--over 10 years after the heinous act--
the perpetrator, Megrahi, was brought to trial.
    I worked here in the Senate to secure funding so the victims' 
families could attend the trial. Megrahi's conviction brought them a 
small degree of comfort, knowing that a price would be paid for this 
unconscionable deed, and Megrahi would spend the rest of his life 
behind bars.
    Unfortunately, the events of last summer ripped open the wounds of 
these families. Megrahi was supposedly suffering from a fatal form of 
cancer, and the Scottish Government decided to release this killer back 
to Libya on so called compassionate grounds. We were told he had just 3 
months to live. That was more than a year ago, and this murderer is 
still alive and free. While Megrahi was sent home to his family--his 
victims never made it home to theirs. To add insult to injury--this 
murderer was given a hero's welcome when he arrived in Tripoli.
    Many questions surrounding the circumstances of Megrahi's release 
remain unanswered. The first is how Scotland came to the diagnosis of 
Megrahi's imminent death--and whether cancer specialists were ever 
consulted. We have also learned that BP was desperate to get access to 
Libya's oil in the months leading up to the release. Was the Lockerbie 
Bomber's ``get out of jail free card'' bought with BP's oil? We don't 
know what role these commercial interests--and perhaps others--played 
in the final decision, but we are absolutely determined to find out.
    I requested this hearing last fall, soon after Megrahi's release, 
to get to the bottom of these questions--and I am pleased the committee 
is holding it today. But I am disappointed that the Scottish and 
British Governments refused to show up at this hearing. And I am truly 
outraged that BP has refused to attend. If they are committed to the 
truth, then they must give us the answers we need--and that the 
victims' families deserve. Make no mistake: we're not going to stop 
asking these questions. We want answers. We want the truth. And we want 
justice for the families of Pan Am 103.
    Those who commit vicious acts of terrorism must know that they will 
be punished. It took over 10 years to bring Megrahi to justice. We will 
not give up even if it takes another decade to discover the truth about 
his release. Thank you for inviting me to testify today--and for 
holding this critical hearing.

[Editor's note.--The list of ``Victims of Pan Am 103 Bombing'' 
submitted by Senator Lautenburg as an attachment to his 
statement can be found in the ``Additional Material Submitted 
for the Record'' section of this hearing.]

    Senator Menendez. Thank you for that, Senator Lautenberg. 
And thank you for your continuing commitment to helping us get 
to the truth.
    Senator Gillibrand.

            STATEMENT OF HON. KIRSTEN E. GILLIBRAND,
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Senator Lautenberg, for your 
testimony and your passion and your dedication to finding 
justice in this matter.
    And thank you, Senator Menendez, for holding this hearing,
and for your extraordinary leadership in demanding justice and 
accountability, and doing all that you can to bring light to an 
area that is very disturbing for all of us.
    I also want to thank Dr. James Mohler, chair of the Urology 
Department, Roswell Cancer Center, and professor or urology at 
the University of Buffalo, who will be joining us later today 
for our hearing and offering testimony.
    We have the moral responsibility to investigate why a 
convicted terrorist responsible for taking so many innocent 
lives, including 185 Americans, now walks free and lives in the 
lap of luxury. We have to know how an oil company was able to 
reap actual profits from the course of these events.
    If we don't know what went wrong, we will never be able to 
make sure it's right in the future. If we don't know how a 
guilty terrorist could go free, then we will not be able to 
hold international terrorists accountable in the future.
    The mystery over al-Megrahi's medical diagnosis becomes 
clearer every single day. Experts are testifying today that his 
diagnosis was a sham and that justice was compromised to serve 
BP's financial interests.
    The reports are extremely concerning, from conflicting 
analysis of al-Megrahi's diagnosis to BP's own admission of its 
involvement in this case. That's why we asked for an 
independent inquiry. Did BP's financial interest in drilling in 
Libya contribute to or influence in any way, directly or 
indirectly, the release of al-Megrahi?
    BP admitted, in 2007, that it told the U.K. Government that 
it is concerned that a delay might--that the delay in 
concluding a Prisoner Transfer Agreement with the Libyan 
Government might hurt the deal it had just signed. It also has 
been reported that a special advisor to the company named Mark 
Allen, formerly of MI6 and well-connected in Labor Party 
circles, raised the transfer agreement with then-Justice 
Secretary Jack Straw. Mr. Straw's letters to the Scottish 
Justice Ministry, Kenny MacAskill, indicate that the British 
Government gave in to Libya's demands for a convicted Lockerbie 
terrorist to go free.
    This evidence, although circumstantial, is deeply 
troubling, not just for the families of the Lockerbie victims, 
but for all Americans and all nations of the world who are 
committed to bringing terrorists to justice.
    Last summer, working with my colleagues Senator Menendez, 
Senator Lautenberg, and Senator Schumer, I called on the U.K. 
Government to conduct an independent investigation into this 
matter. We had a very productive meeting with Prime Minister 
Cameron during his first visit to the United States, and he 
pledged that his government would do all it could do to 
rereview the documentary evidence related to the al-Megrahi 
case, and stated that if their review turned up concerns, they 
would consider a full investigation.
    But, we have the tools of our own, right here in our own 
government, to take a long, hard look at this case, starting 
with this hearing today. We hope to uncover the real reasons 
that a convicted terrorist was released.
    I am grateful that Prime Minister Cameron took time to meet 
with my colleagues and I on this matter during his first visit 
to America as Prime Minister. And I appreciate his pledge to us 
that his government would rereview the documents in the matter. 
However, I still believe we do need a full investigation, 
including testimony of the al-Megrahi release, so that we can 
learn from this mistake and assess what steps can be taken so 
that justice is served and terrorists are held accountable in 
future cases.
    Beyond our discussion today, we need two things. We need 
the U.K. Government to continue their review and proceed to a 
full and independent investigation into this matter, including 
taking full testimony. And we need BP to release all the 
correspondence on this issue, so that the public knows that we 
are getting all of the evidence and all of the facts, so we can 
have transparency and full disclosure in this case.
    I am hopeful that we begin--as we begin to uncover the 
facts today, that we will learn more about what happened here, 
because justice must be done in this case. If we are ever going 
to win the fight against terrorism, the rule of law must hold 
strong.
    Thank you, Mr. Chairman, for holding this hearing. And, 
again, thank you, Senator Lautenberg and Senator Schumer, for 
your leadership on this matter.
    Senator Lautenberg. May I be excused, Mr. Chairman?
    Senator Menendez. Yes, Senator Lautenberg. Thank you very 
much. We appreciate it.
    Thank you, Senator Gillibrand, for your statement, as well 
as for your leadership and your consistent effort in this 
regard. I appreciate all the help that you've lent the Chair in 
our effort to get to information.
    Before I call up the first panel, let me ask unanimous 
consent to include documents into the record, including the 
1998 Lockerbie Justice Agreement, U.N. Security Council 
Resolution 1192, the Scotland Act of 1998, statements from 
victims' families, and other relevant documents to this 
hearing.
    Without objection, so ordered.

[Editor's note.--The first three documents will be maintained 
in the permanent record of the committee. The family statements 
and letters can be found in the ``Additional Material Submitted 
for the Record'' section of this hearing.]

    Senator Menendez. Let me ask the first panel to step 
forward, and, as they do, I will introduce them. Our first 
panelists are from the Department of State and the Department 
of Justice. We appreciate both of them being here. Ambassador 
Nancy McEldowney, is the Principal Deputy Assistant Secretary 
of State at the Bureau of European and Eurasian Affairs at the 
State Department. She has served as U.S. Ambassador to 
Bulgaria, the Deputy Chief of Mission in Ankara, Turkey, and in 
Baku, Azerbaijan. Ambassador McEldowney has also served at the 
White House, as Director of European Affairs on the National 
Security Council. She has held a series of posts at embassies 
abroad. We thank you very much for being with us today and look 
forward to your testimony.
    Joining the Ambassador is Deputy Assistant Attorney General 
Bruce Swartz. Mr. Swartz was appointed Deputy Assistant 
Attorney General in January 2000. He served as deputy 
independent counsel in the HUD corruption investigations, as 
counsel for international law enforcement. He was also detailed 
to the U.K. Serious Fraud Office. He has served as counsel to 
the assistant attorney general and as a law clerk to Justice 
Harry Blackmun.
    Thank you very much for being here. I'm hoping that your 
testimony and answers will help us get to some of the facts.
    And, with that, Ambassador, let me start with you, to have 
a 5-minute summation of your testimony. We shall include both 
of your full testimonies for the record. And, with that, 
Ambassador, you may start.

         STATEMENT OF HON. NANCY McELDOWNEY, PRINCIPAL
  DEPUTY ASSISTANT SECRETARY, BUREAU OF EUROPEAN AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador McEldowney. Thank you very much, Senator.
    I'd like to begin by thanking you and the other members of 
the committee for convening this very important hearing.
    I am also pleased and quite honored to be able to join you 
and to offer the State Department's perspective on the 
circumstances surrounding the release, last year, of 
Abdelbasset al-Megrahi, who was convicted in 2001 and sentenced 
to life imprisonment for the bombing of Pan Am Flight 103.
    Lockerbie was an act so savage that, even today, when 
reminders of terrorism are a daily event, as all of us have 
seen, when we open the newspapers this morning and saw the 
reports from the closure of the Eiffel Tower, that this tragedy 
continues to stir powerful emotions, not only among the family 
and friends of those who were lost, but across the United 
States and around the world.
    Those emotions are shared by hundreds of U.S. employees who 
have dedicated countless hours to this case over the years. All 
of them have carried an abiding commitment to the memory of 
those lives cruelly cut short, and to the determination to 
ensure that justice is served. For Secretary Clinton, that 
commitment is both personal and unshakably held.
    Because of the horrific nature of this crime, it was the 
position of the United States Government, when Megrahi was put 
on trial, that any sentence of imprisonment should be served to 
its full completion in Scotland. That has been our unwavering 
and categorically stated position ever since.
    It is the view of this administration that the decision by 
Scottish authorities to release Megrahi and permit his return 
to Libya was profoundly wrong. It was morally wrong because it 
was an affront to the victims' families and the memories of 
those who were killed. It was politically wrong because it 
undermined a shared international understanding on Megrahi's 
imprisonment. And it was wrong from a security perspective 
because it signaled a lack of resolve to ensure that terrorists 
are decisively brought to justice.
    As Secretary Clinton and President Obama have repeatedly 
stated, a resolute conviction remains that Megrahi should not 
be a free man and should be serving out the entirety of his 
sentence in Scotland.
    The diplomatic and legal efforts to investigate and pursue 
justice for those killed in Lockerbie have spanned over two 
decades. In response to the express interests of this 
committee, I will focus my testimony primarily on the efforts 
of the United States Government to ensure that Megrahi remained 
imprisoned in Scotland.
    Before I do, however, I would like to briefly describe the 
circumstances which led to Megrahi's imprisonment in the first 
place. In November 1991, after a joint United States-Scottish 
investigation, both the United States and Scotland brought 
criminal charges against two Libyan nationals, Abdelbasset al-
Megrahi and Lamin Khalifah Fhimah. The United States made 
clear--throughout the 1990s, as Libya resisted handing over the 
accused, in the face of U.N. Security Council resolutions and 
international sanctions--our resolve that the perpetrators of 
this crime must be brought to justice.
    In an effort to break the long stalemate, the United States 
and United Kingdom Governments jointly proposed, in 1998, an 
exceptional arrangement for the Libyan suspects to stand trial 
before a Scottish court established in the Netherlands. These 
arrangements are described in detail in the August 24, 1998, 
letter to the U.N. Secretary General, authored by the United 
States and the United Kingdom, that you, Senator, have made 
reference to. In this letter, the United States and Britain 
confirmed, together, that, if found guilty, the two accused 
will serve their sentence in the United Kingdom.
    As the joint U.S.-U.K. letter clearly reflects, at the time 
Megrahi was transferred from Libya to face trial, there existed 
a shared and very clear understanding between the United 
States, the United Kingdom, and Libya that he would serve his 
sentence in Scotland, if convicted.
    On July 3, 2009, the British Foreign Office confirmed, in a 
letter which has now been made public, a letter to the Scottish 
authorities that stated, in the late 1990s the U.K. Government 
was committed to ensuring that the Lockerbie accused were tried 
before a Scottish court in the Netherlands, and, if convicted, 
they would serve out their sentences in Scotland, in accordance 
with Scots law.
    In response to United States requests in 1998 for binding--
legally binding assurances that the accused would not later be 
transferred to Libya, the then-British Government maintained 
that it could not enter into a legally binding commitment that 
would constrain the hands of future British Governments, but 
they nonetheless assured us of their political commitment that, 
if convicted, Megrahi would remain in Scotland until the 
completion of his sentence.
    In January 2001, Megrahi was convicted of 270 counts of 
murder and sentenced to life imprisonment. As Libya accepted 
responsibility and complied with an agreed settlement on 
compensation to the victims' families, efforts began to 
reintegrate the country into the international community and 
steer it on to a more positive path. The U.N. Security Council 
formally lifted international sanctions in 2003.
    In December 2003, with encouragement from the United States 
and the United Kingdom, the Libyan Government announced its 
landmark decision to voluntarily dismantle its WMD and missile 
programs. In recognition of this shift toward Libya eventually 
becoming a constructive contributor to international peace and 
stability, the United States embarked on a step-by-step process 
of normalization and removal of sanctions as Libya followed 
through and implemented its commitments.
    This process culminated 3 years later, in 2006, in the 
reestablishment of full diplomatic relations between the United 
States and Libya. At no point during this reengagement did the 
United States ever deviate from its longstanding position on 
Megrahi's continued imprisonment in Scotland.
    During this same period, the United Kingdom pursued its own 
reengagement with the Libyan Government, reestablishing 
diplomatic relations in 1999 as Libya cooperated with the 
Lockerbie trial and handed over the accused.
    In May 2007, then-Prime Minister Tony Blair traveled to 
Libya to sign a series of bilateral agreements, including a 
memorandum of understanding on negotiations for a Prisoner 
Transfer Agreement. During this same 2007 visit, BP signed an 
exploration and production-sharing agreement with the Libyan 
Government. This committee has expressed a legitimate interest 
in knowing what role BP may have played in the process of 
negotiating the Prisoner Transfer Agreement, or the PTA.
    Both BP and the British Government have acknowledged 
publicly their discussions that took place on this issue in 
October and November 2007. According to Foreign Secretary 
Hague's July 22 letter to Senator Kerry, BP told the U.K. 
Government that failure to conclude the PTA could negatively 
impact British commercial interests, including its own.
    In attempting to provide this committee with all relevant 
information, we have examined all available State Department 
records and have not identified any further materials, beyond 
publicly available statements and correspondence, concerning 
attempts by BP or other companies to influence matters related 
to Megrahi's transfer under the PTA, or his release by Scottish 
authorities.
    Given that Scottish authorities would be the ultimate 
arbiters of any transfer application for Megrahi, their 
vehement public opposition to his eligibility under a potential 
PTA, and their anger upon learning a specific exclusion would 
not be included in the agreement, these factors reassured us, 
through much of 2008, that they shared our views on his 
continued imprisonment in Scotland.
    Throughout this period, we continued, both publicly and 
privately, to restate U.S. Government views, and we have public 
documents to share with you to that effect. However, a new 
element was introduced when we learned of Megrahi's diagnosis 
with terminal prostate cancer in October 2008. Former Foreign 
Secretary David Miliband later explained to the House of 
Commons, in October 2009, that, ``British interests, including 
those of U.K. nationals, British businesses, and possibly 
security cooperation, would be damaged, perhaps badly, if 
Megrahi were to die in a Scottish prison rather than in 
Libya.'' The Foreign Secretary further stated that, ``Given the 
risk of Libyan adverse reaction, we made it clear to them that, 
as a matter of law and practice, it was not a decision for the 
U.K. Government, and that, as a matter of policy, we were not 
seeking Megrahi's death in a Scottish prison--in Scottish 
custody.''
    Weeks after Megrahi's diagnosis, in November, the U.K. and 
Libya signed the PTA, and it entered into force on April 29, 
2009. Six days later, on May 5, the Libyan Government submitted 
its application for Megrahi's transfer to Libya under the 
auspices of the PTA. Throughout this period, the United States 
continued to communicate unequivocally to both the U.K. and the 
Scottish authorities our longstanding policy that Megrahi 
should serve out his complete sentence in Scotland, regardless 
of the state of his health, the impact on other countries' 
interests, or the possible Libyan reaction.
    As the U.K. and Libya moved forward with the PTA, we 
intensified our efforts to dissuade Scottish authorities from 
transferring Megrahi to Libya. Secretary Clinton highlighted 
our longstanding position directly to Scottish First Minister 
Alex Salmond soon after taking office, during a meeting in 
Washington in February 2009. Two months later, in April, the 
United States formally communicated to both British and 
Scottish Governments that the imminent entry into force of the 
PTA did not change our longstanding position. We also 
underscored this message in April to senior officials in 
Tripoli. And, as my colleague from the Department of Justice 
will clarify, so did Attorney General Holder, in a June phone 
call to Scottish Justice Minister MacAskill.
    On July 24, Megrahi submitted to Scottish authorities an 
application for his release on compassionate grounds as 
permitted under Scottish law. Subsequent to this application, 
during the second week of August, the State Department again 
communicated to Scottish justice officials and to First 
Minister Salmon directly our steadfast conviction that Megrahi 
should remain imprisoned in Scotland for the entirety of his 
sentence, as previously agreed.
    We took the exceptional step of releasing this diplomatic 
community publicly, because we felt it was so important to 
clarify our views. Given the compassionate release was under 
consideration in Edinborough, we also underscored to Scottish 
authorities that, should they proceed with compassionate 
release despite our objections, under no circumstances should 
they permit Megrahi to return to Libya. We argued that if they 
decided they must release Megrahi, over our protests, that he 
should be confined to Scotland, remain under the close 
supervision of authorities, and that an independent and 
comprehensive medical exam clearly establish that he had less 
than 3 months to live.
    Senator Menendez. Ambassador, if I could ask you to----
    Ambassador McEldowney. Please.
    Senator Menendez.--at this point, summarize.
    Ambassador McEldowney. Yes. Let me just--we emphasized that 
we did not endorse any release of Megrahi, in light of the 
seriousness of his crimes.
    Let me just also--let me conclude by noting that, when 
Scottish Justice Minister MacAskill announced, on August 20, 
that, while he had decided to reject Megrahi's application for 
transfer under the PTA, but would nonetheless grant his 
application for release on compassionate grounds, he explained 
his decision by noting that there had been no contact between 
BP or Scottish authorities on this issue and that the decision 
was based solely on judicial grounds, without political or 
economic consideration. He also stated, and stated 
subsequently, that the decision to proceed with so-called 
``compassionate release'' was based on the medical advice 
provided by the Scottish prison service, and that additional 
medical experts, compensated by the Libyan Government, played 
no part in the decision.
    While the Department of State has no evidentiary basis to 
disprove these statements, we believe that the fundamental 
truth remains that the decision to release Megrahi back to 
Libya was a grievous mistake.
    British Prime Minister Cameron has stated that he shares 
these views and, as previously noted, has undertaken a review 
of available government documents to see if further material 
can be brought to light.
    We have also called upon the Scottish Government to be as 
transparent as possible in illuminating their decision. And, in 
particular, we believe that a decision by the Scottish 
authorities to release the medical documentation that led to a 
determination of Megrahi's life expectancy would be appropriate 
and would assist in further understanding the basis of their 
decision.
    As President Obama has stated, all the relevant facts in 
this case should be made available. This committee, the 
victims' families, and the American people deserve nothing 
less.
    We value this committee's important efforts to help us 
achieve this goal, and appreciate this opportunity to cooperate 
with you.
    Thank you very much.
    [The prepared statement of Ambassador McEldowney follows:]

  Prepared Statement of Ambassador Nancy McEldowney, Principal Deputy 
Assistant Secretary, Bureau of European and Eurasian Affairs, Bureau of 
               European Affairs, U.S. Department of State

    Thank you, Senator Menendez, for this opportunity to share with you 
and other members of the committee the State Department's perspective 
on the circumstances surrounding the release last year of Abdelbasset 
al-Megrahi, who was convicted in 2001 and sentenced to life 
imprisonment for the bombing of Pan Am Flight 103.
    Lockerbie was an act so savage that even today, an age when 
reminders of the threat of terrorism are a daily occurrence, the 
tragedy continues to stir powerful emotions, not only among the family 
and friends of those who were lost, but also across the United States 
and around the world. Those emotions are shared by the hundreds of U.S. 
Government employees who have dedicated countless hours to this case 
over the years. All have carried with them an abiding commitment to the 
memory of those lives cruelly cut short and to the determination to 
ensure that justice is served. For Secretary Clinton, that commitment 
is both personal and unshakably held.
    Because of the horrific nature of this crime, it was the position 
of the United States Government when Megrahi was put on trial that any 
sentence of imprisonment should be served to its full completion in 
Scotland. That has been our unwavering and categorically stated 
position ever since.
    It is the view of this administration that the decision by Scottish 
authorities to release Megrahi and permit his return to Libya was 
profoundly wrong: morally wrong because it was an affront to the 
victims' families and the memories of those killed; politically wrong 
because it undermined a shared international understanding on Megrahi's 
imprisonment; and wrong from a security perspective because it signaled 
a lack of resolve to ensure terrorists are decisively brought to 
justice. As Secretary Clinton and President Obama have repeatedly 
stated, our resolute conviction remains that Megrahi should not be a 
free man and should be serving out the entirety of his sentence in a 
Scottish prison.
    The diplomatic and legal efforts to investigate and pursue justice 
for those killed in Lockerbie have spanned over two decades. In 
response to the expressed interests of the committee, I will focus my 
testimony primarily on the efforts of the U.S. Government to ensure 
that Megrahi remained imprisoned in Scotland.
                 historic understanding on imprisonment
    Before I do so, however, I would like to briefly describe the 
circumstances which led to Megrahi's imprisonment in the first place. 
In November 1991, after a joint U.S.-Scottish investigation, both the 
United States and Scotland brought criminal charges against two Libyan 
nationals, Abdelbasset al-Megrahi and Lamin Khalifah Fhimah, in 
connection with the bombing of Pan Am 103. The United States made clear 
throughout the 1990s, as Libya resisted handing over the accused in the 
face of U.N. Security Council resolutions and international sanctions, 
our resolve that the perpetrators of this crime must be brought to 
justice. In an effort to break the long stalemate, the U.S. and U.K. 
governments jointly proposed in 1998 an exceptional arrangement for the 
Libyan suspects to stand trial before a Scottish court established in 
the Netherlands. The arrangements are described in detail in the August 
24, 1998, letter to the U.N. Secretary General authored by the United 
States and United Kingdom. In the letter, the United States and Britain 
together affirmed that ``If found guilty, the two accused will serve 
their sentence in the United Kingdom.''
    As the joint U.S.-U.K. letter reflects, at the time Megrahi was 
transferred from Libya to face trial, there existed a shared 
understanding between the United States, the United Kingdom, and Libya 
that he would serve his sentence in Scotland if convicted. On July 3, 
2009, the British Foreign Office confirmed in a now-public letter to 
Scottish authorities that in the late 1990s ``the U.K. Government was 
committed to ensuring that the Lockerbie accused were tried before a 
Scottish Court in the Netherlands and, if convicted, they would serve 
out their sentences in Scotland, in accordance with Scots law.'' In 
response to U.S. requests in 1998 for binding assurances that the 
accused would not later be transferred to Libya, the then British 
Government maintained it could not enter into a legally binding 
commitment that would constrain the hands of future British 
governments. They nonetheless assured us of their political commitment 
that, if convicted, Megrahi would remain in Scotland until the 
completion of his sentence.
                      u.s. reengagement with libya
    In January 2001, Megrahi was convicted of 270 counts of murder and 
sentenced to life imprisonment. As Libya accepted responsibility and 
complied with an agreed settlement on compensation to the victims' 
families, efforts began to reintegrate the country into the 
international community and steer it onto a more positive path. The 
U.N. Security Council formally lifted international sanctions in 
September 2003, though the United States maintained its own sanctions 
because of continuing concerns about Libyan behavior.
    Three months later, in December 2003, with encouragement from the 
United States and United Kingdom, the Libyan Government announced its 
landmark decision to voluntarily dismantle its WMD and missile 
programs. In recognition of this shift toward Libya becoming a 
constructive contributor to international peace and security, the 
United States embarked on a step-by-step process of normalization and 
removal of sanctions as Libya followed through and implemented its 
commitments. This process culminated 3 years later, in 2006, in the 
reestablishment of full diplomatic relations between the United States 
and Libya. At no point during this reengagement did the United States 
deviate from its longstanding position on Megrahi's continued 
imprisonment in Scotland.
       united kingdom, libya, and the prisoner transfer agreement
    The United Kingdom pursued its own reengagement with the Libyan 
Government during this same period, reestablishing diplomatic relations 
in 1999 as Libya cooperated with the Lockerbie trial and handed over 
the accused. In May 2007, then Prime Minister Tony Blair traveled to 
Libya to sign a series of bilateral agreements, including a memorandum 
of understanding on negotiations for a Prisoner Transfer Agreement 
(PTA). During this same 2007 visit, BP signed an Exploration and 
Production Sharing Agreement with the Libyan Government.
    This committee has expressed an interest in what role BP may have 
played in the process of negotiating the PTA. Both BP and the British 
Government have acknowledged publicly their discussions that took place 
on this issue in October and November 2007. According to Foreign 
Secretary Hague's July 22 letter to Senator Kerry, BP told the U.K. 
Government that failure to conclude the PTA could negatively impact 
British commercial interests, including its own. In attempting to 
provide this committee with all relevant information, we have examined 
all available State Department records and have not identified any 
materials, beyond publicly available statements and correspondence, 
concerning attempts by BP or other companies to influence matters 
related to Megrahi's transfer under the PTA or his release by Scottish 
authorities.
    Given that Scottish authorities would be the ultimate arbiters of 
any transfer application for Megrahi, their vehement public opposition 
to his eligibility under a potential PTA--and their anger upon learning 
a specific exclusion would not be included in the agreement--reassured 
us through much of 2008 that they shared our views on his continued 
imprisonment in Scotland. A new element was then introduced when we 
learned of Megrahi's diagnosis with terminal prostate cancer in October 
2008. Former Foreign Secretary David Miliband later explained to the 
House of Commons in October 2009 that ``British interests, including 
those of U.K. nationals, British businesses, and possibly security 
cooperation, would be damaged--perhaps badly--if Megrahi were to die in 
a Scottish prison rather than in Libya.'' The Foreign Secretary further 
stated that ``Given the risk of Libyan adverse reaction, we made it 
clear to them that as a matter of law and practice it was not a 
decision for the U.K. Government and that as a matter of policy we were 
not seeking Megrahi's death in Scottish custody.''
                 u.s. opposition to transfer or release
    Weeks after Megrahi's diagnosis, in November, the U.K. and Libya 
signed the PTA, and it entered into force on April 29, 2009. Six days 
later, on May 5, the Libyan Government submitted its application for 
Megrahi's transfer to Libya under the auspices of the PTA. Throughout 
this period, the United States continued to communicate unequivocally 
to both the U.K. and Scottish authorities our longstanding policy that 
Megrahi should serve out his complete sentence in Scotland, regardless 
of the state of his health, the impact on other countries' interests, 
or the possible Libyan reaction.
    As the U.K. and Libya moved forward with the PTA, we intensified 
our efforts to dissuade Scottish authorities from transferring Megrahi 
to Libya. Secretary Clinton highlighted our longstanding position 
directly to Scottish First Minister Alex Salmond soon after taking 
office, during a meeting in Washington in February 2009. Two months 
later, in April, the United States formally communicated to both the 
British and Scottish governments that the imminent entry into force of 
the PTA did not change our longstanding position on Megrahi's 
incarceration. We also underscored this message in April to senior 
officials in Tripoli, as did Attorney General Holder in a June phone 
call to Scottish Justice Minister Kenny MacAskill.
    On July 24, Megrahi submitted to Scottish authorities an 
application for his release on compassionate grounds, as permitted 
under Scottish law. Subsequent to this application, during the second 
week of August, the State Department again communicated to Scottish 
justice officials and First Minister Salmond our steadfast conviction 
that Megrahi should remain imprisoned in Scotland for the entirety of 
his sentence as previously agreed. The text of this diplomatic 
communication was released by the State Department on July 26 of this 
year. Given that the compassionate release option was under 
consideration in Edinburgh, we also underscored to Scottish authorities 
that should they proceed with release despite our objections, under no 
circumstances should they permit Megrahi to return to Libya. We argued 
that if they decided they must release Megrahi over our protests, he 
should be confined to Scotland, remain under the close supervision of 
authorities, and that an independent and comprehensive medical exam 
clearly establish that he had less than 3 months to live. We emphasized 
that we did not endorse any release in light of the seriousness of 
Megrahi's crimes, but that such a tightly conditioned scenario would be 
less objectionable than any outcome that permitted his return to Libya. 
Secretary Clinton reinforced this message in a phone call to Justice 
Minister MacAskill on August 13, as did Deputy National Security 
Advisor John Brennan on August 19.
                  megrahi's release and u.s. reaction
    To our grave disappointment, Mr. MacAskill announced on August 20 
his decision to reject Megrahi's application for transfer under the 
U.K.-Libya PTA but to grant his application for release on 
compassionate grounds. In choosing the latter option, the Scottish 
Government not only permitted Megrahi's return to Libya, as would have 
occurred under prisoner transfer, but allowed him to do so as a free 
man able to spend the remainder of his life at home with his family and 
friends--a clear travesty of justice.
    In explaining the decision, both at the time and subsequently, Mr. 
MacAskill and Mr. Salmond have stated that there was no contact between 
BP and Scottish authorities on this issue and that the decision was 
based solely on judicial grounds without political or economic 
consideration. They have also stated that the decision to proceed with 
so-called ``compassionate'' release was based on the medical advice 
provided by the Director of Health and Care of the Scottish Prison 
Service that 3 months was a reasonable prognosis for Megrahi's life 
expectancy, and that additional medical experts compensated by the 
Libyan Government played ``no part in the decision.''
    The Department of State has no evidentiary basis to dispute or 
disprove these statements, but the fundamental truth remains that the 
decision to release Megrahi back to Libya was a grievous mistake. 
British Prime Minister David Cameron has stated that he shares this 
view, and the Prime Minister has asked the U.K.'s Cabinet Secretary to 
conduct a review of British documents to determine if any further 
relevant materials can be brought to light. We have also called upon 
the Scottish Government to be as transparent as possible in 
illuminating the circumstances surrounding their decision. In 
particular, we believe that a decision by the Scottish authorities to 
release the medical documentation that led to a determination of 
Megrahi's life expectancy would be appropriate and assist in further 
understanding the basis of their decision.
    As President Obama has stated, all the relevant facts in this case 
should be made available. The committee, the victims' families, and the 
American people deserve nothing less. We value the committee's 
important efforts to shed light on this issue and appreciate this 
opportunity to cooperate with you toward achieving that goal.

    Senator Menendez. Thank you very much.
    Mr. Swartz.

   STATEMENT OF HON. BRUCE SWARTZ, DEPUTY ASSISTANT ATTORNEY 
    GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Swartz. Mr. Chairman, Senator Gillibrand, members of 
the committee, family members of the victims of Pan Am 103, 
thank you for this opportunity to appear this morning on behalf 
of
the Department of Justice to discuss the release of Abdelbasset
al-Megrahi, the convicted Pan Am 103 bomber.
    There are three points I would like to make this morning.
    First, the Department of Justice has pursued this case 
relentlessly--our prosecutors and our FBI agents--for over two 
decades.
    Second, as part of that pursuit of justice, the Department 
of Justice, along with the Department of State, has taken the 
unwavering position that al-Megrahi, upon his conviction, 
should serve his entire sentence in Scotland, and should not be 
returned to Libya under any circumstances.
    And third, again as part of that commitment to this matter, 
upon Megrahi's release, the Department of Justice, through the 
Attorney General and the Director of the FBI, took the unusual 
step of publicly and explicitly denouncing this step by the 
Government of Scotland, and furthermore made clear their 
disappointment and distress, disappointment and distress that 
continues to this day.
    Let me turn to my first point. The Department of Justice 
has been involved in this matter from the day of the bombing, 
itself. The Federal Bureau of Investigation, via its legal 
attache in London on the day of the bombing, quickly 
established contact with the Scottish police. And on the next 
day, an FBI team was dispatched to Scotland. As Senator 
Lautenberg has eloquently noted today, the Scottish police 
engaged in a enormous investigation, which we were proud to be 
part of. And we closely collaborated to ensure that justice was 
secured in this matter.
    After many months of relentless effort on both sides of the 
Atlantic, prosecutors in the criminal division of the 
Department of Justice and the U.S. Attorney's Office, here in 
the District of Columbia, presented a case to a grand jury, 
here in Washington. On November 14, 1991, an indictment was 
unsealed charging Megrahi and his codefendant, Lamin Fhimah, 
with the bombing of Pan Am Flight 103. That same day, as you 
know, the Lord Advocate of Scotland announced the filing of 
parallel charges in Scotland.
    Mr. Chairman, with your permission, I'd like, today, to 
recognize the commitment of the career prosecutors and agents, 
some of whom are here today, the victim witness advocates who 
have dedicated their careers to ensuring that justice is done 
in this matter.
    My second point, Mr. Chairman and members of this 
committee, is that, as part of this commitment to justice, the 
Department of Justice, at the highest levels and in every 
communication, has made clear our unwavering position that, 
once the conviction was obtained, Megrahi should serve the 
entirety of his life sentence in Scotland and not be 
transferred or released to return to Libya before the 
conclusion of his sentence.
    Indeed, the potential place of imprisonment was one of the 
earliest issues raised by the United States in connections with 
the negotiations for a trial before a Scottish court in the 
Netherlands. As Ambassador McEldowney has noted in her 
testimony, the August 24, 1998, United States-United Kingdom 
letter to the U.N. Secretary General affirmed that, if found 
guilty, the two accused will serve their sentence in the United 
Kingdom. And while there was not an internationally binding 
agreement to this effect, the then-British Government, in 1998, 
assured us of their political commitment that, if convicted, 
Megrahi would remain in Scotland until the completion of his 
sentence. And the Department of Justice actively participated 
in the negotiations that led to that understanding.
    In 2007, however, as you know, the United Kingdom entered 
into a memorandum of understanding with Libya on negotiations 
for a Prisoner Transfer Agreement, and it signed such an 
agreement in November 2008. The Prisoner Transfer Agreement 
entered into force on November 29, 2009; and only a few days 
thereafter, Libya applied for the transfer of Megrahi. Under 
devolution of course, the decision on the prisoner transfer of 
Megrahi rested with the Scottish executive. Accordingly, the 
United States, consistently and at the highest levels, 
communicated our vehement objection to any transfer by the 
Scottish authorities of Megrahi to Libya.
    In a personal phone call to Scottish Justice Minister Kenny 
MacAskill, Attorney General Holder was adamant that assurances 
had been given to the United States Government that any person 
convicted would serve his sentence in Scotland. This clear 
understanding was also reiterated in the call by Secretary of 
State Clinton to Minister MacAskill, and Mr. MacAskill 
recognized and noted both of these calls in his decision on 
prisoner transfer.
    But, subsequently to the prisoner transfer application, as 
you also know, on July 24, 2009, Megrahi submitted an 
application to the Scottish authorities for compassionate 
release on the grounds he had prostate cancer. Mr. Chairman, as 
you recognized, compassionate release is a different matter 
from prisoner transfer, and the United States had previously 
acknowledged that compassionate release was provided for under 
Scottish law, and presented different issues than prisoner 
transfer that could be discussed at the time such an 
application was made. But, once the application was made, the 
United States Government made explicit our opposition, as 
Ambassador McEldowney has made clear, to any such release, and 
took the position that if our opposition were overruled, 
release should come only under two conditions: first, that 
there be independent and comprehensive medical exams 
establishing he had less than 3 months to live; and second, 
that he remain in Scotland under supervision. As you know, 
sadly, neither condition was met.
    That brings me to our third point: the Department of 
Justice's unusual, immediate, and unequivocal public 
denunciation of the decision to release Megrahi. After his 
release, Attorney General Holder immediately condemned the 
decision as unjustified, and publicly reiterated that it 
continued to be the Justice Department's position that Megrahi 
should have been required to serve the entire sentence handed 
down on him for his crimes. Similar views were stated by FBI 
Director Robert Mueller, who, in his former position as 
Assistant Attorney General for the Criminal Division, had led 
the investigation that led to Megrahi's indictment in 1991.
    On August 21, 2009, the day after Megrahi was released, 
Director Mueller wrote a letter to Scottish Justice Secretary 
Kenny MacAskill, stating that the release was, ``as 
inexplicable as it is detrimental to the cause of justice,'' 
and, ``makes a mockery of the rule of law.'' ``Most 
importantly,'' Director Mueller continued in the letter, ``your 
action makes a mockery of the grief of the families who lost 
their own on December 21, 1998.''
    In closing, Mr. Chairman, members of the committee, let me 
say that the sentiments expressed a year ago by Attorney 
General Holder and Director Mueller remain those of the 
Department today.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Swartz follows:]

  Prepared Statement of Hon. Bruce Swartz, Deputy Assistant Attorney 
 General, Criminal Division, U.S. Department of Justice, Washington, DC

    Mr. Chairman, Ranking Member Lugar, members of the committee, and 
family members of the victims of Pan Am Flight 103, thank you for 
inviting me to testify on behalf of the Department of Justice about the 
Scottish Cabinet Secretary for Justice's release on compassionate 
grounds of Abdel Basset Ali Mohmed al-Megrahi.
    I would like today to make three points. First, the Justice 
Department has relentlessly pursued justice for the victims and 
families of Pan Am Flight 103 for over two decades. Second, throughout 
that time, the U.S. Government--through the Department of State and the 
Department of Justice--consistently took the position that Megrahi, if 
tried before a Scottish court, should serve his sentence in Scotland 
and under no circumstance be transferred to, or allowed to, return to 
Libya prior to the conclusion of any such sentence. And third, when 
Megrahi was released from a Scottish prison on compassionate grounds 
and allowed to return to Libya, the Attorney General and the Director 
of the FBI immediately and publicly expressed their profound 
disagreement with, and distress over, the decision by the Scottish 
Cabinet Secretary for Justice--disagreement and distress that continues 
to this day.
                               background
    Before turning to these three points, I would like to provide some 
background to this matter. On January 31, 2001, following an 8-month 
trial before the Scottish Court in the Netherlands, Megrahi was 
convicted by a unanimous panel of judges of the murder of the 259 
passengers and crew on Pan Am Flight 103, and of the 11 residents of 
the Scottish town of Lockerbie, Scotland. Megrahi was immediately 
sentenced to life imprisonment by the Scottish Court, with the minimum 
period that he was required to serve before becoming eligible to apply 
for parole set at 27 years. The following year, an appeal by Megrahi 
was rejected as not well-founded by the Lord Justice General of 
Scotland, who presided over a unanimous appellate panel of five 
Scottish High Court of Justiciary judges. Pursuant to the terms of 
arrangements jointly proposed by the United States and the United 
Kingdom--also incorporated into United Nations Security Council 
Resolution 1192--Megrahi was immediately removed from Kamp van Zeist in 
the Netherlands to a prison in Scotland to serve his life sentence.
                  the department's pursuit of justice
    The Department of Justice has actively pursued justice in this 
matter for over 20 years. The Justice Department became involved in the 
investigation of the bombing of Pan Am Flight 103, and ultimately in 
Megrahi's prosecution, on December 21, 1988--the very day of the 
bombing. The Federal Bureau of Investigation (FBI), via its legal 
attache in London, quickly established contact with the Scottish 
Police, and the following day--December 22--dispatched a team of U.S. 
agents to Lockerbie to begin what rapidly evolved into a joint 
investigation conducted by the Scottish police assigned to the 
Lockerbie Incident Control Center and FBI agents stationed in Lockerbie 
and Washington, DC.
    The Scottish Police combed a crime scene that spanned 845 square 
miles and collected every possible item that might have come from the 
aircraft. The Scottish Police then sifted through this mass of debris 
for items of forensic significance. During this difficult time, the 
Scottish Police, and the residents of the town of Lockerbie, were also 
gracious hosts to the numerous American relatives of the victims who 
came to Lockerbie in the bombing's immediate aftermath.
    For our part, in addition to the extensive investigation being 
conducted by the FBI in the United States in response to Scottish 
requests, the U.S. Attorney's Office for the District of Columbia and 
the Criminal Division of the Department of Justice each assigned 
experienced attorneys to provide legal guidance to the FBI, and to 
coordinate with their Scottish counterparts.
    After many months of relentless, tireless effort by the FBI, DOJ 
prosecutors, and their Scottish counterparts, prosecutors in the 
Criminal Division and the D.C. U.S. Attorney's Office presented the 
case to a grand jury enpaneled in the U.S. District Court. On November 
14, 1991, an indictment was unsealed charging Libyan Intelligence 
Service member Megrahi and Libyan national, Lamin Khalifah Fhimah, with 
the bombing of Pan Am Flight 103. That same day, the Lord Advocate of 
Scotland announced the filing of parallel charges in Scotland. The 
personal involvement, dedication, and compassion for the victims of the 
many career employees within the Justice Department who labored to hold 
to account all those who participated in this horrendous act has 
informed each action the Justice Department has taken in investigating 
and prosecuting this case and continues to the present day.
                        nonrepatriation to libya
    Throughout this 20-plus year period, both the Department of Justice 
and the Department of State have consistently taken the position that 
Megrahi should serve the entirety of his life sentence in Scotland and 
not be transferred or allowed to return to Libya before its conclusion. 
This was one of the earliest issues raised by the United States in 
connection with the negotiations for a trial before a Scottish court in 
the Netherlands, and the United States continued to raise it following 
Megrahi's conviction and incarceration.
    Mr. Chairman, in your letters of July 29, and September 22, 2010, 
you have asked that I discuss the 1998 agreement reached between the 
United States, the United Kingdom, and Libya that required individuals 
convicted in the Pan Am 103 bombing to serve their sentence in 
Scotland, and DOJ's communication with the Scottish Government about 
this agreement. As Principal Deputy Assistant Secretary McEldowney has 
testified, there was no binding agreement under international law that 
would have required Megrahi to serve his entire sentence in Scotland. 
Nonetheless, the Justice Department participated in extensive 
negotiations between the U.S. Department of State and the U.K. Foreign 
Office, which led to the joint United States-United Kingdom proposal 
for a trial under Scottish law and before a Scottish court sitting in 
the Netherlands. Following these negotiations, the United States took 
the position that there was a political understanding between the 
United States and the United Kingdom that Megrahi would serve the 
entirety of his sentence in Scotland, and would not be transferred, or 
allowed to return, to Libya before its conclusion.
    Because the trial of Megrahi in a third country outside of the 
United States raised numerous questions, further negotiations between 
Justice Department representatives and the British Government were held 
in London in 1998 on matters such as the location of any convicted 
individual's service of sentence and the potential for future prisoner 
transfer agreements with Libya. With respect to service of sentence, 
the Department of Justice representatives maintained that any sentence 
must be served in Scotland. With respect to a prisoner transfer 
agreement, the Department's representatives learned that no prisoner 
transfer agreement then existed in 1998 between the United Kingdom and 
Libya, but that Prime Minister Tony Blair's incumbent government would 
not bind successor governments by giving the United States a commitment 
that the U.K. would not enter into a prisoner transfer agreement with 
Libya. Our representatives also learned that the Secretary of State for 
Scotland had the statutory power to release terminally ill prisoners on 
compassionate grounds (a power which would later transfer to the 
Scottish Executive under devolution) and that this discretion could not 
be fettered in advance by agreement. Nonetheless, the Department's 
representatives made it clear that we were unalterably opposed to the 
accused being returned to Libya, prior to the conclusion of his 
sentence, under any circumstances.
               megrahi's release on compassionate grounds
    Seven years after Megrahi's 2001 conviction, in October of 2008, 
the Department of State was informed that Megrahi had been diagnosed 
with stage four prostate cancer. The Department of Justice also learned 
at that time that the Scottish administrative practice was to consider 
the release of terminally ill prisoners who have a prognosis of three 
months or less to live. In addition, the United Kingdom signed a 
Prisoner Transfer Agreement (PTA) with Libya in November 2008, 
negotiation of which had begun in 2007. This agreement was anticipated 
to come into effect sometime in 2009. The power to grant or deny an 
application under either the Prisoner Transfer Agreement, or for 
compassionate release, rested with the Scottish Executive. Although the 
United States had no say in actions undertaken by the Scottish 
Government in compliance with their own regulations in governing 
authorities regarding prisoner transfer or granting of compassionate 
release, the Department of Justice and the Department of State were 
once again adamant that Megrahi not be allowed to return to Libya.
    In 2009, both Secretary of State Hillary Clinton and Attorney 
General Eric Holder personally conveyed to the Scottish Executive the 
U.S. Government's vehement opposition to Megrahi's transfer or release 
to Libya. To be sure, the Scottish Executive's discretion to release 
terminally ill prisoners on compassionate grounds was statutory and 
could therefore not be limited in advance by agreement. Nonetheless, 
the United States was equally adamant that if any such compassionate 
release took place, Megrahi must remain in Scotland, as the Department 
of State made clear in a demarche on the issue.
                     reaction to megrahi's release
    As I have described today, the Department of Justice, at every 
opportunity, restated its opposition to Megrahi's release and return to 
Libya. After Megrahi was in fact released in August 2009, Attorney 
General Eric Holder condemned the decision as unjustified and publicly 
reiterated that it continued to be the Justice Department's position 
that Megrahi should have been required to serve the entire sentence 
handed down on him for his heinous crimes.
    Similar views were stated bythe FBI Director, Robert Mueller, who, 
in his former position as Assistant Attorney General for the Criminal 
Division, had led the investigation that resulted in Megrahi's U.S. 
indictment in 1991. On August 21, 2009--the day after Megrahi was 
released--Director Mueller wrote a letter to Scottish Justice Secretary 
Kenny MacAskill stating that the release is ``as inexplicable as it is 
detrimental to the cause of justice'' and ``makes a mockery of the rule 
of law.'' ``[M]ost importantly,'' Director Mueller poignantly continued 
in the letter, ``your action makes a mockery of the grief of the 
families who lost their own on December 21, 1988.''
    The sentiments expressed a year ago by Attorney General Holder and 
Director Mueller remain those of the Department today: The dedicated 
men and women at the Justice Department understand that it is 
impossible to measure what was lost when the lives of these 270 people 
were taken by this act of state-sponsored terrorism or the traumatic 
and sometimes debilitating grief of the families left behind. We know 
that this grief continues to this day and appreciate the outrage and 
anguish over Megrahi's release and return to Libya that the families 
continue to share with the Justice Department through our Office of 
Justice for Victims of Overseas Terrorism and the FBI's Office for 
Victim Assistance, among others. Please be assured that since that 
tragic day in December 1988, all of the FBI agents, victim-witness 
counselors, and prosecutors who have observed this grief have done 
everything in their power to provide whatever relief possible.
    This concludes my prepared remarks, and I will try to answer any 
questions that the committee has for the Department of Justice.

    Senator Menendez. Thank you both very much for your 
testimony.
    And let me join you, Mr. Swartz, in thanking all of the 
career members of the Justice Department and the victims' 
advocates who worked so diligently to bring the murderer to 
justice. So, we thank them and I'm sure all Americans thank 
them.
    We'll do 8-minute rounds based on the number of members who 
are here at this point--and then we'll go to a second round, if 
we need it. The Chair will start with himself.
    I want to get to something that I think you've both made 
rather clear, but I just want to not even allow a scintilla of 
doubt here. It has been suggested abroad, and some 
domestically, that there was some equivocation by the 
Government of the United States as to the release of al-
Megrahi, even in the context of compassionate release. You both 
have testified that the United States opposed the release. Was 
there any equivocation of that position in any of the 
correspondence and communiques going back and forth?
    Ambassador.
    Ambassador McEldowney. Thank you for asking that question, 
because I appreciate the opportunity to correct the record. 
There was no equivocation in any U.S. Government communication 
to any entity about our views that Megrahi should not, should 
never, be transferred to Libya, and that he should serve his 
full sentence to its entirety in Scotland. We stated that 
privately to government officials. We have stated that on 
numerous occasions publicly in press statements and in media 
interviews. So, I am troubled to hear that there are 
suggestions that there was anything less than absolute clarity 
about the U.S. Government position. And, as I say, I'm pleased 
to have the opportunity to clarify the record.
    Senator Menendez. Would that also be true for the Justice 
Department?
    Mr. Swartz. Yes. Senator, let me also address this issue, 
because I think it is important to clarify the record.
    As you noted at the outset, and as I mentioned in my 
opening statement, the United States Government always 
recognized that compassionate release was a possibility under 
Scottish law. We knew that from the original negotiations in 
1988. And I believe that some of the confusion that may arise 
here--some of the incorrect implications arise from the fact 
that discussions prior to Megrahi's actual application for 
compassionate release, the United States Government, in 
communications, acknowledged that Scottish law did provide for 
this and that it could be considered by the Scots authorities 
at the appropriate time. That includes in communications from 
the State Department, in the Attorney General's conversation 
with MacAskill. But, notwithstanding that, the issue always 
remained one of what would be done when he made his application 
for compassionate release and, beyond that, what compassionate 
release would mean. The understanding of the United States 
Government was that compassionate release, while unfortunate, 
would mean that he would essentially--Megrahi would essentially 
serve the remainder of his time in a hospice in Scotland--or a 
hospital--and would die outside of the prison, inside Scotland.
    Obviously, it was never contemplated that compassionate 
release would be used as a vehicle to transfer Megrahi to 
Scotland. In fact, that would be nonsensical. The United 
States, having been adamant that Megrahi not be returned to 
Scotland as a prisoner, would hardly have signaled that it 
would be acceptable for him to be returned as a free----
    Senator Menendez. So, you acknowledged Scottish law, but 
also made it very clear that it was your expectation that al-
Megrahi would not be allowed to be released outside of 
Scotland.
    Mr. Swartz. Absolutely. I think that the record is clear in 
this regard. One need only look at Kenny MacAskill's--Justice 
Minister MacAskill's statement about the release itself, in 
which he points out that the United States, through Attorney 
General Holder and through Secretary Clinton, was adamant that 
he not be returned to Libya.
    Senator Menendez. In fact, Mr. Swartz, isn't it the 
understanding of the United States that, if found guilty, the 
individuals would serve the entirety of their sentences inside 
of Scotland?
    Mr. Swartz. Yes, Mr. Chairman, that was our understanding. 
We believed that we had an understanding that the individual 
would serve the entirety of his sentence. I should say that the 
United Kingdom was unwilling to commit to ``the entirety of the 
sentence'' being the explicit language, but we believe we had a 
political understanding that Megrahi would serve his sentence 
in Scotland.
    Senator Menendez. So, do you believe that al-Megrahi's 
release on compassionate grounds breached the verbal 
commitments by the United Kingdom and the political 
understanding set forth in the 1998 Lockerbie justice 
agreement, that the suspects, if convicted, would serve their 
sentences fully?
    Mr. Swartz. We believe that the understanding that we had, 
the political understanding, was breached by the return of 
Megrahi to Libya.
    Senator Menendez. Madam Ambassador, are you aware of 
Qaddafi's August 2009 comments to the Herald Scotland that 
stated that the primary reason for concluding a Prisoner 
Transfer Agreement was to secure of the return of al-Megrahi to 
Libya? Specifically, he said that, ``For the past 7 to 8 years, 
we have been trying very hard to transfer Mr. Megrahi to Libya 
to serve his sentence here. And we have tried many times to 
sign the Prisoner Transfer Agreement without mentioning Mr. 
Megrahi. But, it is obvious we were targeting him.'' Are you 
familiar with that?
    Ambassador McEldowney. I am, Senator. I'm familiar with 
that. I am also familiar with the desire and the efforts of the 
Scottish authorities to have Megrahi specifically mentioned in 
that Prisoner Transfer Agreement so that the potential for his 
transfer would have been excluded. There was also discussion 
between the Scottish and the U.K. authorities about the 
Scottish desire to have all future individuals associated with 
the Lockerbie bombing excluded from that agreement. In the 
course of the negotiations between the U.K. and Libya, as U.K. 
authorities have subsequently acknowledged, they were unable to 
secure that agreement, and so, they concluded the Prisoner 
Transfer Agreement in what they called the ``standard form,'' 
which makes reference to no one.
    Senator Menendez. In your testimony, you cite the letter 
from British Foreign Secretary William Hague to Chairman Kerry 
in which he acknowledges that the Libyan regime had linked the 
conclusion of a broad Prisoner Transfer Agreement to 
ratification of the BP exploration agreement. It states, 
``During the several months of discussion in 2007 about Libyan 
opposition to the possible exclusion clause in the PTA,'' the 
Prisoner Transfer Agreement, ``there were a number of 
conversations between BP and the then-United Kingdom 
Government. There were three discussions between BP and Mr. 
Jack Straw, or his office, between October and November 2007, 
and at least two contacts in the same period between BP and the 
Prime Minister Foreign Policy Advisor, and contacts with Her 
Majesty's Ambassador in Tripoli.'' The letter further recalls, 
``BP has been made aware, by the Libyans, that failure to agree 
to the Prisoner Transfer Agreement could have an impact on U.K. 
commercial interests, including the Libyan ratification of the 
BP exploration agreement.''
    Based on that statement alone, is there not reasonable 
suspicion that the United Kingdom's decision to conclude a 
Prisoner Transfer Agreement that did not explicitly exclude al-
Megrahi was based primarily on the U.K.'s concern about its 
relations with Libya, commercial and otherwise?
    Ambassador McEldowney. I think there a basis to assume 
that, and I think the statement by then-Foreign Minister 
Miliband also notes that there were political, security, and 
economic considerations that were involved in the U.K. 
decisionmaking.
    Senator Menendez. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, for your 
questions.
    And thank you for your testimony.
    I'd like to talk a little bit about the communications 
between the U.S. Government and the Scottish Government around 
the time that discussions were being made. You both testified 
that we had DOJ to Scottish Justice Minister MacAskill, and 
Secretary Clinton spoke. What were the responses received by 
both the DOJ and the State Department, verbally, on the issue?
    Ambassador McEldowney. As you've stated, we were very clear 
and very categorical about our position, which has not changed, 
that Megrahi should serve out his complete sentence in 
Scotland. It had been our understanding, throughout this 
period, that the Scottish Government agreed with us. Scottish 
First Minister Salmond has gone on record publicly, stating 
that he was opposed to the Prisoner Transfer Agreement, that he 
wanted an exclusion for Megrahi. And so, it was our expectation 
then, and through the course of the discussions that we held in 
the early part of the year, that that would continue to hold. 
It became clear to us over the course of the summer, and 
particularly in late summer, following the submission of 
Megrahi's request for compassionate transfer, that the Scottish 
authorities were considering that option. And that is why we 
reached out and again reiterated our opposition, but also, as 
my colleague has noted--also clarified, if they were determined 
to go forward despite our opposition, that they should, at a 
minimum, undertake the kind of comprehensive medical exam that 
I believe this committee is asking for, and ensure that Megrahi 
stayed within Scotland.
    Mr. Swartz. Senator, if I may add to that, from the 
Department of Justice's perspective. As the Ambassador has 
noted, through the first half of 2009, the issue was one of 
prisoner transfer, since that--the agreement had been 
concluded, the Prisoner Transfer Agreement entered into force, 
and an application had been made by Libya for prisoner transfer 
at the beginning of May. The calls made by Attorney General 
Holder and by Secretary Clinton were part of a series of 
communications to the Scottish authorities, at all levels, on 
this issue. The Attorney General's call took place in June 26, 
following the application for prisoner transfer. He had a 
conversation with Justice Minister MacAskill, and that 
conversation, as reflected in Justice Minister MacAskill's own 
statement at the time of deciding the prisoner transfer issue, 
was clear, as he said that--Justice Minister MacAskill said 
that Attorney General Holder, ``was adamant that assurance has 
been given to the United States Government that any person 
convicted would serve his sentence in Scotland. Many of the 
American families spoke of the comfort that they had placed 
upon these assurances over the past 10 years. That clear 
understanding was reiterated to me by the U.S. Secretary of 
State, Hillary Clinton.''
    So, the conversation was then a direct and forceful one in 
which the Attorney General put forward the position that 
Megrahi should not be transferred back, under any 
circumstances. At that time, no application had been made by 
Megrahi for compassionate release. When that issue came up, the 
decision was that any discussions about that could be taking 
place--take place at a later time, when Scotland considered 
that issue under its own law.
    Senator Gillibrand. One letter I'm looking at, that I want 
to discuss further, because it brings into question the content 
of the conversations and what assurances were made and whether 
they were provided in a way that I think was appropriate.
    There's a letter here, dated 3 July 2009, to Mr. Burgess--
George Burgess, deputy director, Criminal Justice Directorate, 
the Scottish Government. It's from the English--Middle East and 
North African Directorate, King Charles Street, London. And the 
author is not noted in a legible way, so I can't tell you who 
wrote the letter. But, it's a letter specifically--it says, 
``In your letter of 22 June, requesting information on the 
purpose and potential continuing effect of the agreements 
between the U.K., the United Nations, and other governments 
prior to the surrender of al-Megrahi for trial in relation to 
the '98 Lockerbie bombing, specifically asked for advice on the 
extent to which the 1998 U.K.-U.S. letter to the United Nations 
Secretary General on the initiative for the trial''--blah, 
blah, blah--``creates a commitment in relation to the place of 
future imprisonment of the prisoner, al-Megrahi. You asked 
whether there are any additional commitments given to the 
United States Government in this regard.''
    And then, this author goes on to analyze what commitments 
were given to the U.S. Government. And the author concludes 
that our position, which you've both articulated, was very 
specifically given, ``We have concluded that during discussions 
with the United States, both prior to and following the joint 
U.S.-U.K. letter to the U.N., the U.K. Government was committed 
to ensuring that the Lockerbie accused were tried before a 
Scottish court in the Netherlands and, if convicted, that they 
would serve out their sentences in Scotland, in accordance with 
Scots law. We stood by this line fully in our dealings with the 
United Nations, acting as intermediate to Libya. While at the 
time, we considered the Prisoner Transfer Agreement with Libya 
most likely, in view of our relations with Libya, the 
government of the day, in conjunction with the then-Lord 
Advocate, was keen to ensure that any political assurances 
given to the U.S. would not bind the hands of successor 
governments, we could not, at the time, rule out the 
possibility that our relations with Libya might one day change. 
The U.K. Government, consequently, did not give the U.S. an 
absolute commitment in relation to the future imprisonment of 
the Lockerbie accused.''
    So, that was his assessment. Is that consistent with the 
conversations that you're aware of, that no real commitment was 
given at the time?
    And this letter goes on to say that, ``Finally, you 
undertook to hold in confidence any information that we passed 
to you. I'm grateful for this assurance.''
    So, this letter was not intended to be made public. But, I 
would like to delve into, a little more, if the U.K. 
Government, indeed, was not specific in its assurances to us, 
or if they were, and they went back on their word. Because this 
really goes to the heart of our question: What happened between 
these conversations with the United States Government and when 
a decision was later made for compassionate release based on 
changes with the relationship with Libya? Because if it is 
based on changes with the relationship with Libya, I want to 
know if that change is economic in nature and based solely on 
the interest of drilling.
    Mr. Swartz. Senator, I'll have the Ambassador address the 
latter part of that question.
    But, yes, it is the case that, in the discussions that took 
place regarding the place of trial and how long the prisoner 
would serve, that the United Kingdom was unwilling to bind 
future governments, with regard to the possibility that there 
might a Prisoner Transfer Agreement. At the time, of course, 
that the discussions took place, in 1998, there was no Prisoner 
Transfer Agreement with Libya. And, as a result, there is no, 
as we've mentioned, internationally binding agreement in this 
regard, with regard to the service of the sentence.
    Nonetheless, as was also made clear, and as we have 
reiterated on numerous occasions, there was a political 
understanding that Megrahi would serve his time in Scotland, 
the entirety of his sentence. And again, referring to Justice 
Minister MacAskill's statement--as he points out in that 
statement, while the U.K. had declined to provide a full 
explanation of the discussions, it, ``appears to me that the 
American families and government either had an expectation or 
were led to believe that there would be no prisoner transfer 
and the sentence would be served in Scotland.''
    Senator Gillibrand. Right.
    Mr. Swartz. Thank you.
    Senator Gillibrand. Well, this--the last letter I want to 
cite, to inform this discussion, is written 2 weeks later--July 
17, 2009--from Lord Trefgarne, if that's how you pronounce it 
properly, to Kenny MacAskill. And he does raise the issue that 
this is going to create issues with regard to a relationship 
with U.K.-Libya relations. He says, ``May I end by emphasizing 
that speed is of the essence; principally, of course, for 
humanitarian reasons, but also because of the shadow which may 
otherwise fall over the U.K.-Libya relations, and especially 
the interests of the LBB Scottish members and indeed others.'' 
LBBC Scottish members, which is the--Libyan economic 
relationship working group, I think is--what does it stand for? 
LBB--the LBBC members. I'll get you the--what that stands for, 
but I think it's a economic group.
    Ambassador McEldowney. Thank you very much for making 
reference to both those letters.
    Let me first, and very briefly, touch on the July 3 letter 
and the caliber of the commitment between the United States and 
the United Kingdom--and just to reinforce.
    There was--we sought, but did not conclude, a legally 
binding agreement in 1998. So, there was no legal impediment on 
the basis of a legally concluded agreement between us. But, it 
was our very clear understanding that we had a political 
commitment that Megrahi's transfer to Libya would not happen. 
We proceeded on the basis of the understanding that, while at 
some point in the future it might be a theoretical possibility, 
in practice it would never happen. And I think that is our 
understanding. That is what is clear in the 1998 documents. 
That is what is made clear in the 2009 letter that you made 
reference to from July 3, 2009.
    And also, in the argumentation that we made over the course 
of these many years, we pointed out that it was not simply the 
commitment that we felt we had, the shared understanding that 
we felt we had, but also the gravity of the crime. Whether the 
commitment were there or not, the judgment about whether it was 
right to release him, given the circumstances of the crime, we 
argued, it was not.
    Now, second, on the letter from--and I also apologize if I 
mispronounce the name--an individual, Trefgarne--the letter of 
July 17, 2009, which, I understand, is from a member of the 
British Parliament who is also the president of a business 
council that exists between Libya and the United Kingdom. I 
have seen that letter. I have also seen MacAskill's response to 
that letter in which Justice Minister MacAskill says the 
decision rests with the Scottish authorities and the decision 
will be made solely on the basis of judicial concerns, without 
economic or political considerations.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Menendez. Let me go for a second round of questions 
and pick up right where you just finished.
    It is clear that while that statement was made, the 
Scottish officials who have stated that they opposed a broad 
Prisoner Transfer Agreement that would apply to al-Megrahi, at 
the same time made a decision to release him on compassionate 
grounds, essentially accomplishing the same goal. Is that not 
true?
    Ambassador McEldowney. That is----
    Senator Menendez. They knew that the Libyans wanted
al-Megrahi. They knew about this whole debate upon how the 
Prisoner Transfer Agreement would be constructed. And they also 
knew they had the opportunity to release him on the 
compassionate grounds. So, there were clearly parallel tracks 
here.
    Ambassador McEldowney. Senator, I would go further and say 
that, instead of achieving the same goal, it's even worse. Had 
Megrahi been transferred under the terms of the Prisoner 
Transfer Agreement, theoretically he would have been placed in 
a Libyan jail. Because he was granted compassionate release, he 
is a free man today.
    Senator Menendez. Now, did----
    Ambassador McEldowney. And--please----
    Senator Menendez. I'm sorry. Please go. Go ahead.
    Ambassador McEldowney. No, no.
    Senator Menendez. Finish your sentence.
    Ambassador McEldowney. No, no. Please.
    Senator Menendez. In that respect, then, I look at the 
Scotland Act of 1998, which has been introduced into the 
record. Scotland, as a result of that act, has jurisdiction 
over matters involving criminal justice. However, the United 
Kingdom retains powers under foreign policy, immigration, and 
national security. Despite this legal fact, both the United 
Kingdom and Scotland publicly maintain that the decision to 
release al-Megrahi was solely in the hands of Scottish 
authorities.
    However, if you look at the Scotland Act, the United 
Kingdom reserves the power, as I said, under foreign policy, 
national security, and even air travel.
    So, let me refer specifically to part 2 of the act, 
entitled ``Specific Reservations,'' Section Head B--Home 
Affairs, subsection B6, entitled ``Immigration and 
Nationality.'' In it, the Scotland Act of 1998 notes that the 
United Kingdom retains authority over matters dealing with, 
``immigration, including asylum, and the status and capacity of 
persons in the United Kingdom who are not British citizens.''
    Later, in this same section, the act refers to reserve 
United Kingdom powers over ``travel documents.''
    So, given the fact that al-Megrahi is not a British 
citizen, doesn't that mean that, even if the Scots decided to 
release him from a Scottish jail on compassionate release, that 
the United Kingdom retained power over his travel from Scotland 
to Libya?
    Ambassador McEldowney. Senator, I am not an expert in U.K. 
constitutional law, and so, I believe the only people who could 
answer that question definitively are U.K. and Scottish 
attorneys.
    It is my understanding--and this has been stated publicly 
by both Scottish and British authorities--that the authority 
for taking the decision on Megrahi's compassionate release 
rested with the Scottish authorities, based on devolution--the 
devolution arrangements that you've explained. It is also my 
understanding, as you've noted, that the United Kingdom--the 
government in London--retains responsibility for foreign 
policy. I could speculate about whether the United Kingdom 
could have closed the border or somehow prevented Megrahi's 
physical return to Libya, had they chosen to do so at the time. 
But, the government in London, the then-U.K. Government, said, 
``This is a decision that rests with the Scottish authorities. 
We will respect and observe their decision.''
    Senator Menendez. Mr. Swartz, did the Justice Department 
note any of this, under the Scotland Act of 1998?
    Mr. Swartz. Mr. Chairman, I, too, would have to say that 
the complexities of the devolution are ones that we are perhaps 
not expert to comment on, but would note, in addition to the 
Ambassador's point, of course, that the Prisoner Transfer 
Agreement, which was the impetus for the first consideration of 
Megrahi's transfer, was, of course, negotiated by the United 
Kingdom, under its foreign authorities--foreign policy 
authorities. The decision, as the Ambassador has pointed out, 
on compassionate release was, under devolution, one for the 
Scottish minister to make in the first instance, but, again, 
one that we believed would involve release within Scotland and, 
therefore, not pose the issues that you've raised regarding 
transfer of the individual after the release on compassionate 
release.
    Senator Menendez. Well, seems to me that unless somebody 
reads the act in a different way--it was a foreign policy 
decision, after the compassionate release, to allow al-Megrahi 
to physically leave Scotland. Certainly, travel circumstances 
are reserved to the United Kingdom. It seems to me that they 
could have respected the Scottish Government's decision to 
allow compassionate release, flawed as it may have been, and 
then, ultimately, still retained him by virtue of their powers. 
I don't think it takes a rocket scientist to figure it out.
    Let me ask two final questions. You've said that you were 
not able to get a legally binding agreement, but had political 
understandings that were rather significant to our government 
at the time. Explain for the record why we could not conclude a 
legally binding agreement. Was our concern about how 
prosecution would take place, and the inability to come to an 
understanding?
    Mr. Swartz. Mr. Chairman, the position taken by the United 
Kingdom was one that the current government could not bind 
future governments on these issues and, therefore, was not 
prepared to enter into a legally binding agreement, as opposed 
to an understanding that Megrahi would serve his sentence. Of 
course, at the time, the 1998 initiative of the United States 
and the United Kingdom was an attempt, as the Ambassador has 
pointed out, to overcome the intransigence of Libya, with 
regard to the trials of the two accused in connection with the 
Pan Am 103 bombing. And we believed, at the Department of 
Justice, with our colleagues at the Department of State, the 
best way forward to secure justice in these circumstances. And 
again, as the Ambassador has noted, we believed that the nature 
and gravity of the crime would add to that political 
understanding, and would lead to the service of the entire 
sentence in Scotland, in accordance with Scottish law.
    Senator Menendez. So, in essence, it was our desire to seek 
a prosecution that had us make the determination, based on what 
the British were telling us, that this was the best way to move 
forward, in order to try to seek a prosecution. Is that a fair 
statement?
    Mr. Swartz. Yes, Mr. Chairman, we believed that this was 
the best, most efficacious way of moving forward in obtaining 
U.N. support for this approach.
    Senator Menendez. And the final question, Ambassador. You 
both have said that it was a very strong, unequivocal position 
of the United States that al-Megrahi should not be released, 
certainly not be allowed to return to Libya. You both have said 
that in the absence of an absolutely legally binding 
commitment, there was a very clear political commitment and 
understanding between our respective countries that was further 
strengthened by the gravity of the crime committed here. 
However, that understanding didn't materialize as we thought--
so, what political recourse do we have? Or, what does this 
teach us, in terms of a breach of trust, for the future?
    Ambassador McEldowney. Senator, as you know, this 
administration expressed its deep regret and its outrage about 
the decision. Following the decision, we have called for 
Megrahi to be returned to Scotland to serve out his full 
sentence there. And we continue to do that.
    We have also called on both the U.K. and the Scottish 
authorities to make all information available to ensure that we 
have full clarity about the circumstances that led up to this 
decision.
    Those are efforts that we are committed to continuing, as 
we have been committed to continuing to ensure that justice is 
brought in this case, for over two decades.
    Senator Menendez. And finally, does the State Department 
believe that the desire for an independent inquiry conducted by 
the British Government, as Prime Minister Cameron suggested 
when he was the opposition leader, is something that would be 
desirable?
    Ambassador McEldowney. As you know, President Obama has 
said he wants all relevant information brought to light. Prime 
Minister Cameron has committed to you, and has committed to the 
President, that he will undertake an additional examination of 
U.K. Government documents to see if such an inquiry is 
justified and should be conducted. We are waiting to hear from 
the U.K. about the results of that examination.
    Senator Menendez. Thank you both very much for your 
testimony--we appreciate it--and your time.
    Mr. Swartz. Thank you, Senator.
    Ambassador McEldowney. Thank you, Mr. Chairman.
    Senator Menendez. We'll excuse you.
    Now let me now introduce our second panel of experts, who 
will be addressing the medical issues, as well as interaction 
between Libya and the United Kingdom.
    I'd ask them to step forward as we introduce them. First, 
we have Dr. James L. Mohler. Currently, Dr. Mohler is the 
associate director and senior vice president for translational 
research at Roswell Park Cancer Institute in Buffalo, NY. Dr. 
Mohler is a highly accomplished, respected urologist who will 
provide insights into diagnosis and treatment options. He is 
chair of the National Comprehensive Cancer Network Guidelines 
Panel for Prostate Cancer. These guidelines are the gold 
standard for prostate cancer diagnosis and treatment. He has 
also taught and written extensively on the subject, and we want 
to thank him very much for being with us this morning.
    Dr. Oliver Sartor is the second member of our panel, and a 
respected authority on issues surrounding the treatment of 
prostate cancer. He is Piltz professor of cancer research and 
the medical director of the departments of medicine and urology 
at Tulane Medical University--the Medical Center. For the last 
20 years, Dr. Sartor's research and clinical interests have 
focused primarily on prostate cancer. He has published 
extensively on the subject, ranging from genetic studies on 
prostate cancer to clinical trials of experimental agents. He 
is past chairman of the Integration Panel for the Department of 
Defense's Medical Research Program in Prostate Cancer.
    We thank you for coming today to the committee.
    Our third panelist is Jeff D. Porter. Dr. Porter is a 
consultant on the Middle East and Africa, and has spent his 
career as an analyst with extensive experience in the 
international investigative community. He has lived and worked 
in the Middle East and in North Africa. He is an authority on 
Middle Eastern history and on Libya. He holds a B.A. in Islamic 
studies, an M.A. in Arabic, and a Ph.D. in Middle Eastern 
studies from New York University.
    Dr. Porter, thank very much for joining us, as well.
    As with the previous panel, I'd urge you all to summarize 
your statement to 5 minutes. Your full statements will be 
included in the record.
    And with that, we'll start with Dr. Mohler.

   STATEMENT OF DR. JAMES MOHLER, SENIOR VICE PRESIDENT FOR 
  TRANSLATION RESEARCH, CHAIR, DEPARTMENT OF UROLOGY, ROSWELL 
                PARK CANCER CENTER, BUFFALO, NY

    Dr. Mohler. Thank you, Mr. Chairman. I'm honored to come 
before you today to provide my expert opinion about the 
compassionate release granted to Mr. al-Megrahi in August 2005.
    I believe at the time of his release he had not received 
proper treatment, nor did he have less than 3 months to live. 
In fact, I am not at all surprised that he appears alive and 
well today, almost 14 months later.
    I'm qualified to offer these opinions because I'm a 
professor at three institutions. I'm a board-certified 
urologist. I have 23 years of experience and have treated over 
2,000 men with prostate cancer. I've published over 200 peer-
reviewed articles and a book on prostate cancer.
    I'm chair of the Department of Urology at Roswell, which is 
one of our Nation's 40 NCI-designated comprehensive cancer 
centers. My particular expertise in the proper treatment of 
prostate cancer is reflected by my chairmanship of the National 
Comprehensive Cancer Network that you referred to.
    What was Mr. al-Megrahi's status at the time of his release 
from prison? To understand this, we must review his prostate 
cancer diagnosis and treatment. According to the medical report 
released by Scottish authorities, Mr. al-Megrahi was diagnosed, 
September 2008, with prostate cancer that was incurable because 
it had spread to his bones. Fortunately for him, advanced 
prostate cancer can be put into remission in almost all men by 
starving the cancer of the male hormones it needs to grow and 
spread.
    He responded to hormone treatment, but his response was 
short-lived, and he had a rapidly growing prostate cancer, and 
had some bone pain in July 2009. Up until that point, Mr. al-
Megrahi's treatment was standard of care. But, then things 
became very confusing.
    Scottish officials released him for compassionate reasons 
because he was believed to have 3 months or less to live. In my 
23 years of experience caring for more than 2,000 prostate 
cancer patients and reading clinical studies that evaluated 
thousands of patients in similar conditions, there is no 
conceivable way a cancer specialist, or anyone familiar with 
the treatment of prostate cancer, could have given Mr. al-
Megrahi a 3-month survival prognosis. Let me explain why.
    A patient with prostate cancer with an accurate 3-month 
prognosis would have to be almost bedridden. But, Dr. Fraser's 
final medical report said that Mr. al-Megrahi's cancer did not 
restrict or remove his ability to carry out any particular 
task; and he walked down the stairs from his airplane, upon his 
arrival in Libya, as you saw in the video.
    A patient with prostate cancer with an accurate 3-month 
prognosis would be given palliative or end-of-life care focused 
on pain management and making the patient as comfortable as 
possible. However, Scottish officials, doctors, and Mr. al-
Megrahi himself reported, in July 2009, that, and I quote, 
``Different treatment options had been discussed and a new 
treatment had been embarked upon.'' This new treatment may have 
been a new hormone treatment or chemotherapy, but the 
effectiveness of either requires at least 6 weeks to evaluate, 
an evaluation that would not have been possible prior to his 
release.
    So, if Mr. al-Megrahi had 3 months to live, why is he alive 
today? In order to understand why he's alive, we must learn 
what happens to men like him who receive chemotherapy. 
Docetaxel, an every-3-week outpatient chemotherapy treatment 
program, was shown to reduce pain and extend survival in two 
well-done studies reported in the New England Journal of 
Medicine in 2004. In fact, men just like Mr. al-Megrahi 
survived an average of 17 and 19.2 months from the start of 
chemotherapy in those two studies.
    Today, and 1 year ago, when Mr. al-Megrahi was released, 
men have many other options, even if they fail hormone 
treatment and fail chemotherapy. Their prostate cancer can be 
managed with three other forms of hormone treatment, another 
kind of chemotherapy, or radiation. Finally, he could benefit 
from any of three new classes of drugs, which include 
immunotherapy with Provenge, which has been in the news 
recently, better drugs that prevent the production of male 
hormones from weak hormones made from the adrenal glands, such 
as abiraterone, or a new small molecule that works better than 
the antiandrogen drug Mr. al-Megrahi received. In fact, 
abiraterone was discovered in London. And new evidence from a 
large trial in the United States suggests that it extends life 
in men like Mr. al-Megrahi.
    So, if his cancer didn't respond well to hormone treatment, 
why is he alive today? Mr. al-Megrahi's failure of hormone 
treatment meant that his cancer was aggressive. As such, his 
prognosis was worse than others who responded more favorably to 
hormone treatment. However, his prostate cancer's rapid growth 
actually made a response to chemotherapy all the more likely, 
since chemotherapy works best against rapidly dividing cells. 
Therefore, I'm not at all surprised that he may be alive, and 
even well, more than 14 months after beginning chemotherapy or 
other treatments, such abiraterone, for his rapidly growing 
prostate cancer.
    I also believe that any physician with training and 
experience in prostate cancer would find a 3-month prognosis 
for a patient in
Mr. al-Megrahi's condition difficult to believe and possibly 
even ridiculous.
    In short, ladies and gentlemen, I am not the least bit 
surprised that Mr. al-Megrahi is alive today. And it should 
come as absolutely no surprise to the cancer specialists who 
cared for Mr.
al-Megrahi, either.
    I sincerely thank the committee for the opportunity to 
provide this statement.
    [The prepared statement of Dr. Mohler follows:]

  Prepared Statement of James L. Mohler, M.D., Sr. Vice President for 
   Translation Research & Chair, Department of Urology, Roswell Park 
                       Cancer Center, Buffalo, NY

    Mr. Chairman, distinguished members of the Foreign Relations 
Committee, it is my privilege to come before you today to provide my 
expert opinion about the ``three months to live'' prognosis Scottish 
physicians gave Abdelbaset Ali Mohmed al-Megrahi in August 2009.
    Based on the medical report issued by the Scottish authorities, I 
believe that
3-month prognosis was medically unjustifiable. Any physician with any 
training or experience in treating prostate cancer would have known 
that a 3-month prognosis simply could not be made based on Mr. al-
Megrahi's clinical situation at the time of diagnosis, the treatment 
received and the response to that treatment. Moreover, medical 
anomalies regarding his care--especially the use of chemotherapy--call 
into question how the 3-month prognosis was determined.
                             qualifications
    I base my assessment today on a long history of training, practical 
experience, and in-depth research in the field of prostate cancer. I 
earned my medical degree from the Medical College of Georgia and 
competed residency training in Surgery and Urology at the University of 
Kentucky Medical Center and a research fellowship in Urologic Oncology 
at the Johns Hopkins University School of Medicine. I am licensed by 
New York and North Carolina, a Diplomat of the National Board of 
Medical Examiners and the American Board of Urology, and a Fellow of 
the American College of Surgeons.
    My clinical practice focuses upon prostate cancer and robot-
assisted laparoscopic surgery. My laboratory research focuses upon the 
role of the androgen receptor (the protein that binds male hormones to 
activate growth) in racial differences in prostate cancer 
aggressiveness and prostate cancer recurrence during androgen 
deprivation therapy, hereafter called hormone treatment. I have 
authored or coauthored 206 publications and book chapters and a book 
``Androgen Action in Prostate Cancer.'' I serve on the editorial boards 
of The Prostate, Journal of the National Comprehensive Cancer Network, 
Therapeutic Advances in Urology, and Hormones and Cancer, and I review 
for several journals including Cancer, Cancer Research, Clinical Cancer 
Research, Journal of Clinical Oncology, Journal of Urology, and 
Urology.
    I also am the Associate Director and Senior Vice President for 
Translational Research, Chair of the Department of Urology, Founder of 
the Prostate Program, and Professor of Oncology, at Roswell Park Cancer 
Institute, Professor of Urology at the University at Buffalo School of
    Medicine and Biomedical Sciences, and Adjunct Professor of Surgery 
and Member, UNC-Lineberger Comprehensive Cancer Center at University of 
North Carolina.
    I also bring to your attention that I am Chair of the National 
Comprehensive Cancer Network (NCCN) Guidelines Panel for Prostate 
Cancer, Vice-Chair of the Genito-Urinary Committee and Chair of the 
Genito-Urinary Surgery Subcommittee, Cancer and Leukemia Group B 
(CALGB), and Past-President of the Society for Basic Urologic Research. 
I am a member of the American Medical Association, American Association 
for the Advancement of Science, American Association for Cancer 
Research, American Urological Association and American College of 
Surgeons.
                    the prognosis of mr. al-megrahi
    According to the medical report released by Scottish authorities, 
Mr. al-Megrahi was diagnosed September 2008 with poorly differentiated 
(Gleason grade 4+5=9 on a scale of 2 [best] to 10 [worst]), bone 
metastatic prostate cancer and he had a PSA of 363 ng/ml (normal < 2.5 
ng/ml). In layman's terms, this means he was diagnosed with an 
incurable prostate cancer that was so advanced it had spread to his 
bones.
    Fortunately for Mr. al-Megrahi, advanced prostate cancer can be put 
into remission in almost all men by starving the cancer of the male 
hormones it needs to grow and spread. He began hormone treatment, which 
is the standard treatment for advanced prostate cancer, in September or 
October 2008.
    Mr. al-Megrahi had an initial response to this treatment, and his 
PSA dropped to 12.0 ng/ml. In other words, he responded but the failure 
of his PSA to fall to normal (<2.5 ng/ml) or undetectable (<0.2 ng/ml) 
predicted a remission that would be shorter than average .
    Unfortunately for Mr. al-Megrahi, his cancer recurred in spite of 
hormone treatment in April 2009 when his PSA rose to 22.1 ng/ml and 
then 45.1 ng/ml. In short, the hormone treatment was failing and his 
PSA continued to rise, eventually reaching 208.8 July 2009. This 
sequence of PSA test values follows a PSA doubling time of 
approximately 2 months, which is consistent with a very rapidly growing 
prostate cancer. Up until this point, Mr. al-Megrahi's treatment was 
standard care.
    Mr. al-Megrahi was released August 20, 2009, based on a medical 
prognosis that was determined on or before August 10, 2009. We know 
this because that was the date of the medical report, prepared by a 
Scottish physician named Dr. Andrew Fraser, which was the medical basis 
for Mr. al-Megrahi's release. Scottish officials based his 
compassionate release on the fact that, according to this report, he 
was believed to have 3 months or less to live. In my 23 years of 
experience caring for more than 2,000 prostate cancer patients and 
reading clinical studies that evaluated thousands of patients in 
similar conditions, there is no conceivable way a cancer specialist or 
anyone familiar with the treatment of prostate cancer could have given 
a 3-month prognosis based on the clinical situation and treatment 
described above. Let me explain why:

  <bullet> A patient with prostate cancer with an accurate 3-month 
        prognosis would have to be almost bedridden. Dr. Fraser noted 
        in his final medical report that Mr. al-Megrahi's cancer ``did 
        not restrict or remove (his) ability to carry out any 
        particular tasks.'' That is not the definition of a patient 
        with prostate cancer who will die within 3 months. Also, as 
        could be seen by the footage of his reception in Libya, he was 
        ambulatory upon his arrival in Libya.
  <bullet> We know that Scottish Government authorities, doctors, and 
        Mr. al-Megrahi himself all claimed that Mr. al-Megrahi planned 
        on taking courses of chemotherapy. However, a patient with 
        prostate cancer with an accurate 3-month prognosis would have 
        to be so ill that he would have been unable to receive a 
        regimen of chemotherapy. A patient with prostate cancer with an 
        accurate 3-month prognosis would instead be given palliative or 
        end-of-life care focused on pain management and making the 
        patient as comfortable as possible.
  <bullet> Building on the two previous points, a prognosis of 3-months 
        survival cannot be made until either all standard treatment 
        options like chemotherapy have been attempted and evaluated or 
        the patient has clear symptoms--like an inability to walk--that 
        make it medically unreasonable to explore further treatment. In 
        Mr. al-Megrahi's case, they hadn't even begun chemotherapy but 
        intended to do so, which clearly indicates that he was 
        physically able to undergo the next course of treatment and was 
        not within 3 months of dying.

    Contrary to documents published by the Scottish Government, I now 
understand that Mr. al-Megrahi received chemotherapy in Scotland just 
prior to his release. In July 2009, Dr. Andrew Fraser said that 
``different treatment options had been discussed, and a new treatment 
had been embarked upon.'' This new treatment apparently was 
chemotherapy, as stated by George Burgess, the Scottish former Deputy 
Director for Criminal Law and Licensing, in a meeting with Senator 
Menendez's staff. I'll explore what that would mean for Mr. al-
Megrahi's life expectancy, but first I note that it takes at least 6 
weeks to evaluate the effectiveness of chemotherapy after starting the 
treatment. If Mr. al-Megrahi began his chemotherapy in July 2009 after 
his hormone treatment failed, 6 weeks would not have passed prior to 
the final prognosis issued on or before August 10, 2009.
    Still, let us explore what happens when patients just like Mr. al-
Megrahi--a patient who had failed hormone treatments and who had 
similar symptoms--receive chemotherapy. There are published and readily 
known studies from 2004 that enrolled men with recurrent prostate 
cancer that proved that using the chemotherapy drug, docetaxel 
(TaxotereT), an every 3-week outpatient regimen, reduced pain and 
extended survival. These were men who had failed hormone treatment but 
were well enough to undergo chemotherapy, just like Mr. al-Megrahi. 
These men survived an average of 17 or 19.2 months from the start of 
chemotherapy. Another study of 1,296 men on seven different studies, of 
whom some received chemotherapy and others received less effective 
treatment, showed their average lifespan was 13.3 months. Today, men 
have many other options even after they fail hormone treatment and 
chemotherapy. Their recurrent prostate cancer can be managed with other 
forms of hormone treatment, such as ketaconazole, prednisone, or DES 
patches. Mitoxantrone, a weaker chemotherapy, can reduce symptoms but, 
unlike docetaxel, does not extend survival, or painful bone metastases 
can be treated with radiation.
    Finally, Mr. al-Megrahi may benefit from any of three classes of 
new drugs, (1) immunotherapy with sipuleucel-T (ProvengeT); (2) better 
drugs that block production of strong male hormones from weak male 
hormones, such as abiraterone, TAK-700, or VN124-1; or (3) a new small 
molecule, MDV3100, which blocks the androgen receptor better than the 
antiandrogen Mr. al-Megrahi received. Abiraterone was discovered in 
London and new evidence from a large trial in the United States 
suggests that it extends life in men like Mr. al-Megrahi.
    In other words, Mr. al-Megrahi had many treatment options available 
to him in August 2009 that would have extended his life, on average, at 
least another year, and more likely 2 years or more.
    In short, ladies and gentlemen, I am not the least bit surprised 
that Mr. al-Megrahi is alive. And it should come as absolutely no 
surprise to the cancer specialists who cared for Mr. al-Megrahi either.
                              conclusions
    Mr. al-Megrahi's release on compassionate grounds appears to have 
erred in two fundamental ways. First, we now know that Mr. al-Megrahi 
received chemotherapy in Scotland, which Scottish cancer specialists 
would have known was going to extend his life on average 17 or 19.2 
months, depending on which of these well done, large, well-known 
studies you wish to consider. Even if Mr. al-Megrahi didn't receive 
chemotherapy in Scotland and he was just planning on receiving such, he 
would still live on average 17 or 19.2 months beyond the starting date 
when he did receive chemotherapy upon his return to Libya. Again, 
Scottish cancer specialists would have known this from medical research 
dating from 2004.
    The second reason his release appears to have erred was because his 
health was inconsistent with a patient with an accurate prognosis of 3-
months survival. For instance, he was not bed-ridden.
    Some may speculate that Mr. al-Megrahi's failure of hormone 
treatment meant that his cancer was particularly aggressive and 
therefore his prognosis was worse than others who responded more 
favorably to hormone treatment. That is true; many men have long 
remissions from hormone treatment but he didn't. However, his prostate 
cancer's rapid growth rate during hormone treatment paradoxically made 
a response to chemotherapy all the more likely, since chemotherapy 
works best against rapidly dividing cells. In short, patients with 
aggressive prostate cancer like Mr. al-Megrahi respond better to 
chemotherapy than those patients with a less aggressive prostate 
cancer.
    Therefore, I am not at all surprised that he may be alive more than 
14 months after beginning chemotherapy and/or other treatments (such as 
abiraterone) for his rapidly growing, recurrent prostate cancer. I also 
believe that any physician with training and experience in prostate 
cancer would find a three-month prognosis for a patient in Mr. al- 
Megrahi's condition difficult to believe and possibly even ridiculous.
    Thank you for this opportunity to address the inconsistencies 
apparent in Mr. al-Megrahi's compassionate release from prison.
References
    1. Kelley AS, Meier DE. Palliative care--a shifting paradigm. N 
Engl J Med 2010; 363: 781-2.
    2. Petrylak DP, Tangen CM, Hussain MH, Lara PN, Jr., Jones JA, 
Taplin ME, Burch PA, Berry D, Moinpour C, Kohli M, Benson MC, Small EJ, 
Raghavan D, Crawford ED. Docetaxel and estramustine compared with 
mitoxantrone and prednisone for advanced refractory prostate cancer. N 
Engl J Med 2004; 351: 1513-20.
    3. Tannock IF, de Wit R, Berry WR, Horti J, Pluzanska A, Chi KN, 
Oudard S, Theodore C, James ND, Turesson I, Rosenthal MA, Eisenberger 
MA. Docetaxel plus prednisone or mitoxantrone plus prednisone for 
advanced prostate cancer. N Engl J Med 2004; 351: 1502-12.
    4. Halabi S, Vogelzang NJ, Ou SS, Owzar K, Archer L, Small EJ. 
Progression-free survival as a predictor of overall survival in men 
with castrate-resistant prostate cancer. J Clin Oncol 2009; 27: 2766-
71.
    5. Kantoff PW, Higano CS, Shore ND, Berger ER, Small EJ, Penson DF, 
Redfern CH, Ferrari AC, Dreicer R, Sims RB, Xu Y, Frohlich MW, 
Schellhammer PF. Sipuleucel-T immunotherapy for castration-resistant 
prostate cancer. N Engl J Med; 363: 411-22.
    6. Attard G, Reid AH, Yap TA, Raynaud F, Dowsett M, Settatree S, 
Barrett M, Parker C, Martins V, Folkerd E, Clark J, Cooper CS, Kaye SB, 
Dearnaley D, Lee G, de Bono JS. Phase I clinical trial of a selective 
inhibitor of CYP17, abiraterone acetate, confirms that castration-
resistant prostate cancer commonly remains hormone driven. J Clin Oncol 
2008; 26: 4563-71.
    7. Dreicer R, Agus D, MacVicar G, MacLean D, Zhang T, Stadler W. 
Safety, pharmacokinetics, and efficacy of TAK-700 in castration-
resistant, metastatic prostate cancer: A phase I/II, open-label study. 
Abstract Presentation 2010 Genitourinary Cancers Symposium: Chicago, 
IL.
    8. Vasaitis T, Belosay A, Schayowitz A, Khandelwal A, Chopra P, 
Gediya LK, Guo Z, Fang HB, Njar VC, Brodie AM. Androgen receptor 
inactivation contributes to antitumor efficacy of 17(alpha)-
hydroxylase/17,20-lyase inhibitor 3beta-hydroxy-17-(1H-benzimidazole-1-
yl)androsta-5,16-diene in prostate cancer. Mol Cancer Ther 2008; 7: 
2348-57.
    9. Tran C, Ouk S, Clegg NJ, Chen Y, Watson PA, Arora V, Wongvipat 
J, Smith-Jones PM, Yoo D, Kwon A, Wasielewska T, Welsbie D, Chen CD, 
Higano CS, Beer TM, Hung DT, Scher HI, Jung ME, Sawyers CL. Development 
of a second-generation antiandrogen for treatment of advanced prostate 
cancer. Science 2009; 324: 787-90.
    10. Standard of care for recurrent prostate cancer--chemotherapy--
can be found in the NCCN Prostate Cancer Guidelines (www.nccn.org/
members; see PROS-7 System Therapy).
    11. The survival of men with recurrent prostate cancer can be 
estimated using a nomogram (https://www.calgbapps.org/Nomogram/
CRPCv1p1.html) that estimates 12, 18 and 24 months survival probability 
using 7 variables, which include presence of visceral disease, Gleason 
score, performance status, PSA at diagnosis, LDH, alkaline phosphatase 
and hemoglobin.

    Senator Menendez. Thank you very much, Doctor.
    Dr. Sartor.

   STATEMENT OF DR. OLIVER SARTOR, PILTZ PROFESSOR OF CANCER 
 RESEARCH, DEPARTMENTS OF MEDICINE AND UROLOGY, TULANE MEDICAL 
                       SCHOOL, TULANE, LA

    Dr. Sartor. Thank you, Mr. Chairman, ladies and gentlemen.
    I'm pleased today to offer my clinical opinion regarding 
the medical prognosis of Mr. al-Megrahi. And I think we really 
need to go back to July 2009 and look no further than a report 
issued by the Scottish Government. They actually did bring in 
some specialists. What the specialists were not able to 
conclude is that he had a prognosis of 3 months or less. And 
the fact is, they were not willing to say that. And I believe, 
based on my many years of clinical experience and expertise, 
that medical science would not support a prognosis of 3 months 
or less.
    Mr. name is Dr. Oliver Sartor. I have a long list of 
qualifications, some of which you read. I'm the medical 
director and the head of the Prostate Cancer Program at Tulane 
University Medical Center. And I've focused on patients with 
advanced prostate cancer for over 20 years. I've treated 
thousands of patients, and I've published over 100 peer-
reviewed articles, as well as many book chapters, as well.
    As you are well aware, when he was released for his, 
``compassionate reasons,'' in August 2009, it was stated his 
life expectancy was less than 3 months. He was subsequently 
seen on international television. And you showed that video 
today. And I'll say, based on those videos alone, I would 
conclude that the prognosis of less than 3 months was 
inaccurate.
    For patients who are going to die within 3 months, they're 
typically bed-bound. Prostate cancer is a tough disease when it 
spreads to the bone and causes weight loss. It causes severe 
problems with nutrition and causes inanition, causes pain. This 
individual walked down, was greeted in the crowds. I saw the 
original video--just to let you know--when I saw it I was a bit 
befuddled. Back when he was released--yes, I saw it on 
television, not just in the video here--and I was thinking, 
``Why is this man being released?'' It was not at all clear to 
me then, nor now, why he was given a prognosis of 3 months or 
less.
    When we go back to part of the medical report released by 
the Scottish Government, Dr. Andrew Fraser noted, in August 10, 
2009, just 10 days before his release, Mr. al-Megrahi's 
condition did not restrict or remove his ability to carry out 
any particular task. This is very important, because we look at 
prognosis, in part, based on performance status; and given his 
lack of restrictions, I simply don't understand the ``3 months 
or less.''
    Beyond the images that I've alluded to, I also had a chance 
to review some of his medical data. When he was diagnosed, he 
was treated appropriately. He was given hormonal therapy and 
given standard therapy. But, after initially responding to that 
treatment, it subsequently began to grow. That's not 
unexpected. Hormonal therapy does not cure these type of 
patients. But, at the time that his hormonal therapy was 
beginning to fail--and Dr. Mohler referred to this--the variety 
of known effective therapies--approved by the FDA, I might add, 
and approved in treatment in various European countries, as 
well--about using chemotherapy for these patients--and it's 
known to prolong survival. And if we quote the original data--
and I'll go back to the FDA for a second--it was either 18.9 or 
19.2 months of expected survival using chemotherapy for 
patients such as Mr. al-Megrahi. And clearly, if he was a 
candidate for getting chemotherapy at that time--and there were 
discussions that that was the case--we would not even 
anticipate a less-than-3-month prognosis, and, fact is, we 
would have anticipated much more.
    Now, based on this information, it just becomes very 
difficult for me to understand why he was given that 3-month-
or-less prognosis. He was considered to be a candidate for 
chemotherapy, chemotherapy showed to lead to a 19-month 
survival. By the way, a more recent study suggests even longer. 
And why they were saying the 3 months, again, befuddles me.
    So, in summarizing, I just don't think that this was a 
reasonable prognosis. I think that the cancer specialist who 
evaluated his case actually recognized that, because they would 
not state that he had 3 months or less in his prognosis. And 
furthermore--I take this position independently, based on my 
experience through treating thousands of prostate cancer 
patients--the fact that he remains alive today is not at all 
unexpected and leads me, quite frankly, to be very skeptical of 
the process whereby he was determined to have this prognosis.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Sartor follows:]

  Prepared Statement of Dr. Oliver Sartor, Plitz Professor of Cancer 
 Research, Departments of Medicine and Urology, Tulane Medical School, 
                               Tulane, LA

    Mr. Chairman, ladies and gentlemen, I am pleased to be here today 
to offer my clinical opinion regarding the medical prognosis given to 
Mr. Abdelbasset al-Megrahi. When considering whether a 3-month 
prognosis was a reasonable estimate for Mr. al-Megrahi in of July 2009, 
I look no further than the medical report issued by the Scottish 
Government. In this report it is explicitly stated that no specialist 
was willing to say whether or not the prognosis was more or less than 3 
months. I believe that they knew--as I know from my many years of 
clinical practice and knowledge of research--that medical science would 
not support a prognosis of less than 3 months to live.
    My name is Dr. Oliver Sartor and I am the Medical Director of the 
Tulane Cancer Center in New Orleans, LA. I have focused my career on 
patients with advanced prostate cancer for over 20 years and have 
published over 100 articles on prostate cancer in the scientific 
literature.
    In 1990, I was appointed to a Senior Investigator position at the 
National Cancer Institute in Bethesda, MD, and became an integral part 
of the team focusing on advanced prostate cancer. Since that time I 
have been on faculty at various medical schools where I have lectured 
about and continue to research prostate cancer. During my career, I 
have seen literally thousands of patients with prostate cancer.
    As you are aware, Mr. al-Megrahi was released from a Scottish 
prison, supposedly for compassionate reasons, in August 2009. At that 
time, it was publically stated that his life expectancy was less than 3 
months and that then justified his release. Mr. al-Megrahi was 
subsequently seen on international television being greeted as a hero 
on his return to Libya. I personally watched those television 
broadcasts and, based on that alone, I knew that he was not near death. 
Let me explain.
    Patients who have less than 3 months to live, as Mr. al-Megrahi was 
said to be by the Scottish Government, are typically unable to walk 
without assistance. Indeed, they are often bed-ridden or close to bed-
ridden because of the pain, weakness, and weight loss that occurs as 
consequence of advanced cancer. A man who walks down a steep flight of 
stairs off a plane on his own accord, then mingles and greets a crowd, 
certainly does not fit the description of someone on the verge of death 
from prostate cancer.
    I want to emphasize the point by highlighting a part of the medical 
report released by the Scottish Government. Dr. Andrew Fraser noted 
that, as of August 10, 2009, just 10 days before he was released, that 
Mr. al-Megrahi's condition did not restrict or remove his ability to 
carry out any particular tasks. This is a very important piece of 
medical data to consider. It implies that he had a reasonable 
performance status which is an important prognostic factor. Thus it is 
clear based on this statement that Mr. al-Megrahi's prostate cancer had 
not advanced to the terminal stages that require true palliative care, 
that is to say, he was not at the stage where he would best be served 
by receiving only pain management in a hospice setting to provide 
comfort during his final few months of life.
    Beyond the images of Mr. al-Megrahi walking down a staircase, I 
have had the chance to review the patient's available medical data and 
consider the research available to the specialists treating Mr. al-
Megrahi. Here are the highlights of what I think you should know:

  <bullet> Mr. al-Megrahi had advanced prostate cancer. When he was 
        diagnosed in September 2008, the patient had a highly elevated 
        PSA, which stands for ``prostate-specific antigen.'' A high 
        reading often means prostate cancer but additional tests must 
        be conducted. Those tests were done in Mr. al-Megrahi's case 
        and they confirmed cancer was present.
  <bullet> Next, Mr. al-Megrahi received ``hormone therapy,'' which is 
        standard first-line care for patients with his condition. 
        Prostate cancer typically regresses when testosterone lowering 
        therapies are administered.
  <bullet> After initially responding to the treatment, Mr. al-
        Megrahi's cancer later began to fail ``hormone treatment.'' 
        This failure was initially manifested only by a rising PSA. 
        While this is unfortunate, it is to be expected.
  <bullet> In July 2009, Mr. al-Megrahi, Scottish officials, and 
        doctors rightly began discussing chemotherapy. This is a 
        standard, ``next step'' treatment after hormone failure. Though 
        the patient had failed hormonal therapy, and the cancer had 
        spread to his lymph nodes and bone, he had not yet been treated 
        with therapies that are established in the field of prostate 
        cancer. Specifically, he had yet to undergo chemotherapy with 
        docetaxel, which has been shown in large trials to be able to 
        extend life in patients such as Mr. al-Megrahi with advanced 
        cancers that have failed initial hormonal therapy.

    Over the past 10 years, various therapies have been shown to 
prolong survival. In patients similar to Mr. al-Megrahi, treated with 
modern chemotherapy, the median survival is either 18.9 or 19.2 months 
(depending on whether the initial or final study report is cited).
    Based on the information available to me concerning Mr. al-
Megrahi's condition, there is little doubt that in July and August 
2009, he would have been a candidate for chemotherapy. That is why 
Scottish officials, doctors, and Mr. al-Megrahi himself were not only 
aware of but actively exploring chemotherapy for the patient. They 
would have known that it would have the potential capacity to extend 
his life.
    Let me then emphasize the point: patients like Mr. al-Megrahi who 
failed hormone treatment and started chemotherapy have a median 
survival time of either 18.9 to 19.2 months. This is quite distinct 
from the three months that was cited prior to his release.
    To summarize, Mr. Chairman, I again come back to not my words or 
clinical assessment but to those of the Scottish cancer experts who 
oversaw the treatment of Mr. al-Megrahi. They were not willing to say 
that a 3-month prognosis was reasonable. I have shared with you today 
the reasons why I believe in July 2009--just weeks before the release 
of Mr. al-Megrahi--the cancer specialists held that view. I believe 
that they knew that medical science would not support such a prognosis. 
I take this position based on my experience in treating advanced 
prostate cancer over the past two decades, and based on published data 
on patients treated for advanced prostate cancer. data that was well 
published in the medical literature and available to be referenced by 
those treating Mr. al-Megrahi.
    The fact that he remains alive today is not at all unexpected to me 
and leads me to be very skeptical of the process whereby his prognosis 
was determined at the time of his release from prison.
    I am happy to answer any questions at this time.

    Senator Menendez. Thank you very much, Doctor.
    Dr. Porter.

           STATEMENT OF DR. GEOFF PORTER, CONSULTANT,
                          NEW YORK, NY

    Dr. Porter. Mr. Chairman and distinguished members of the 
Senate Foreign Relations Committee, I'd like to thank you for 
the opportunity to testify today regarding Libya, its energy 
sector, its relations with the U.K. and with Scotland.
    The release of Abdelbasset al-Megrahi was obviously an 
important foreign policy goal for the Libyan Government and is 
something that they had pursued for quite some time. And 
obviously, the issue of Megrahi's incarceration in Scotland 
colored relations between London and Tripoli.
    For the last decade, I've been studying North Africa; and 
for the last 6 years, I've been a specialist focusing on 
political risks in North Africa and the Middle East, with a 
focus on Libya. More recently, I've begun working with an 
investigative firm that deals with fraud and corruption 
investigations overseas.
    My analysis is objective, it's agnostic, it's factual-
based, and is impartial.
    Thank you.
    It's clear, from the very outset, that al-Megrahi's release 
was important--an important foreign policy goal for the Libyan 
Government.
    First, the Libyan Government never recognized the 
legitimacy of The Hague ruling, which led to al-Megrahi's 
incarceration, nor did it recognize the ongoing Scottish 
incarceration of al-Megrahi.
    Second, Libyan leader Col. Muammar Qaddafi felt as if he 
hadn't been duly compensated for his renunciation of weapons of 
mass destruction in 2004, and he felt as if perhaps of his 
renunciation of weapons of mass destruction should have wiped 
his checkered history of international affairs clean.
    Third, al-Megrahi comes from an important tribe, the 
Megarha. One of the ways in which Colonel Qaddafi retains power 
in Libya is through the management of tribal politics. Securing 
al-Megrahi's release was critical for Qaddafi's ability to 
maintain the Megarha's tribal--the Megarha tribe's support for 
his leadership. And having secured his release guaranteed that 
the Megarha would continue to support al-Qaddafi.
    And last, 2009 was the 40th anniversary of Qaddafi's 
revolution in Libya, and Megrahi's release guaranteed a 
celebratory and symbolic event suitable for marking the 
occasion.
    Libya has a long history of pressuring foreign firms in 
order to achieve its foreign policy objectives. I'll just limit 
myself to a couple of examples here, for the sake of time. But, 
what's clear is that foreign companies doing business in Libya 
are very exposed to political risks.
    For example, in 2008, two employees of the Swiss EP&C firm 
ABB were detained and arrested in retaliation for the arrest in 
Geneva of one of Qaddafi's sons, Hannibal Qaddafi. Hannibal 
Qaddafi returned to Tripoli and the Swiss employees remained in 
custody in Tripoli.
    In 2009, the Canadian firm Petro-Canada saw its Libyan oil 
production cut in half following criticism from the Canadian 
Prime Minister of the celebration that marked al-Megrahi's 
return to Tripoli.
    In 2010, representatives of the United States oil firms 
doing business in Tripoli were brought in before the Libyan 
Government and chastised, following comments from the U.S. 
State Department criticizing Qaddafi's call for jihad against 
Switzerland.
    So, it's clear from these limited examples--and there are 
many more--that doing business in Libya is fraught with 
political risks, and that Libya uses the presence of foreign 
firms in order to achieve its foreign policy objectives.
    So, given the government's willingness to squeeze foreign 
firms in order to achieve its foreign policy goals, and the 
importance of securing al-Megrahi's release, his release from 
Scottish incarceration removed one element of political risk 
for U.K. firms doing business in Libya. That said, Libya is a 
sovereign state and the U.K. is a sovereign state, and each 
determines its own foreign policy, and each tries to secure its 
own security interests, as well as its own economic interests. 
While U.K. firms may have benefited from al-Megrahi's release, 
there is no evidence that they caused his release, to the best 
of my knowledge.
    U.K. companies do not represent the largest block of 
foreign firms operating in Libya. There are also French, 
Italian, and German firms that have extensive presences there. 
But, U.K. firms and U.K. investments in Libya are very high-
profile, including very large and costly oil and gas 
exploration commitments. It's important to note that these 
investments from U.K. firms in the Libyan oil and gas sector 
predated al-Megrahi's release by at least 2 years. It's likely 
that al-Megrahi's ongoing incarceration in Scotland could have 
jeopardized U.K. businesses in Tripoli and, at the very least, 
his ongoing incarceration would have posed a threat to their 
continuing ability to do business there. His release reduced 
that risk, but I have not seen evidence that proves that the 
risk posed to U.K. firms caused his release.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Dr. Porter follows:]

       Prepared Statement of Geoff D. Porter, Ph.D., New York, NY

    Mr. Chairman, distinguished members of the Foreign Relations 
Committee, I would like to thank you for the opportunity to testify 
about Libya, its government, its energy sector, and its relationship 
with the United Kingdom and Scotland. The release of Abdelbaset al-
Megrahi was an important foreign policy goal of the Libyan Government 
and, as such, there is little doubt that this issue had a broader 
impact on the relationship between Libya and the United Kingdom.
                             qualifications
    For the last decade I have been studying North African political 
developments. I have a Ph.D. in Middle Eastern Studies, with a primary 
focus on North Africa. After leaving academia I worked in a consultant 
capacity for 6 years analyzing political risk for companies doing 
business in Middle Eastern and African countries, including Libya. My 
assessment of political risks in Libya is apolitical and based entirely 
on analysis of factual evidence.
  the foreign policy relationship between the u.k. and libya revolves 
                     around oil and gas exploration
    The U.K.'s relationship with Libya is predominantly related to 
commercial interests, and oil and gas exploration in particular.
    Beginning in 2003, and perhaps earlier, British officials began a 
series of meetings with Libyan officials to discuss how Libya might 
reestablish its relationship with the international community. These 
discussions revolved around Libya giving up its Weapons of Mass 
Destruction Program and from the Libyan perspective, how Libya might 
again attract European and U.S. investment to revive its declining oil 
production. Representatives of the U.S. Government have been reported 
to be in some of these meetings.
    In March 2004 Prime Minister Tony Blair arrived in Libya to discuss 
a ``new relationship'' with Libyan leader Col. Muammar Qadhafi after it 
was announced that Libya would abandon its WMD program and would commit 
to further compensation for the families of the victims of the Pan Am 
103 Lockerbie bombing. The same day, Prime Minister Blair announced 
that Royal Dutch Shell, a publically traded company that is 60 percent 
Dutch and 40 percent British, would sign a $513 million gas exploration 
contract with Libya. Later in May 2007, Tony Blair visited Tripoli and 
announced a $900 million oil and gas exploration contract for BP.
    These public appearances of the British Prime Minister to announce 
oil and gas exploration deals underscore the role that hydrocarbon 
sector plays in U.K.-Libyan relations.
                    bp and shell oil deals in libya
    Libyan oil reserves were critically important for global oil and 
gas companies during the period 2004-08. Global oil demand was rising, 
as were prices, which rose from below $30/barrel in September 2003 to 
more than $147/barrel in July 2008. At the same time access to oil 
reserves had become severely constrained and Libya stood out as a 
potentially very profitable oil play. Libya had abundant reserves of 
high quality crude that was both cheap to extract and close to global 
markets. When international sanctions were dropped in 2004, 
international oil companies including those from the United States, the 
European Union, Russia, China, Japan, and India jockeyed to gain access 
to the Libyan oil patch.
    International oil companies that signed oil and gas exploration 
deals in Libya can be put into three categories. The first group is 
comprised of those companies that reclaimed dormant leases that they 
had been forced to abandon because of U.S. and international sanctions 
in the 1980s. The Oasis group (Amerada Hess, ConocoPhillips, and 
Marathon Oil) falls into this category. The second group consists of 
companies that participated in four open bid rounds to lease tracts of 
previously unexplored areas. In this process, companies submitted bids 
and those with the bids most favorable to Libya won the right to 
explore the area on those terms. Winning bids were based on percentage 
of oil allocated to the Libyan National Oil Corporation (NOC), signing 
bonus, and development program. Bid rounds generally lead to terms that 
are favorable to the states that are organizing them, which is why they 
are a popular method of leasing oil and gas acreage to foreign firms, 
but the terms that the first three of Libya's four rounds produced were 
exceptionally onerous for foreign firms.
    The third category is comprised of companies that negotiated 
bilateral deals with Libya to explore new areas for development. Many 
in the industry felt that while the bid rounds offered the advantage of 
a clear timetable for awarding acreage, bilateral negotiations with the 
NOC would yield better terms, even if discussions took longer. For its 
part, the NOC made clear from 2004 onward that it prioritized the bid 
round framework, but was also open to direct negotiations with oil and 
gas companies.
    Only three companies in this time period negotiated bilateral 
exploration deals with Libya: BP, Royal Dutch Shell, and ExxonMobil. In 
2005, Royal Dutch Shell struck a deal valued at approximately $513 
million to explore oil and natural gas in an area spanning 7,000 square 
miles. In 2007, BP signed a deal in Libya valued at $900 million for 
access to offshore acreage. BP heralded its deal as the largest single 
exploration commitment ever signed by the company. BP was awarded 
18.955 percent production share, with the NOC taking 77.7 percent and 
the Libyan Investment Authority (LIA) taking the remaining 3.345 
percent.\1\ While some companies that won acreage through the bid round 
framework received less that 10 percent production shares, the average 
production share in the first bid round was 14.5 percent. ExxonMobil's 
production share for its acreage was 22.3 percent, whereas India's ONGC 
won a 28 percent production share. Although ExxonMobil's production 
share from its bilateral negotiations was not made public, the company 
committed to a 5-year work program of 4,000km of 2D and 2,000km of 3D 
seismic analysis and at least one deep water well. ExxonMobil also 
committed to a training program for Libyan petroleum sector workers and 
broader support for Libyan education. Many factors influence how 
production shares are divided among a project's stakeholders, including 
the scope of the project, capital expenditures, the prospectivity of 
the acreage, and the complexity of the overall project. Nonetheless, BP 
and Shell, both countries with close ties to the British Government, 
were able to secure large deals for unexplored areas outside the bid 
round process.
---------------------------------------------------------------------------
    \1\ ``BP Libya Deal Details Set,'' International Oil Daily, May 31, 
2007.
---------------------------------------------------------------------------
            the importance of abdelbaset al-megrahi to libya
    Gaining the release of Abdelbasset al-Megrahi was a central foreign 
policy goal of the Libyan Government for multiple reasons. First, Libya 
had consistently asserted that al-Megrahi was innocent of the crimes of 
which he was accused. Given numerous public statements from Libyan 
officials declaring al-Megrahi's innocence, it was politically 
impossible for the government to reverse its position and acknowledge 
the legitimacy of his conviction at The Hague or his incarceration in 
Scottish prison.
    Second, al-Megrahi's tribal ties made his release important for the 
political viability of Qadhafi's continued leadership in Libya. One of 
the ways in which Qadhafi has managed to maintain support in Libya for 
40 years is through tribal alliances. Qadhafi himself comes from the 
Qadhadfa tribe, whereas al-Megrahi comes from the al-Megarha tribe, 
which has historically played an important political role in Libya. 
Securing al-Megrahi's release was critical for ensuring the Megarha's 
continued support of Qadhafi's leadership.
    In addition, Qadhafi has expressed on numerous occasions that his 
country made tremendous sacrifices when it abandoned its WMD programs 
in 2003, but those sacrifices had not be sufficiently recognized by the 
international community, nor had Libya be duly compensated for them. It 
is possible that Qadhafi expected Libya's checkered record in 
international affairs to be wiped clean after renouncing WMD and he 
thought that al-Megrahi's conviction for his role in the Lockerbie 
bombing should be part of that.
    Last, Libya was marking the 40th year of Qadhafi's revolution in 
2009 and the government wanted politically potent symbols to 
distinguish the event. Al-Megrahi's release would symbolize the Qadhafi 
family's enduring commitment to Libya's citizens and the restoration of 
Libya's role on the international stage.
       libya uses commercial ties to achieve foreign policy aims
    It is clear that Libya does not maintain a clear distinction 
between the government and the marketplace and the state often uses 
access to Libyan markets and natural resources in order to achieve 
foreign policy objectives. In other words it is willing to put pressure 
on oil companies in order to achieve its political aims.
    BP indicated to the U.K. Government that al-Megrahi's ongoing 
incarceration would pose challenges to BP's ability to continue to do 
business in Libya after it was awarded acreage. Like every company that 
does business in Libya, BP was well aware of the country's political 
risks. Al-Megrahi's release would reduce BP's exposure to political 
risk.
    BP, perhaps more than other companies, was aware of the risks of 
doing business in Libya. After all, in 1971, Libya nationalized BP's 
assets in the country in response to developments in U.K. foreign 
policy. A diplomatic row between Britain and Libya occurred on November 
29 and 30 of 1971, when the U.K. was set to withdraw its forces and 
grant independence to the sparsely inhabited Persian Gulf islands of 
Abu Musa, Greater Tunb, and Lesser Tunb. Then U.K.-friendly Iran, which 
had agreed to jointly administer Abu Musa with Sharjah (now a part of 
the UAE) unexpectedly seized and occupied Greater and Lesser Tunb.\2\ 
Shortly after, on December 7, 1971, the Libyan Government nationalized 
``all the interests and properties of BP in the Hunt/BP deed of 
concession'' \3\ announcing that, ``it had nationalized the assets of 
the British Petroleum Exploration (Libya) Ltd. in retaliation for Great 
Britain's failure to prevent Iranian occupation of Arab islands in the 
Persian Gulf.'' \4\
---------------------------------------------------------------------------
    \2\ ``UAE renews calls for talks on disputed islands,'' Arabian 
Business, May 23, 2009.
    \3\ Robert B. von Mehren and P. Nicholas Kourides, ``International 
Arbitrations between States and Foreign Private Parties: The Libyan 
Nationalization Cases,'' The American Society of International Law, 
July, 1981, 483.
    \4\ Winthrop G. Haight, ``Libyan Nationalization of British 
Petroleum Company Assets,'' International Lawyer, Vol. 6, No. 3, 1972, 
541.
---------------------------------------------------------------------------
    Other foreign oil companies, including Occidental Petroleum, Exxon, 
Mobil, Shell, and Texaco \5\ were able to broker deals with Libya that 
kept them operational during a period of nationalizations and pullouts 
between 1973 and 1986, when all American oil interests were finally 
prevented from doing business in Libya.\6\
---------------------------------------------------------------------------
    \5\ Andrew Carvely, ``Libya: International Relations and Political 
Purposes,'' International Journal Vol. 28, No. 4, Autumn, 1973, 711.
    \6\ Library of Congress, http://countrystudies.us/libya/
60.htm(August, 2009).
---------------------------------------------------------------------------
    Libya's nationalization of BP's assets was not done out of economic 
interest for Libya, but was clearly a punitive measure directed toward 
the Government of Britain and its greatest financial asset, British 
Petroleum. In 1973, Libya nationalized the assets of a further nine 
foreign companies in order to express its opposition to U.S. foreign 
policy positions at the time.
    This approach has resumed since sanctions against Libya were 
dropped in 2004 and international oil companies returned. In 2009, 
Petro-Canada's Suncor lost 50 percent of its oil production in 
retaliation for Canada's criticism of al-Megrahi's release and the 
celebratory reception he received upon returning to Tripoli. Canadian 
Prime Minister Stephen Harper made public comments that he was 
displeased with the triumphant return that al-Megrahi received in 
Libya. Petro-Canada promptly saw its daily production halved, from 
90,000bpd to 45,000bpd, at the order of the Libyan Government, 
according to Petro-Canada. Qadhafi also cancelled plans to visit Canada 
after the Prime Minister made his remarks. Libya said that Petro-
Canada's production was halved to meet OPEC quotas, but no other oil 
company had its production disrupted.\7\
---------------------------------------------------------------------------
    \7\ http://www.allbusiness.com/company-activities-management/
company-structures/13233739-1.html.
---------------------------------------------------------------------------
    More recently, in 2010, representatives of U.S. oil companies 
operating in Libya were chastised by the Libyan Government after 
Qadhafi objected to comments from the U.S. State Department. A State 
Department spokesman commented on Qadhafi's call for jihad against 
Switzerland for arresting his son Hannibal. Qadhafi viewed these 
comments as personally offensive and summoned the executives of U.S. 
oil companies doing business in Libya to warn them that their 
businesses were in jeopardy over this row.
    In other instances, the punitive aspect of Libya's manipulation of 
the commercial environment is starker. In 2008, Libya detained Swiss 
businessmen in Libya, including the employees of Nestle and ABB, in 
retaliation for the arrest of Hannibal Qadhafi, one of Colonel 
Qadhafi's sons, in Geneva. Libya ultimately arrested and detained two 
ABB employees for almost 2 years--even after Hannibal Qadhafi had 
returned to Tripoli.
    Based upon these and other instances, it is clear that Libya is 
willing to pressure companies doing business in Libya to attempt to 
achieve foreign policy aims.
    Given these incidents, BP would clearly want to minimize its 
exposure to political risk in Libya and its vulnerability to Qadhafi's 
mercurial decisionmaking. One of the ways to do so was to urge the U.K. 
Government to ratify a pending Prisoner Transfer Agreement between 
Libya and the United Kingdom. Al-Megrahi was the only prisoner that was 
contemplated to be transferred under the agreement. Al-Megrahi's 
transfer would remove one thorn in the side of U.K.-Libya relations and 
reduce the likelihood that BP would fall victim to Qadhafi's history of 
strong-arming foreign firms.
    Other U.K. interests may have been wary of the political risks that 
al-Megrahi's ongoing incarceration posed and would have benefited 
either directly or indirectly from his release. Following the 
dismantling of the international sanctions regime against Libya in 
2004, many European countries, including Italy, France, and Russia, 
were competing to sell Libya new arms and defense technology. Al-
Megrahi's release lowered one obstacle for U.K. arms manufacturers 
interested in competing with their European counterparts for their 
share of the Libyan market. In 2008, the U.K. Government approved arms 
sales to Libya worth $18 million.\8\ In May 2010, Britain's General 
Dynamics U.K. announced a $165 million deal to supply a tactical 
communications system to elite units of the Libyan army.\9\
---------------------------------------------------------------------------
    \8\ ``Freeing Libyan bomber `boosted arms talks'.'' UPI, July 16, 
2010 http://www.upi.com/Business_News/Security-Industry/2010/07/16/
Freeing-Libyan-bomber-boosted-arms-talks/UPI-24251279298306/.
    \9\ ``Libya Purchases Gear from General Dynamics U.K.'' Andrew 
Chuter, DefenseNews, May 8, 2010 http://www.defensenews.com/
story.php?i=3518749.
---------------------------------------------------------------------------
    The U.K. may have also have been interested in attracting 
investments from Libya's sovereign wealth fund, the Libyan Investment 
Authority, which at the time had a market cap of US$60mn. (The fund now 
has approximately US$80mn to invest.) Were al-Megrahi to have remained 
in prison, it is unlikely that the LIA would have pursued U.K. 
investments.
    Libya also made clear to Scottish authorities that bilateral trade 
and Mr. al-Megrahi's release were linked. In October 2008, the Libyan 
Charge d'Affaires Omar Jelban wrote to Scottish First Minister Alex 
Salmond and said that he wanted to discuss two issues: the medical 
condition of Mr. al-Megrahi and enhancing current trade links between 
Libya and Scotland.
    In short, Libya is a country where diplomatic relations 
disproportionately impact foreign direct investment. Where relations 
are favorable, companies reap the benefits. When relations sour, 
companies bear the brunt of retaliatory measures.
      qatari investment in scotland and the al-megrahi connection
    Not only was Libya interested in al-Megrahi's return--Qatar was as 
well. According to publicly released documents by Scotland, in June 
2009, Scottish First Minister Alex Salmond received a delegation of 
Qatari officials. The meeting was focused on discussing Qatari interest 
in investing in Scotland and, notably, the Scottish banking system. 
Also expressed at the meeting was Qatar's interest in al-Megrahi's 
release. The Qatari delegation explained that Qatar currently held the 
chair of the Arab League, and that Libya had raised the issue of al-
Megrahi's release during the League's last summit.
                               conclusion
    To conclude, the return of al-Megrahi was of great importance to 
Libya, and like it has in the past, it was willing to use its 
commercial leverage with the U.K. to ensure his release.

    Senator Menendez. Well, thank you all for your testimony.
    We'll start a first round of 7 minutes, and then we'll have 
another round, if necessary.
    In my first round, I'm going to focus on our two medical 
experts, and then I'll come back to you, Dr. Porter, in our 
second round.
    Dr. Mohler, I think you've made it rather clear that it was 
not medically possible for a 3-months-to-live prognosis, in 
August 2009, to be given to Mr. al-Megrahi. Is that fair to 
say?
    Dr. Mohler. Yes.
    Senator Menendez. You saw the video earlier in the 
presentation and alluded to it. The fact that Mr. al-Megrahi 
could walk down a flight of stairs unassisted, does that tell 
you anything about his medical condition or the accuracy of a 
3-month prognosis?
    Dr. Mohler. I want everyone here to understand that 
prostate cancer is a very slow-growing disease, and so we talk, 
in prognosis, in terms of months and often even years. It would 
be very difficult to give a prognosis of 3 months to a prostate 
cancer patient who was able to negotiate a flight of stairs. 
Not knowing what his laboratory situation or organ status was, 
you don't know if there was any silent threat to his life 
posed, except that you can presume, by his still being alive 14 
months later, that there was not.
    The biggest problem here is that the Scottish authorities 
in the prisons were still exploring treatments and, in fact, 
indicate in their records that in July they added a new hormone 
treatment, and in July they considered chemotherapy. And 
according to George Burgess, he received a first dose of 
chemotherapy.
    So, one would never give a 3-month prognosis to anyone 
where you were still trying new active treatments that are 
likely to extend survival by 18 months or more.
    Senator Menendez. So, if someone were to be considered for, 
or in receipt of, chemotherapy treatment, it wouldn't be 
administered in the last 3 months of their lives.
    Dr. Mohler. Right. Chemotherapy is still rather toxic. And 
to withstand a full regimen of Taxotere, which usually consists 
of every-3-week treatments for a minimum of six treatments, one 
does have to have a good, what we call, ``performance status.'' 
And the patient clearly had that, as evidenced by his ability 
to negotiate stairs, which is one of the many criteria we use, 
but is a very good indicator of ability to withstand a regimen 
of chemotherapy. He appeared to be a candidate for 
chemotherapy.
    Senator Menendez. Doctor, what physical condition would be 
expected of a patient with advanced prostate cancer and an 
accurate 3-months prognosis?
    Dr. Mohler. They would usually be unable to walk 
unassisted. They certainly wouldn't be able to climb stairs. 
They would most often be bedridden. They could be suffering 
renal failure from obstruction of the kidneys by the cancer. 
They definitely would have lost their appetite and be losing 
weight. They would look like a prison camp survivor. They would 
be anemic. They could have liver failure. They would have had 
to have decided that they would not seek any more active life-
prolonging treatment. They would be someone who is in pain, and 
their physicians would be seeking to alleviate that pain and 
would not be exploring any other types of active treatment.
    Senator Menendez. And finally, based upon your review of 
the medical records that the Scottish Government released, did 
his physical condition match that of someone with an accurate 
3-months prognosis?
    Dr. Mohler. No. As a matter of fact, the final report, by 
Andrew Fraser, that led to his release actually indicates that 
he shouldn't have been released. And I quote, ``Concluding 
specialist's view is that, in the absence of a good response to 
treatment, survival could be in the order of months, and no 
longer many months.'' So, Dr. Fraser said that, without any 
additional treatment, survival could be months, but they were 
pursuing active treatment, therefore negating the possibility 
of a 3-month prognosis.
    Senator Menendez. Thank you.
    Dr. Sartor, according to the Scottish Government's own 
medical report, the four cancer and urology specialists that 
the Scottish consulted did not agree with the 3-month 
prognosis. Is that correct?
    Dr. Sartor. That's correct.
    Senator Menendez. And why do you believe that none of the 
specialists who were consulted would offer a 3-month prognosis, 
based on the information you have?
    Dr. Sartor. Well, certainly, first of all, they probably 
had a little more information than we do today, because I've 
not had his full medical records to review, including 
laboratories that could be important. But, some of these 
specialists, I know, are extremely well qualified, particularly 
the one from Royal Marston in London, and I think that he knew 
that this was not a patient with a 3-month prognosis, and he 
would not agree. So, when we get this panel of experts--not the 
prison doctors, but the real experts in the disease--they did 
not agree with the less-than-3-month prognosis.
    [An additional written clarification to Senator Menendez's 
question follows:]

    Cancer specialists usually seek to determine when a terminally ill 
patient has 6 months to live because this is a well accepted criteria 
for hospice care. The focus upon a 3-month prognosis appears to derive 
from a desire to establish grounds for ``compassionate release'' under 
Scottish penal law. In order to achieve ``compassionate release,'' 
Andrew Fraser, Director of Healthcare for the Scottish Prison Service, 
could have reconsulted the specialists who saw Mr. al-Megrahi in August 
2008, who included Dr. Zak Latif, a urologist from Paisley, Dr. Richard 
Jones, a medical oncologist from Glasgow, Dr. Geoffrey Orr, the 
diagnosing urologist and Dr. Graham Howard, a medical oncologist from 
Edinborough. He appears instead to have relied upon a family 
practitioner and two of three physicians who were hired by the 
government of Libya. He disregarded one of the paid consultants and an 
unnamed urologist who examined Mr. al-Megrahi. Dr. Jonathon Waxman 
(paid by Libya), a professor from London, felt that Mr. al-Megrahi 
``did not have long to live'' but he was unwilling to provide a 3-month 
prognosis. An additional opinion from an unnamed consulting urologist 
was referenced in Mr. al-Megrahi's personal application for 
compassionate release dated July 2009. The urologist examined Mr. al-
Megrahi June 25, 2009, and determined Mr. al-Megrahi's demise would 
occur ``before the end of the year'' (prognosis 6 months). A prognosis 
of 3 months was provided by Mr. al-Megrahi's prison physician and two 
physicians paid by the Libyan government. A 3-month prognosis was 
provided by Dr. Ibrahim Sharif, a medical oncologist at Tripoli Medical 
Center, who has assumed Mr. al-Megrahi's care in Libya. A 3-month 
prognosis was also assigned by Dr. Karol Sikora, Professor, Medical 
Director of Cancer Partners U.K. and Dean of the Buckingham Business 
School, in London. Finally, a 3-month prognosis was provided by Dr. 
Peter Kay, Mr. al-Megrahi's personal physician while imprisoned. Dr. 
Kay is a part-time prison doctor and part-time family practitioner who 
had been in family practice since 2006. He had no special training in 
oncology, in general or prostate cancer, specifically. In conclusion, 
``compassionate release'' required the unusual medical designation of a 
3-month prognosis that was obtained from 3 physicians who include a 
young family practitioner with no prostate cancer experience, the Dean 
of the Buckingham Business School, and Mr. al-Megrahi's medical 
oncologist from Libya.

    Senator Menendez. Now, it seems, based upon the medical 
report and from the discussions that my staff has had with the 
Scottish Government--it appears that the 3-month prognosis came 
down to a doctor, Peter Kay, who is a general practitioner. Dr. 
Fraser, who you referred to, is also a general practitioner. 
While I have great respect for general practitioners, we'll 
enter into the record a description of Dr. Kay and Dr. Fraser's 
medical qualifications from the British National Health 
Service.
    Without objection, it is so ordered.

    [Editor's note.--The information referred to can be found, 
and will be maintained, in the permanent record of the 
committee.]

    Senator Menendez. In your experience, would one rely on a 
general practitioner to provide a prognosis for a patient with 
advanced prostate cancer like Mr. al-Megrahi?
    Dr. Sartor. No. It's a rapidly evolving field. There are 
new therapies, which Dr. Mohler alluded to. There's a science 
behind it. There's nomograms that we can utilize. It's not 
really within the purview of the general practitioner. This is 
a specialist's decision.
    Senator Menendez. Does it sound sensible to you that after 
having four cancer specialists say that a 3-month prognosis for 
Mr.
al-Megrahi was not something that they could agree to, the 
Scottish authorities relied on the opinion of two general 
practitioners?
    Dr. Sartor. No, you know, I concluded my statement by 
saying I was skeptical of the process. And that's one of the 
reasons why. It's just not a process that I think that we would 
endorse here today.
    Senator Menendez. Thank you very much.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I have a full statement. And, with permission, I'd like to 
have it included in the record.
    Senator Menendez. Without objection.
    Senator Barrasso. Thank you.
    [The prepared statement of Senator Barrasso follows:]

     Prepared Statement of John Barrasso, U.S. Senator From Wyoming

    On December 21, 1988, Pan Am Flight 103 exploded over Lockerbie, 
Scotland killing 270 individuals.
    In January 2001, al-Megrahi was convicted for his role in the 
bombing Pan Am Flight 103.
    In August of last year, Americans were shocked and outraged over 
the release of al-Megrahi by the Scottish Government.
    Al-Megrahi is a convicted terrorist who took the lives of 189 
American citizens. At a minimum, he deserves to spend the rest of his 
life behind bars. But instead of justice, this terrorist was released 
and received a hero's welcome upon his return home to Libya.
    The world was told that he was released on compassionate grounds 
because he had terminal cancer giving him only 3 months to live. Over a 
year has passed since his release. It is clear that something went 
seriously wrong. He is still alive and living a life of luxury with his 
family in Libya.
    The American people, especially families of those who lost loved 
ones in Pan Am Flight 103, deserve answers and the real facts.
    I am pleased that the committee is holding this hearing today and I 
look forward to the testimony of the witnesses.

    Senator Barrasso. For the physicians, the urologists, is 
there any area in which you disagree?
    Dr. Sartor. I'm not aware.
    Senator Barrasso. Do you have way to--with what you know 
now--and I don't know if you've seen an recent videos of this 
man--do you have any idea or any thoughts on what his potential 
lifespan is at this time?
    Dr. Sartor. I don't really have very much information, but 
I understand that he is actually still able to walk. And, you 
know, the fact that he's alive today, 13 months after he was 
given this, ``3-month prognosis,'' you know, clearly indicates 
that that initial prognosis was wrong. But, today he might even 
be living more than 3 months. It's hard for me to evaluate, in 
all honesty.
    Senator Barrasso. Dr. Mohler, any idea.
    Dr. Mohler. I would agree with that. I think, now that we 
know that patients getting chemotherapy for symptomatic 
advanced prostate cancer live beyond the 17- to 19.2-month 
survivals that were used for FDA approval of Taxotere--probably 
closer to 2 years. So, if I were going to make a wager, I'd 
wager on another year.
    But, I have to remind everyone that, contrary to what many 
believe about physicians, we cannot predict the future. And I 
think, here, that we have a couple of family practitioners who 
were guilty of predicting the future.
    Senator Barrasso. Yes.
    Well, Mr. Chairman, I just want to concur. You know, I'd--
we all have a great respect for family physicians that--you 
know, I practiced medicine for 25 years. I actually have a 
letter from Tulane, accepting me into the urology program in 
1977, so I have great respect for that institution and where 
you train. And I looked at this, like you did, and said, 
``There's something very wrong with this whole thing.''
    So, I guess the question to Mr. Porter--you know, from a 
historical--what really happened here? Are we looking at a 
``Mission Impossible'' script, where they said, ``Hey, how do 
we get this guy, you know, out of Scotland and back to his 
home? And if we can--let's get him out on a medical and try to 
fool some folks''? What do you think happened here?
    Dr. Porter. At the risk of speculating--I don't have any 
direct insight into what really took place between the U.K. 
Government, the Scottish Government, and the Libyan 
Government--but, as I said in my opening comments, it's clear 
that securing al-Megrahi's release was a top priority for the 
government in Tripoli. And it's also clear that they were 
going--they were willing to go to great lengths, including 
potentially strong-arming U.K. firms in Libya in order to 
secure his release. And that appears to be what has transpired.
    Now, I certainly don't have any of the expertise that my 
copanelists have regarding his health or his life expectancy at 
this point, but, as you've rightfully point out, he is alive 
and well--or, he is alive; I'm not sure how well he is--and it 
appears as if Libya has achieved one of its fundamental foreign 
policy objectives in this instance.
    Senator Barrasso. Thank you.
    And, Mr. Chairman, I just wanted to commend you for your 
efforts to continue focusing on this. And we wanted to have 
hearings during the summer--weren't able to do that--and then 
you had additional research done, folks on your team going out 
to make sure that we would get this additional information. And 
I want to thank you for bringing these medical experts and 
specialists here today.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Barrasso. And thank 
you for attending, and your insights, as well.
    I have a set of questions I'd like to ask Dr. Porter. And I 
appreciate you being here, as well, in your own right.
    You said that--in your testimony--and I just want to make 
sure I have the highlights here; and correct me if any of this 
is wrong--that Mr. al-Megrahi was important to Qaddafi because 
of a series of issues. No. 1, that Mr. al-Megrahi's family 
tribe was politically important, for domestic purposes, to 
Qaddafi. Is that correct?
    Dr. Porter. That's correct.
    Senator Menendez. And that that would placate hard-liners 
who might challenge Qaddafi.
    Dr. Porter. That's correct.
    Senator Menendez. And that they also believe that al-
Megrahi was innocent.
    Dr. Porter. Yes.
    Senator Menendez. And that he felt that he gave up too--
this is Qaddafi, now--gave up too much in the 2003 weapons of 
mass destruction deal, and he wanted something more for what he 
gave up. Is that a fair statement?
    Dr. Porter. That's exactly right. He stated so, himself.
    Senator Menendez. Now, when Libya gave up its weapons of 
mass destruction program and attempted to normalize 
relationships with the rest, what role did the British 
Government play?
    Dr. Porter. When Libya began to search for ways to return 
to the international community and come out of international 
isolation, one of the first governments that the Libyan 
Government approached was the U.K. Government. And I believe 
that Tripoli saw London as a fair and potentially beneficial 
interlocutor for Libya on the international stage. And so, the 
initial discussions for Libya's return to the international 
community began between London and Tripoli, and then 
incorporated the broader international community.
    Senator Menendez. And didn't the British accelerate their 
normalization with Libya at a much faster rate, particularly in 
commercial ties?
    Dr. Porter. At that--at what time?
    Senator Menendez. At--when they were beginning to--when the 
Libyans went to them to say, you know, ``We want to stop our 
isolation, we want to be integrated,'' didn't the British, at 
the beginning of that process, move, for example, much quicker 
than the United States and other governments did?
    Dr. Porter. What--while Libya was returning to the 
international community, the world was experiencing a spike in 
oil demand and in oil prices. And one of the things that Libya 
presents to the global community is abundant high-quality, 
cheap oil. And so, as the U.K. was beginning to enter into 
negotiations and discussions with the Libyan Government, many 
countries, the U.K. included, were also interested in trying to 
get into Libya in order to secure those oil assets.
    Senator Menendez. And, Dr. Porter, as the United Kingdom 
was playing an important role in normalizing Libyan relations 
with the West, this also allowed them to establish trade 
relations with Libya quickly and pretty aggressively. It 
resulted in two lucrative deals for oil companies with close 
ties to the United Kingdom, a $513 million oil and gas 
exploration deal for Shell, and a $900 million oil and gas deal 
for BP. Both of these deals were announced by the British Prime 
Minister in Tripoli. Besides being quite large deals, were they 
different from other deals struck by Western oil companies in 
Libya?
    Dr. Porter. Yes, sir.
    Senator Menendez. How so?
    Dr. Porter. Since 2004, Libya had conducted four open bid 
rounds for oil and gas acreage. Normally what happens, an oil 
company assesses the acreage that they would like to acquire in 
a given country, they prepare a bid, those bids are submitted 
and then opened publicly, and the awards are allocated, and 
then signed some time after the awards have been allocated.
    Neither BP nor Shell participated in bid rounds or--I 
should restate that--neither BP nor Shell acquired acreage 
through bid rounds. Instead, they acquired their acreage 
through direct bilateral negotiations with the Libyan National 
Oil Corporation, the NOC. One of the things that distinguishes 
the bilateral negotiations from bid-round format is, bilateral 
negotiations tend to result in better terms for the 
international oil company--in this case, BP and Shell--than the 
terms that would have resulted from participating in the bid 
rounds.
    Now, one of the things that also distinguishes bilateral 
negotiations is, the types of acreage or projects that BP and 
Shell were pursuing were big, they were complex, they were 
technically difficult, they were very capital-intensive. One of 
the things that allowed BP and Shell to pursue these 
negotiations was that they had the expertise and they also had 
the capital in order to guarantee or convince the Libyan 
National Oil Corporation that they would be able to manage the 
projects that they had undertaken.
    It's also worth noting that all of the only other types of 
companies that had the capital to be able to pursue these 
projects, or had the technical expertise to pursue the projects 
that BP and Shell were ultimately awarded, were already in 
Libya. These tend to be referred to as the ``super majors.'' 
The last two super majors to enter Libya were BP and Shell.
    Senator Menendez. And didn't--isn't it also true that the--
their negotiations allowed for a greater company share?
    Dr. Porter. The negotiations allowed for a company share of 
the production of oil that was about 4 percentage points higher 
than the average production share award to IOCs that had won 
acreage through the bid-round format.
    Senator Menendez. OK. Let me--so, you cited a couple of 
examples. In--isn't--going back in a earlier example, in 1971, 
Libya nationalized all of BP's assets over a foreign policy 
dispute. Isn't that true?
    Dr. Porter. That's correct.
    Senator Menendez. It was a dispute involving the United 
Kingdom supporting Iran taking control of several islands, as a 
matter of fact. Should, then--BP clearly would have known full 
well that Libya uses its assets, its natural resources in oil, 
in the pursuit of foreign policy.
    Dr. Porter. That's entirely true. BP, as well as any other 
foreign firm that does business in Libya, is well aware of the 
political risks. But, as you rightfully point out, BP itself 
had been the subject of a particular political grievance that 
the Libyans had with the U.K. Government in 1971 with the 
Iranian occupation of several islands in the Persian Gulf.
    Senator Menendez. So, it's fair to say that the Libyans 
have a modus operandi of using commercial rewards or 
recriminations in order to achieve their foreign policy goals.
    Dr. Porter. Yes. I don't think that requires any further 
elaboration.
    Senator Menendez. Yes. And given the fact that al-Megrahi's 
release was such a high priority for Libya, and the fact that 
the Libyan Government routinely leans on oil companies to 
either reward and/or seek recrimination to achieve its foreign 
policy aims, would it be surprising if BP did not feel 
pressured to help Libya gain al-Megrahi's release?
    Dr. Porter. I can't comment on that, because I don't know 
what the BP executives were feeling or thinking. But, what you 
can say is that I'm sure that BP was well aware of the risks 
that
al-Megrahi's ongoing incarceration in Scotland posed to the 
viability of BP's business opportunities in Libya.
    Senator Menendez. Well, it certainly would have been in the 
pattern, at least from the Libyan Government's actions up to 
and including that date, that they were not reticent to go 
ahead and use their economic power through their resource to 
oil to try to make companies make an argument back in their 
country in support of their ultimate view.
    Dr. Porter. Yes.
    Senator Menendez. Yes. Finally, there are commercial 
connections of significance between the United Kingdom and 
Libya that goes beyond energy. Do you have any sense of that 
from your studies about some--for example, the recent arms 
deals between the United Kingdom and Libya?
    Dr. Porter. Yes, you're entirely right, that the U.K. 
commercial interests in Tripoli expand well beyond oil and gas, 
including arms deals and infrastructure. I think one 
illustrative statistic is that the volume--or, the dollar 
amount of arms deals between the United Kingdom and Tripoli 
increased tenfold from 2008 to 2010. So, there's clearly a 
dramatic increase in the dollar amount of arms that the U.K. 
sold to Tripoli after--or, in the runup to, and then after al-
Megrahi's release.
    Senator Menendez. Thank you.
    Thank you all for your testimony and your insights from 
your respective expertise. The committee appreciates it.
    We are going to leave the record open for 10 days to give 
members of the committee an opportunity to submit additional 
questions. And so, if you receive any, we'd ask your 
cooperation in submitting your answers in writing as soon as 
possible.
    And, with that, we'll excuse the three of you. Thank you 
very much. Your testimony's been very helpful.
    Let me close--and seeing no other members at this time--in 
summary, I think what we've learned in this hearing only raises 
additional questions. Frankly, as I said at the outset, I am 
deeply troubled by the lack of cooperation we've received in 
getting to all of the facts. I'm also incredibly troubled that 
the executives at BP chose not to send a single witness to 
appear before this committee or answer any of our questions. 
Seems to me that you would want to do so in the interests of 
transparency, of making your case, whatever that case might be. 
And so, the absence speaks loudly.
    But, what we have learned today is that there were clear 
anomalies in Mr. al-Megrahi's care, starting with my staff's 
interviews in Scotland. We heard a contradiction to the 
previously released medical reports that al-Megrahi did 
actually receive chemotherapy. And today we've heard testimony 
that medical professionals familiar with cancer diagnosis and 
treatment would not give chemotherapy to a dying man.
    And even if we settled for the story that the Scottish 
Government told in their public documents, that he did not 
receive chemotherapy, the medical experts again said that, 
giving the medical record and the video we all saw today of him 
walking up and down the stairs to catch his victory flight 
home, was not a video of a dying man. Given the flawed process 
used to certify his release, I guess there shouldn't be much 
surprise that he is still alive today. What is a surprise is 
that he is free and living in Libya.
    We've learned that the diagnosing physician was Dr. Peter 
Kay, a general practitioner, not an oncologist, or, as the 
Scottish Government now maintains, it was Dr. Andrew Fraser. 
Neither doctor has any specialization in cancer diagnosis or 
treatment.
    I have to say, I'm very disappointed that we cannot get the 
Scottish Government to answer questions about the issue of 
chemotherapy or provide any more detailed medical information 
to clarify a series of discrepancies in their medical-release 
decision. Based on what we have learned today and in our 
research leading up to this hearing, my view is that the 
Scottish Government's 3-month release process was, in this 
case, incredibly flawed, if not purposely manipulated.
    We've learned, as I said in my opening statement, that the 
terms of the 1998 Lockerbie justice agreement have clearly been 
violated. That agreement specifically states that any prison 
sentences were to be served in the United Kingdom. It clearly 
states, ``For the purpose of the trial, we shall not seek their 
transfer to any jurisdiction other than the Scottish court 
sitting in the Netherlands. If found guilty, the two accused 
will serve their sentence in the United Kingdom.'' The language 
of the agreement could not be any clearer. And I think that the 
testimony of both the State Department and the Department of 
Justice could not be any clearer, as well, in terms of what 
that understanding meant.
    And finally, we heard from an expert today who testified 
about commercial concerns that could have influenced Scottish 
and U.K. thinking on the merits of Mr. al-Megrahi's release. 
The United Kingdom had significant commercial interests at 
stake in their relationship with Libya--oil and gas 
exploration, in particular--and Libya does not always maintain 
a clear distinction between the government and the marketplace.
    We heard that BP was well aware of the political risks of 
doing business with Libya and that the return of Mr. al-Megrahi 
was of great importance to the Libyan Government, which was 
more than willing to use its commercial leverage with the 
United Kingdom to ensure his release.
    And we heard the reasons why both Scotland and the United 
Kingdom Governments could have wanted Mr. al-Megrahi removed 
from U.K. soil.
    We also heard that there are a variety of other commercial 
motivations, and were reminded of how the Libyan Government 
uses commercial interests to either penalize or reward 
companies and nations, based on its foreign policy goals.
    The unanswered questions we are left with are deeply 
troubling. Why was the 1998 Lockerbie justice agreement broken? 
How does the Scottish Government explain the chemotherapy 
issue? And why was the advice of four of their own cancer 
specialists ignored? Why was Mr. al-Megrahi released at all, 
given what we do know? And, most troubling of all, who, if 
anyone, stood to benefit from his release?
    I'm disappointed, as I've said, that we have not heard from 
any officials at BP as to their involvement in their case. 
Public reports clearly have. Sir Mark Allen, a former MI6 
British intelligence officer being hired by BP to make the case 
to the United Kingdom of the importance of the Prisoner 
Transfer Agreement, and we would have heard what else in those 
conversations took place. In my view, if BP is not willing to 
cooperate with this committee to get to the bottom of why a 
convicted terrorist was prematurely released, in violation of 
our agreement with the British and Scottish Governments, then 
perhaps we should make BP pay all claims owed to families, 
fishermen, and everyone affected by the gulf disaster, before 
any new drilling permits are issued to them. It's certainly an 
option that I'll be exploring.
    There are simply too many unanswered questions. I fear that 
we have not heard the truth about Mr. al-Megrahi's clinical 
care. And we call, once again, for the full release of his 
medical file.
    We also believe that the absence of truth leads to 
uncertainty, and this uncertainty only creates more and more 
questions and a darker and darker cloud. Given what we have 
heard today, given the facts that have come out, I would hope 
that the British Government will open their own investigations 
into what led to the release of a terrorist who killed 270 
innocent people.
    Prime Minister David Cameron said, then, as a opposition 
leader, before he was Prime Minister, very clearly, something 
that I fully agree with him. He said, ``I don't think we can 
now trust the government to get to the bottom of this, so I 
think the time has come for an independent inquiry, led by a 
former permanent secretary or former judge, to find out what 
more papers need to be released so we can see what the British 
Government was doing in our name.'' I believe he was right 
then, and I believe it would be right now.
    So, our efforts here have come not quite to a full close. I 
can assure the families that we will be issuing a report that 
will include many other facts, based on our findings, and I 
hope that that report will put this gross miscarriage of 
justice in perspective for the world to see. I hope it will 
clearly send a message that we do not expect convicted 
terrorists to be set free. It not only undermines our very 
efforts in terms of national security and our collective fight 
against global terrorism, but sends all the wrong messages to 
those who would be terrorists. And I think it is incredibly 
important for us, in issuing that report, to create a greater 
opportunity for public pressure in support of an independent 
inquiry by the British Government to mount. As we made clear to 
the Prime Minister in a meeting with him when he last visited 
the United States, we want to get to the truth. And getting to 
the truth will set us free.
    With that, seeing no other members, this hearing is 
adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         List of ``Victims of Pan Am 103 Bombing'' Submitted by
                      Senator Frank R. Lautenberg

Pan Am Flight 103 Crew
Avonye, Nichole Elizabeth, flight attendant, 44 years, born 05.05.44, 
        Croissy-Sur-Seine, France, French
Avritt, Jerry Don, flight engineer, 46 years, born 30.07.42, 
        Westminster, California, American
Berti, Noelle Lydie, flight attendant, 40 years, born 24.12.47, Paris, 
        France, American
Engstrom, Siv Ulla, flight attendant, 51 years, born 21.09.37, 
        Berkshire, England, Swedish
Franklin, Stacie Denise, flight attendant, 20 years, born 16.02.68, San 
        Diego, California, American
Garrett, Paul Isaac, flight attendant, 41 years, born 16.11.47, Napa, 
        California, American
Kuehne, Elke Etha, flight attendant, 43 years, born 17.03.45, Hanover, 
        Germany, German
Larracoechea, Maria Nieves, flight attendant, 39 years, born 03.03.49, 
        Madrid, Spain, Spanish
MacQuarrie, James Bruce, captain, 55 years, born 30.09.33, Kensington, 
        New Hampshire, American
McAlolooy, Lilibeth Tobila, flight attendant, 27 years, born 02.11.61, 
        Kelsterback, Germany, American
Murphy, Mary Geraldine, purser, 51 years, born 14.05.37, Middlesex, 
        England, British
Reina, Jocelyn, flight attendant, 26 years, born 26.05.62, Isleworth, 
        England, American
Royal, Myra Josephine, flight attendant, 30 years, born 20.12.58, 
        London, England, American
Skabo, Irja Syhnove, flight attendant, 38 years, born 03.07.50, Oslo, 
        Norway, American
Velimirovich, Milutin, chief purser, 35 years, born 14.10.53, 
        Middlesex, England, American
Wagner, Raymond Ronald, first officer, 52 years, born 18.01.36, 
        Pennington, New Jersey, American
Pan Am Flight 103 Passengers
Ahern, John Michael Gerard, bond broker, 26 years, born 16.04.62, 
        Rockville Center, New York, American, Seat Number 30C
Aicher, Sarah Margaret, playwright, 29 years, born 09.02.59, London, 
        England, American, Seat Number 46C
Akerstrom, John David, 34 years, born 20.05.54, Medina, Ohio, American, 
        Seat Number 25A
Alexander, Ronald Ely, businessman, 46 years, born 15.07.42, New York, 
        New York, Swiss, seat number 42C
Ammerman, Thomas Joseph, marketing manager, 36 years, born 06.08.52, 
        Old Tappan, New Jersey, American, seat number 16E
Apfelbaum, Martin Lewis, stamp dealer, 59 years, born 16.08.29, 
        Philadelphia, Pennsylvania, American, seat number 15H
Asrelsky, Rachel Marie, student, 21 years, born 26.11.67, New York, New 
        York, American, seat number 38D
Atkinson, William Garretson III, engineer, 33 years, born 18.08.55, 
        London, England, American, seat number 15A
Atkinson, Judith Ellen, art historian and consultant, 37 years, born 
        18.01.51, London, England, American, seat number 15B
Bacciochi, Clare Louise, hair stylist, 19 years, born 15.03.69, 
        Warwickshire, England, British, seat number 50K
Bainbridge, Harry Michael, attorney, 34 years, born 16.11.54, Montrose, 
        New York, American, seat number 4B
Barclay, Stuart Murray, businessman, 29 years, born 28.11.59, Farm 
        Barnard, Vermont, Canadian, seat number 18G
Bell, Jean Mary, 44 years, born 16.03.44, Berkshire, England, British, 
        seat number 5A
Benello, Julian MacBain, student, 25 years, born 28.12.62, Brookline, 
        Massachusetts, American, seat number 23H
Bennett, Lawrence Ray, pharmaceutical chemist, 41 years, born 05.11.47, 
        Chelsea, Michigan, American, seat number 15J
Bergstrom, Philip Vernon, army sergeant, 22 years, born 21.12.66, 
        Forest Lake, Minnesota, American, seat number 46A
Berkley, Alistair David, professor of law, 29 years, born 11.04.59, 
        London, England, American
Bernstein, Michael Stuart, lawyer, U.S. Dept. of Justice, Office of 
        Special Investigation, 36 years, born 03.07.52, Bethesda, 
        Maryland, American, seat number 47D
Berrell, Steven Russell, student, 20 years, born 19.06.68, Fargo, North 
        Dakota, American, seat number 46F
Bhatia, Surinder Mohan, businessman, 51 years, born 21.05.37, Los 
        Angeles, California, American, seat number 34D
Bissett, Kenneth John, student, 21 years, born 19.12.67, Hartsdale, New 
        York, American, seat number 31J
Boatman-Fuller, Diane Anne, playwright, 37 years, born 08.01.53, 
        London, England, American, seat number 22H
Boland, Stephen John, student, 20 years, born 28.09.68, Nashua, New 
        Hampshire, American, seat number 46 G
Bouckley, Glen John, sales, 27 years, born 24.02.61, Liverpool, New 
        York, British, seat number 39K
Bouckley, Paula Marie, sales, 29 years, born 14.10.59, Liverpool, New 
        York, American, seat number 39J
Boulanger, Nicole Elise, student, 21 years, born 28.10.67, Shrewsbury, 
        Massachusetts, American, seat number 28B
Boyer, Francis, 43 years, born 22.06.45, Toulosane, France, French, 
        seat number 9A
Bright, Nicholas, businessman, 32 years, born 29.08.56, Brookline, 
        Massachusetts, American, seat number 13A
Browner (Bier), Daniel Solomon, 23 years, born 20.08.65, Parod, Israel, 
        Israeli, seat number 21A
Brunner, Colleen Renee, student, 20 years, born 01.04.68, Hamburg, New 
        York, American, seat number 44C
Burman, Timothy Guy, banker, 24 years, born 09.10.64, London, England, 
        British, seat number 38G
Buser, Michael Warren, advertising executive, 34 years, born 08.08.54, 
        Ridgefield Park, New Jersey, American, seat number 35B
Buser, Warren Max, civil engineer, 62 years, born 22.09.26, Glen Rock, 
        New Jersey, American, seat number 35A
Butler, Steven Lee, teacher, 35 years, born 30.08.53, Denver, Colorado, 
        American, seat number 36G
Cadman, William Martin, musician, 32 years, born 10.09.56, London, 
        England, British, seat number 29J
Caffarone, Fabiana, 28 years, born 30.09.60, London, England, British, 
        seat number 7B
Caffarone, Hernan, 28 years, born 14.12.60, London, England, 
        Argentinean, seat number 7A
Canady, Valerie, auditor, 25 years, born 29.06.63, Morgantown, West 
        Virginia, American, seat number 24K
Capasso, Gregory, student, 21 years, born 12.12.67, Brooklyn, New York, 
        American, seat number 48H
Cardwell, Timothy Michael, student, 21 years, born 05.07.67, Cresco, 
        Pennsylvania, American, seat number 37D
Carlsson, Bernt Wilmar, diplomat, 50 years, born 21.11.38, New York, 
        New York, Swedish, seat number 17H
Cawley, Richard Anthony, businessman, 43 years, born 09.07.45, New 
        York, New York, American, seat number 16J
Ciulla, Frank, banker, 45 years, born 06.08.43, Park Ridge, New Jersey, 
        American, seat number 11B
Cohen, Theodora Eugenia, student, 20 years, born 10.09.68, Port Jervis, 
        New York, American, seat number 21H
Coker, Eric Michael, student, 20 years, born 23.04.68, Mendham, New 
        Jersey, American, seat number 43B
Coker, Jason Michael, student, 20 years, born 23.04.68, Mendham, New 
        Jersey, American, seat number 43A
Colasanti, Gary Leonard, student, 20 years, born 01.08.68, Melrose, 
        Massachusetts, American, seat number 43C
Concannon, Bridget, 53 years, born 13.07.35, Oxfordshire, England, 
        Irish, seat number 33H
Concannon, Sean, 16 years, born 18.02.72, Oxfordshire, England, 
        British, seat number 33J
Concannon, Thomas, 51 years, born 21.11.37, Oxfordshire, England, 
        Irish, seat number 33G
Corner, Tracey Jane, 17 years, born 04.05.71, Sheffield, England, 
        British, seat number 33A
Cory, Scott, student, 20 years, born 27.09.68, Old Lyme Court, 
        Connecticut, American, seat number 46D
Coursey, Willis Larry, military, 40 years, born 25.08.48, San Antonio, 
        Texas, American, seat number 36K
Coyle, Patricia Mary, student, 20 years, born 04.06.68, Wallingford, 
        Connecticut, American, seat number 20B
Cummock, John Binning, 38 years, born 31.05.50, Coral Gables, Florida, 
        American, seat number 3A
Curry, Joseph Patrick, army captain, 31 years, born 21.03.57, Fort 
        Devens, Massachusetts, American, seat number 44K
Daniels, William, Alan, research chemist, 40 years, born 28.03.48, 
        Belle Mead, New Jersey, American, seat number 9H
Dater, Gretchen Joyce, student, 20 years, born 17.05.68, Ramsey, New 
        Jersey, American, seat number 52J
Davis, Shannon, student, 19 years, born 19.02.69, Shelton, Connecticut, 
        American, seat number 31A
Della-Ripa, Gabriel, Pan Am Airlines employee, 46 years, born 03.04.42, 
        Floral Park, New York, Italian, seat number 2B
DiMauro, Joyce Christine, marketing director, 32 years, born 09.05.56, 
        New York, New York, American, seat number 11J
DiNardo, Gianfranca, 26 years, born 14.10.62, London, England, Italian, 
        seat number 20C
Dix, Peter Thomas Stanley, management consultant, 35 years, born 
        06.05.53, London, England, Irish, seat number 14B
Dixit, Om, college professor, 54 years, born 29.12.33, Fairborn, Ohio, 
        Indian, seat number 24A
Dixit, Shanti, 54 years, born 14.12.34, Fairborn, Ohio, American, seat 
        number 24B
Dornstein, David Scott, student, 25 years, born 03.04.63, Philadelphia, 
        Pennsylvania, American, seat number 40K
Doyle, Michael Joseph, accountant, 30 years, born 21.05.58, Voorhees, 
        New Jersey, American, seat number 9B
Eggleston, Edgar Howard III, air force sergeant, 24 years, born 
        13.10.64, Glens Falls, New York, American, seat number 32D
Ergin, Turhan, student, 22 years, born 14.05.66, West Hartford, 
        Connecticut, American, seat number 28C
Fisher, Charles Thomas IV, banker, 34 years, born 24.12.53, London, 
        England, American, seat number 25K
Flick, Clayton Lee, businessman, 25 years, born 23.02.63, Coventry, 
        England, British, seat number 50J
Flynn, John Patrick, student, 21 years, born 24.11.67, Montville, New 
        Jersey, American, seat number 45A
Fondiler, Arthur, attorney, 33 years, born 12.12.55, West Armonk, New 
        York, American, seat number 47C
Fortune, Robert Gerard, insurance executive, 40 years, born 24.07.48, 
        Jackson Heights, New York, American, seat number 1A
Freeman, Paul Matthew Stephen, 25 years, born 02.04.63, London, 
        England, Canadian, Seat Number 46B
Fuller, James Ralph, corporate vice president, 50 years, born 17.09.38, 
        Bloomfield Hills, Michigan, America, seat number 3H
Gabor, Ibolya Robertine, 79 years, born 14.06.09, Budapest, Hungary, 
        Hungarian, seat number 26F
Gallagher, Amy Beth, student, 22 years, born 30.08.66, Pointe Claire, 
        Quebec, Canada, American, seat number 23G
Gannon, Matthew Kevin, foreign service officer, 34 years, born 
        11.08.54, Los Angeles, California, American, seat number 14J
Garczynski, Kenneth Raymond, industrial engineer, 37 years, born 
        17.10.51, North Brunswick, New Jersey, American, seat number 
        47K
Gibson, Kenneth James, army specialist four, 20 years, born 16.02.68, 
        Romulus, Michigan, American, seat number 48K
Giebler, William David, bond broker, 29 years, born 08.07.59, London, 
        England, American, seat number 30B
Gordon, Olive Leonora, 25 years, born 09.03.63, London, England, 
        British, seat number 45G
Gordon-Gorgacz, Linda Susan, 39 years, born 15.09.49, London, England, 
        American, seat number 37A
Gorgacz, Anne Madelene, 76 years, born 27.09.12, Newcastle, 
        Pennsylvania, American, seat number 38A
Gorgacz, Loretta Anne, 47 years, born 15.03.41, Newcastle, 
        Pennsylvania, American, seat number 37B
Gould, David, college professor, 45 years, born 03.01.43, Pittsburgh, 
        Pennsylvania, American, seat number 22C
Guevorgian, Andre Nikolai, businessman, 32 years, born 11.11.56, Sea 
        Cliff, New York, American, seat number 11A
Hall, Nicola Jane, 23 years, born 03.02.65, Sandton, South Africa, 
        South African, seat number 23K
Halsch, Lorraine Frances, special education teacher, 31 years, born 
        06.11.57, Fairport, New York, American, seat number 35C
Hartunian, Lynne Carol, student, 21 years, born 13.03.67, Schenectady, 
        New York, American, seat number 44A
Hawkins, Anthony Lacey, businessman, 57 years, born 13.11.31, Brooklyn, 
        New York, British, seat number 28K
Herbert, Pamela Elaine, student, 19 years, born 27.03.69, Battle Creek, 
        Michigan, American, seat number 37J
Hilbert, Rodney Peter, 40 years, born 19.07.48, Newton, Pennsylvania, 
        American, seat number 16H
Hill, Alfred, 29 years, born 29.06.59, Sonthofen, Germany, German, seat 
        number 14A
Hollister, Katherine Augusta, student, 20 years, born 26.08.68, Rego 
        Park, New York, American, seat number 54C
Hudson, Josephine Lisa, nurse, 22 years, born 14.05.66, London, 
        England, British, seat number 50D
Hudson, Melina Kristina, student, 16 years, born 25.01.72, Albany, New 
        York, seat number American 29A
Hudson, Sophie Ailette Miriam, 26 years, born 22.09.62, Paris, France, 
        French, seat number 29H
Hunt, Karen Lee, student, 20 years, born 07.01.68, Webster, New York, 
        American, seat number 31K
Hurst, Roger Elwood, marketing manager, 38 years, born 12.07.50, 
        Ringwood, New Jersey, American, seat number 2H
Ivell, Elizabeth Sophie, dog handler, 19 years, born 21.04.69, East 
        Sussex, England, British, seat number 19C
Jaafar, Khalid Nazir, student, 20 years, born 01.05.68, Dearborn, 
        Michigan, American, seat number 53K
Jeck, Robert van Houten, 57 years, born 08.10.31, Mountain Lakes, New 
        Jersey, American, seat number 4J
Jeffreys, Paul Avron, musician, 36 years, born 13.02.52, Surrey, 
        England, British, seat number 38J
Jeffreys, Rachel, advertising executive, 23, years, born 29.04.65, 
        Surrey, England, British, seat number 38H
Jermyn, Kathleen Mary, student, 20 years, born 27.12.67, Staten Island, 
        New York, American, seat number 49A
Johnson, Beth Ann, student, 21 years, born 24.03.67, Greensburg, 
        Pennsylvania, American, seat number 36B
Johnson, Mary Alice Lincoln, student, 25 years, born 14.06.63, Wayland, 
        Massachusetts, American, seat number 33D
Johnson, Timothy Baron, student, 21 years, born 30.11.67, Neptune, New 
        Jersey, American, seat number 26A
Jones, Christopher Andrew, student, 20 years, born 04.03.68, Claverack, 
        New York, American, seat number 52K
Kelly, Julianne Frances, student, 20 years, born 27.06.68, Dedham, 
        Massachusetts, American, seat number 21E
Kingham, Jay Joseph, pharmaceuticals executive, 44 years, born 
        03.03.44, Potomac, Maryland, American, seat number 5B
Klein, Patricia Ann, social worker, 35 years, born 16.06.53, Trenton, 
        New Jersey, American, seat number 28A
Kosmowski, Gregory, marketing executive, 40 years, born 08.10.48, 
        MiIford, Michigan, American, seat number 8H
Kulukundis, Minas Christopher, ship brokerage director, 38 years, born 
        17.12.50, London, England, British, seat number 51K
LaRiviere, Ronald Albert, 33 years, born 19.11.55, Alexandria, 
        Virginia, American, seat number 20H
Leckburg, Robert Milton, engineer, 30 years, born 12.10.58, Piscataway, 
        New Jersey, American, seat number 34C
Leyrer, William Chase, businessman, 46 years, born 24.08.42, Bay Shore, 
        New York, American, seat number 2J
Lincoln, Wendy Anne, student, 23 years, born 21.01.65, North Adams, 
        Massachusetts, American, seat number 28D
Lowenstein, Alexander Silas, student, 21 years, born 25.02.67, 
        Morristown, New Jersey, American, seat number 20D
Ludlow, Lloyd David, army sergeant first class, 41 years, born 
        06.02.47, Macksville, Kansas, American, seat number 51A
Lurbke, Maria Theresia, 25 years, born 26.11.63, Balve Beckum, Germany, 
        German, seat number 52A
Mack, William Edward, puppeteer, 30 years, born 24.04.58, New York, New 
        York, American, seat number 36B
Malicote, Douglas Eugene, army specialist four, 22 years, born 
        31.08.66, Lebanon, Ohio, American, seat number 48B
Malicote, Wendy Gay, 21 years, born 31.07.67, Lebanon, Ohio, American, 
        seat number 48A
Marek, Elizabeth Lillian, actress and peace activist, 30 years, born 
        17.02.58, New York, New York, American, seat number 36C
Marengo, Louis Anthony, marketing director, 33 years, born 09.02.55, 
        Rochester, Michigan, American, seat number 3J
Martin, Noel George, 27 years, born 31.05.61, Clapton, England, 
        Jamaican, seat number 53A
Maslowski, Diane Marie, currency trader, 30 years, born 10.08.58, New 
        York, American, seat number 8B
McAllister, William John, 26 years, born 18.10.62 in the Isle of Mull, 
        Argyll, Scotland , Scottish, seat number 14E
McCarthy, Daniel Emmet, banker, 31 years, born 02.11.57, Brooklyn, New 
        York, American, seat number 6B
McCollum, Robert Eugene, university professor, 61 years, born 12.05.27, 
        Wayne, Pennsylvania, American, seat number 7J
McKee, Charles Dennis, army major, 40 years, born 03.12.48 , Arlington, 
        Virginia, American, seat number 15F
McLaughlin, Bernard Joseph, marketing manager, 30 years, born 12.12.58, 
        Cranston, Rhode Island, American, seat number 36A
Melber, Jane Susan, musician and teacher, 27 years, born 01.01.61, 
        Middlesex, England, American, seat number 27H
Merrill, John, seaman, 35 years, born 11.07.53, Hertfordshire, England, 
        British, seat number 37K
Miazga, Suzanne Marie, student, 22 years, born 31.07.66, Marcy, New 
        York, American, seat number 23A
Miller, Joseph Kenneth, accounting firm executive, 56 years, born 
        27.05.32, Woodmere, New York, American, seat number 10B
Mitchell, Jewel Courtney, army second lieutenant, 32 years, born 
        14.06.56, Brooklyn, New York, American, seat number 27A
Monetti, Richard Paul, student, 20 years, born 11.09.68, Cherry Hill, 
        New Jersey, American, seat number 20E
Morgan, Jane Ann, attorney, 37 years, born 19.03.51, London, England, 
        American, seat number 42A
Morson, Eva Ingeborg, 48 years, born 29.04.40, New, York, New York, 
        American, seat number 19G
Mosey, Helga Rachael, student, 19 years, born 21.09.69, West Midlands, 
        England, British, seat number 22K
Mulroy, Ingrid Elizabeth, 25 years, born 22.04.63, Lund, Sweden, 
        Swedish, seat number 34J
Mulroy, John, journalist, 59 years, born 01.04.29, East Northport, New 
        York, American, seat number 34G
Mulroy, Sean Kevin, 25 years, born 03.05.63, Lund, Sweden, American, 
        seat number 34H
Noonan, Karen Elizabeth, student, 20 years, born 26.12.67, Potomac, 
        Maryland, American, seat number 20A
O'Connor, Daniel Emmett, U.S. diplomatic service, 31 years, born 
        22.09.57, Dorchester, Massachusetts, American, seat number 25H
O'Neil, Mary Denice, student, 21 years, born 02.04.67, Bronx, New York, 
        American, seat number 38K
Otenasek, Anne Lindsey, student, 21 years, born 31.01.67, Baltimore, 
        Maryland, American, seat number 45K
Owen, Bryony Elise, 1 year, born 29.04.87, Bristol, England, British, 
        seat number 19D
Owen, Gwyneth Yvonne Margaret, student, 29 years, born 03.05.59, 
        Bristol, England, British, seat number 19D
Owens, Laura Abigail, 8 years, born 01.01.80, Cherry Hill, New Jersey, 
        American, seat number 35K
Owens, Martha, 44 years, born 02.06.44, Cherry Hill, New Jersey, 
        American, seat number 35H
Owens, Robert Plack, 45 years, born 05.03.43, Cherry Hill, New Jersey, 
        American, seat number 35G
Owens, Sarah Rebecca, 14 years, born 09.12.74, Cherry Hill, New Jersey, 
        American, seat number 35J
Pagnucco, Robert Italo, attorney, 51 years, born 20.10.37, South Salem, 
        New York, American, seat number 4A
Papadopoulos, Christos Michael, 45 years, born 11.11.43, North 
        Lawrence, New York, American, seat number 17A
Peirce, Peter Raymond, architect and student, 40 years, born 28.09.48, 
        Perrysburg, Ohio, American, seat number 47G
Pescatore, Michael, businessman, 33 years, born 06.09.55, Solon, Ohio, 
        American, seat number 17J
Philipps, Sarah Susannah Buchanan, student, 20 years, born 15.08.68, 
        Newtonville, Massachusetts, American, seat number 49C
Phillips, Frederick Sandford, student, 27 years, born 08.05.61, Little 
        Rock, Arkansas, American, seat number 21F
Pitt, James Andrew Campbell, student, 24 years, born 06.11.64, South 
        Hadley, Massachusetts, American, seat number 29K
Platt, David, architect, 33 years, born 13.12.55, Staten Island, New 
        York, American, seat number 8A
Porter, Walter Leonard, musician, 35 years, born 10.03.53, Brooklyn, 
        New York, American, seat number 25C
Posen, Pamela Lynn, student, 20 years, born 30.01.68, Harrison, New 
        York, American, seat number 26K
Pugh, William, businessman, 56 years, born 29.02.32, Margate, New 
        Jersey, American, seat number 21D
Quiguyan, Crisostomo Estrella, hotel cashier, 43 years, born 16.03.45, 
        London, England, Filipino, seat number 30A
Ramses, Rajesh Tarsis Priskel, 35 years, born 26.05.53, Leicester, 
        England, Indian, seat number 22A
Rattan, Anmol, 2 years, born 24.09.86, Warren, Michigan. American, seat 
        number 24C
Rattan, Garima, computer programmer, 29 years, born 15.07.59, Warren, 
        Michigan, American, seat number 23D
Rattan, Suruchi, 3 years, born 20.06.85, Warren, Michigan. American, 
        seat number 23E
Reeves, Anita Lynn, 24 years, born 03.09.64, Laurel, Maryland, 
        American, seat number 45D
Rein, Mark Alan, businessman, 44 years, born 12.02.44, New York, New 
        York, American, seat number 2A
Rencevicz, Diane Marie, student, 21 years, born 13.07.67, Burlington, 
        New Jersey, American, seat number 29G
Rogers, Louise Ann, student, 20 years, born 13.02.67, Olney, Maryland, 
        American, seat number 29D
Roller, Edina, 5 years, born 24.11.83, Hungary, Hungarian, seat number 
        26D
Roller, Janos Gabor, 29 years, born 26.03.59, Hungary, Hungarian, seat 
        number 26E
Roller, Zsuzsana, 27 years, born 21.12.61, Hungary, Hungarian, seat 
        number 26G
Root, Hanne Maria, management consultant, 26 years, born 15.12.62, 
        Toronto, Canada, Canadian, seat number 34K
Rosen, Saul Mark, businessman, 35 years, born 24.11.53, Morris Plains, 
        New Jersey, American, seat number 32A
Rosenthal, Andrea Victoria, student, 22 years, born 05.02.66, New York, 
        New York, American, seat number 35D
Rosenthal, Daniel Peter, student, 20 years, born 02.06.68, Staten 
        Island, New York, American, seat number 21J
Rubin, Arnaud David, 28 years, born 18.05.60, Waterloo, Belgium, 
        Belgian, seat number 39G
Saraceni, Elyse Jeanne, student, 20 years, born 01.06.68, East London, 
        England, American, seat number 36D
Saunders, Scott Christopher, student, 21 years, born 20.05.67, 
        Macungie, Pennsylvania, American, seat number 24D
Saunders, Theresa Elizabeth Jane, marketing, 28 years, born 24.10.60, 
        Sunbury-on-Thames, England, British, seat number 14F
Schauble, Johannes Otto, 41 years, born 08.08.47, Kappellenweg, 
        Germany, German, seat number 49K
Schlageter, Robert Thomas, student, 20 years, born 12.08.68, Warwick, 
        Rhode Island, American, seat number 28G
Schultz, Thomas Britton, student, 20, years, born 05.01.68, Ridgefield, 
        Connecticut, American, seat number 45C
Scott, Sally Elizabeth, chef, 22 years, born 17.01.66, Huntington, New 
        York, British, seat number 56G
Shapiro, Amy Elizabeth, student, 21 years, born 28.10.67, Stamford, 
        Connecticut, American, seat number 37G
Shastri, Mridula, 24 years, born 12.02.64, Oxford, England, Indian, 
        seat number 24H
Sheanshang, Joan, 46 years, born 16.12.42, New York, New York, 
        American, seat number 41C
Sigal, Irving Stanley, research biologist, 35 years, born 23.05.53, 
        Pennington, New Jersey, American, seat number 13B
Simpson, Martin Bernard Christopher, financier, 52 years, born 
        25.10.36, Brooklyn, New York, American, seat number 27K
Smith, Cynthia Joan, student, 21 years, born 06.10.67, Milton, 
        Massachusetts, American, seat number 41A
Smith, Ingrid Anita, chiropodist, 31 years, born 12.11.57, Berkshire, 
        England, British, seat number 4H
Smith, James Alvin, 55 years, born 11.03.33, New York, New York, 
        American, seat number 27G
Smith, Mary Edna, army sergeant, 34 years, born 14.07.54, Kalamazoo, 
        Michigan, American, seat number 34A
Stevenson, Geraldine Anne, 37 years, born 31.03.51, Surrey, England, 
        British, seat number 22E
Stevenson, Hannah Louise, 10 years, born 23.09.78, Surrey, England, 
        British, seat number 22F
Stevenson, John Charles, 38 years, born 13.09.50, Surrey, England, 
        British, seat number 22D
Stevenson, Rachael, 8 years, born 01.09.80, Surrey, England, British, 
        seat number 22G
Stinnett, Charlotte Ann, 36 years, born 07.02.52, Duncanville, Texas, 
        American, seat number 19J
Stinnett, Michael Gary, army specialist, 26 years, born 27.05.62, 
        Duncanville, Texas, American, seat number 19H
Stinnett, Stacey Leanne, 9 years, born 30.07.79, Duncanville, Texas, 
        American, seat number 19K
Stow, James Ralph, businessman, 49 years, born 18.07.39, New York, New 
        York, American, seat number 15E
Stratis, Elia G., accountant, 43 years, born 17.06.45, Montvale, New 
        Jersey, American, seat number 1B
Swan, Anthony Selwyn, 29 years, born 15.05.59, Brooklyn, New York, 
        Trinidadian, seat number 41K
Swire, Flora MacDonald Margaret, medical student and researcher, 24 
        years, born 22.12.64, London, England, British, seat number 39D
Tager, Marc Alex, 22 years, born 03.08.66, London, England, British, 
        seat number 26H
Tanaka, Hidekazu, 26 years, born 13.05.62, London, England, Japanese, 
        seat number 24G
Teran, Andrew Alexander, student, 20 years, born 31.08.68, New Haven, 
        Connecticut, Bolivian, seat number 27D
Thomas, Arva Anthony, student, 17 years, born 26.04.71, Detroit, 
        Michigan, American, seat number 19A
Thomas, Jonathan Ryan, 2 months, born 29.09.88, Southfield, Michigan, 
        American, seat number 32K
Thomas, Lawanda, air force sergeant, 21 years, born 17.02.67, 
        Southfield, Michigan, American, seat number 32K
Tobin, Mark Lawrence, student, 21 years, born 04.04.67, North 
        Hempstead, New York, American, seat number 32G
Trimmer-Smith, David William, publishing executive, 51 years, born 
        26.04.37, New York, New York, American, seat number 12A
Tsairis, Alexia Kathryn, student, 20 years, born 06.07.68, Franklin 
        Lakes, New Jersey, American, seat number 21G
Valentino, Barry Joseph, exhibit designer, 28 years, born 25.02.60, San 
        Francisco, California, American, seat number 20G
Van-Tienhoven, Thomas Floro, 45 years, born 30.05.43, Buenos Aires, 
        Argentina, Argentinean, seat number 2B
Vejdany, Asaad Eidi, 46 years, born 24.02.42, South Great Neck, New 
        York, American, seat number 20C
Vrenios, Nicholas Andreas, student, 20 years, born 20.08.68, 
        Washington, DC, American, seat number 46E
Vulcu, Peter, stockbroker and student, 21 years, born 01.08.67, 
        Alliance, Ohio, American, seat number 20K
Waido, Janina Jozefa, 61 years, born 19.03.27, Chicago, Illinois, 
        American, seat number 50A
Walker, Thomas Edwin, electronics specialist, 47 years, born 11.12.41, 
        Quincy, Massachusetts, American, seat number 16A
Weedon, Kesha, student, 20 years, born 02.10.68, Bronx, New York, 
        American, seat number 37H
Weston, Jerome Lee, engineer, 45 years, born 11.11.43, Baldwin, New 
        York, American, seat number 10A
White, Jonathan, accountant, 33 years, born 14.07.55, North Hollywood, 
        California, American, seat number 55J
Williams, Bonnie Leigh, military, 21 years, born 12.01.67, Crown Point, 
        New York, American, seat number 46K
Williams, Brittany Leigh, 2 months, born 13.10.88, Crown Point, New 
        York, American, seat number 46J
Williams, Eric Jon, army sergeant, 24 years, born 15.08.64, Crown 
        Point, New York, American, seat number 46J
Williams, George Waterson, army first lieutenant, 24 years, born 
        17.05.64, Joppa, Maryland, American, seat number 33K
Williams, Stephanie Leigh, 1 year, born 23.05.87, Crown Point, New 
        York, American, seat number 46K
Wolfe, Miriam Luby, student, 20 years, born 26.09.68, Severna Park, 
        Maryland, American, seat number 21K
Woods, Chelsea Marie, 10 months, born 06.02.88, Willingboro, New 
        Jersey, American, seat number 25F
Woods, Dedera Lynn, air force sergeant, 27 years, born 04.02.61, 
        Willingboro, New Jersey, American, seat number 25G
Woods, Joe Nathan, civilian military worker, 28 years, born 05.03.60, 
        Willingboro, New Jersey, American, seat number 25D
Woods, Joe Nathan, Jr., 2 years, born 24.09.86, Willingboro, New 
        Jersey, American, seat number 25E
Wright, Andrew Christopher Gillies, site agent, 24 years, born 
        02.05.64, Surrey, England, British, seat number 55G
Zwynenburg, Mark James, investment banker, 29 years, born 14.10.59, 
        West Nyack, New York, American, seat number 12B
Lockerbie Residents
Flannigan, Kathleen Mary, 41 years, born 26.01.47, 16 Sherwood Crescent
Flannigan, Thomas Brown, 44 years, born 20.12.44, 16 Sherwood Crescent
Flannigan, Joanne, 10 years, born 13.06.78, 16 Sherwood Crescent
Henry, Dora Henrietta, 56 years, born 27.03.32, 13 Sherwood Crescent
Henry, Maurice Peter, 63 years, born 18.07.25, 13 Sherwood Crescent
Lancaster, Mary, 81 years, born 12.01.07, 11 Sherwood Crescent
Murray, Jean Aitkin, 82 years, born 29.11.06, 14 Sherwood Crescent
Somerville, John, 40 years, born 31.05.48, 15 Sherwood Crescent
Somerville, Rosaleen Later, affectionately know as `Rosalind', 40 
        years, born 31.05.48, 15 Sherwood Crescent
Somerville, Paul, 13 years, born 21.01.75, 15 Sherwood Crescent
Somerville, Lyndsey Ann, 10 years, 13.07.78, 15 Sherwood Crescent
                                 ______
                                 

  Responses of Ambassador Nancy McEldowney to Questions Submitted by 
                        Senator Robert Menendez

    Question #1. Was the Department aware of and did the Department 
explore any possible connection between U.K. commercial interests in 
Libya and the decision to release Mr. al-Megrahi? In particular, did 
the Department explore the possible commercial influences of arms sales 
from the U.K. to Libya or Qatari loans to Scotland at the time of Mr. 
al-Megrahi's release? If not, why not?

    Answer. During the months preceding Megrahi's release, the 
Department sought to dissuade Scottish authorities from permitting his 
transfer or release to Libya. While the U.K. Government has since 
acknowledged its 2007 communication with BP regarding the negotiation 
of the Prisoner Transfer Agreement (PTA) with Libya, the Scottish 
Government has released memos, correspondence, and meeting notes 
related to the matter and has asserted that economic considerations 
played no part in its decision to release Megrahi. As Ambassador 
McEldowney stated in her testimony, we have no evidence to dispute or 
disprove these assertions, nor are we in a position to verify these 
claims. Whatever the Scottish Government's rationale for releasing 
Megrahi, our position remains that the decision was categorically wrong 
and undermined the shared international understanding on Megrahi's 
imprisonment.

    Question #2. Was the Department aware of and did the Department 
explore any possible connection between the two energy deals for U.K. 
oil companies that were announced by Former Prime Minister Blair during 
his visits to Libya and the decision to sign a Prisoner Transfer 
Agreement between the U.K. and Libya? If not, why not?

    Answer. The Department was aware that the United Kingdom was 
reengaging with Libya and seeking to improve bilateral relations after 
the Libyan Government's 2003 decision to dismantle its WMD and missile 
programs. It was public information as far back as 2004 that, 
consistent with this reengagement, British energy companies were 
entering the Libyan market. To the best of our knowledge, the 
Department learned of the memorandum of understanding between the U.K. 
and Libya on judicial cooperation, in which the parties agreed to 
commence negotiations on a PTA, at the time of Prime Minister Blair's 
May 2007 visit to Libya.
    The U.K. subsequently sought to negotiate a clause that would 
exclude Megrahi from a PTA, a position vocally supported by the 
Scottish Government. Prior to Megrahi's release, the Department was not 
aware of the conversations in late 2007 between the British Government 
and BP regarding the slow progress on PTA negotiations. We learned of 
these conversations later, after they had been acknowledged publicly by 
the parties involved. Then, as now, the United States was unequivocal 
in conveying to both British and Scottish authorities our resolute 
belief that Megrahi should serve out his full sentence in Scotland.

    Question #3. Were any Foreign Service officers present when Sir 
Mark Allen spoke with U.K. Government officials regarding the Prisoner 
Transfer Agreement? Have any such officers reviewed unreleased 
documents by the U.K. Government regarding its dialogue with BP and the 
PTA?

    Answer. We are not aware of any State Department personnel being 
present for private conversations between Sir Mark Allen (or other BP 
officials) and the British Government. To the best of our knowledge, 
Department personnel also have not reviewed unreleased British 
Government documents concerning the U.K.'s dialogue with BP on the PTA.

    Question #4. When U.K. Foreign Secretary Hague admitted multiple 
communications between BP and the U.K. Government, did the Department 
take any steps to investigate any possible connection between Mr. al-
Megrahi's release and BP? If not, why not?

    Answer. According to Foreign Secretary Hague's July 22 letter to 
Senator Kerry, BP told the British Government in October and November 
2007 that failure to conclude the PTA could negatively impact British 
commercial interests, including its own. Foreign Secretary Hague's 
predecessor, David Miliband, acknowledged publicly last year that 
commercial considerations, along with other U.K. strategic interests, 
were taken into account in the U.K.'s decision to conclude negotiations 
and sign an overarching PTA with Libya in November 2008. Miliband told 
the House of Commons in October 2009 that abandonment of PTA 
negotiations with Libya ``would have set back [Britain's] wider 
national and commercial interests that flowed from normalized 
relations.'' During his July 2010 visit to Washington, Prime Minister 
Cameron committed to a Cabinet review of British documents to determine 
whether further information can be brought to light.
    Consideration of Megrahi's applications for prisoner transfer and 
``compassionate'' release was a separate process from the U.K.'s 
decision to sign the PTA, exclusively within the purview of the 
devolved Scottish Government. We have called upon the Scottish 
Government to be as transparent as possible in illuminating the 
circumstances surrounding Megrahi's release. Scottish authorities 
assert they were neither pressured by the British Government nor 
influenced by commercial interests, and First Minister Alex Salmond and 
Justice Minister Kenny MacAskill have stated there was no contact 
between BP and Scottish authorities regarding Megrahi's case. The 
Department has no evidence to either affirm or dispute these 
assertions. Whatever Scottish authorities' rationale for releasing 
Megrahi, the U.S. position remains that he should serve out his full 
sentence in a Scottish prison.

    Question #5. When the Department was asked to provide the committee 
all records it had associated with the release of Mr. al-Megrahi, it 
only provided 10, 6 of which were already available in the public 
domain. Is it the Department's position that there are only four 
additional documents that it holds associated with Mr. al-Megrahi's 
release?

    Answer. On September 24, Chairman Kerry requested that the 
committee be granted access to certain categories of State Department 
documents related to the September 29 hearing on the circumstances 
surrounding Megrahi's release. Upon receiving the chairman's letter, 
the Department granted the committee access within 1 working day to 
responsive documents in its possession that could be shared without 
consent from third parties. Some of these--including historic documents 
provided to Scottish authorities last year to demonstrate the shared 
international understanding that, if convicted, Megrahi would serve his 
sentence in Scotland--were already in the public domain.
    Since the hearing, the Department has obtained third-party 
permission to share five more responsive documents with the committee. 
These documents are available for review at the State Department at the 
convenience of committee staff. The Department also requested from the 
U.K. permission to provide the committee access to additional British 
historic documents related to the 1998 arrangements. These are being 
assessed for release as part of the ongoing review of materials being 
conducted by the U.K. Cabinet Secretary; therefore, the U.K. is unable 
to provide consent for the sharing of those documents at this time. We 
will inform the committee promptly if and when we receive consent to 
share further responsive materials.

    Question #6. Does the Department have any intention of 
investigating the early release of Mr. al-Megrahi or urging the U.K. 
and Scottish Governments to conduct their own investigations into the 
early release of Mr. al-Megrahi?

    Answer. The Department shares the desire for a clear understanding 
of the circumstances surrounding Megrahi's release. Ultimately, it is 
the responsibility of the British and Scottish Governments to shed 
light on this issue and on their actions. To this end, President Obama 
has called for all of the relevant facts to be made available, and 
Secretary Clinton has encouraged the involved governments to review 
again the underlying facts and circumstances leading to Megrahi's 
release and to consider any new information that has come to light. 
Prime Minister Cameron has responded by committing to provide the 
fullest possible explanation of the circumstances surrounding this 
decision and has directed the British Cabinet Secretary to undertake a 
review of documents to consider whether further information can be 
released. We are currently awaiting the outcome of that process.

    Question #7. Does the Department agree with the committee's 
interpretation of the Scotland Act of 1998 that any decision to release 
Mr. al-Megrahi from prison was a decision for Scottish authorities to 
make but that any decision to send Mr. al-Megrahi back to Libya was a 
reserved power decision for the U.K. Government to make?

    Answer. The complexities and political sensitivities of devolution 
in the United Kingdom are extensive, and the Department is not in a 
position to authoritatively assess devolution arrangements and 
precedents in U.K. law. Prior to the Scottish decision, both the 
Scottish Government and the U.K. Government agreed that it was for 
Scottish authorities alone to decide on Megrahi's applications for 
prisoner transfer and for release on compassionate grounds. While it 
hypothetically may have been possible for the British Government to 
obstruct Megrahi's physical departure from Britain, in practice, given 
the domestic political and constitutional considerations in the U.K., 
our understanding was that the British Government would not take steps 
that would undermine its devolution arrangements with Scotland or its 
prior commitment to respecting whatever decision was ultimately made by 
Scottish officials.

    Question #8. During your testimony at the hearing, the Department 
said that it had not seen any specific evidence that BP played a role 
in Mr. al-Megrahi's release. But given all that we know about 
commercial interests lobbying for Mr. al-Megrahi's release, and reports 
that meetings were occurring and correspondence transmitted between BP 
and the U.K. regarding Libya between 2007 and Mr. al-Megrahi's release, 
does the Department believe it is fair to say that commercial interests 
influenced the decision to release Mr. al-Megrahi? If not, why not?

    Answer. In her testimony, Ambassador McEldowney stated that beyond 
publicly available statements and correspondence, the State Department 
has not identified any other materials concerning attempts by BP or 
other companies to influence matters related to Megrahi's transfer 
under the PTA or his release by Scottish authorities. As noted in the 
response to question #4, the British Government has acknowledged that 
commercial interests were taken into account, alongside political and 
national security considerations, in its decision to conclude and sign 
the PTA in November 2008. Ambassador McEldowney referenced British 
statements on this matter both in her testimony and during the question 
and answer portion of the hearing.
    The question of whether commercial interests influenced the 
Scottish decision to release Megrahi is a separate matter, which is 
also addressed in responses to questions #1 and #4. Scottish 
authorities have said they had no contact with BP on this issue, and 
the Department has no evidence to either confirm or refute their 
statements. We have seen the letter sent by the chairman of the Libyan 
British Business Council, Lord Trefgarne, to Kenny MacAskill, as well 
as Mr. MacAskill's response in which he states the decision would ``be 
based on judicial grounds alone and that economic and political 
considerations have no place in the process.'' We do not possess 
information which would contradict Mr. MacAskill's assertion.
                                 ______
                                 

     Letter From Hon. Alex Salmond MSP, First Minister of Scotland,
                     St. Andrew's House, Edinburgh

                                                    5 October 2010.
Senator John Kerry,
Chairman, U.S. Senate Committee on Foreign Relations,
Dirksen Senate Office Building, Washington, DC.
    Dear Senator Kerry: It is with regret that I find it necessary to 
write to you again in connection with the hearing of the U.S. Senate 
Foreign Relations Committee on the al-Megrahi case on 29 September 
2010. I understand that you were not present at the hearing, but there 
is a matter of concern that I would wish to raise with you as Chairman 
of the Committee.
    On 28 September, the Scottish Government was approached by a 
journalist representing the Wall Street Journal seeking clarification 
about certain allegations that had been made about the case. These 
allegations concerned comments said to have been made by an official of 
the Scottish Government at the meeting offered by the Scottish 
Government as a courtesy to a representative of Senator Menendez. They 
were completely without foundation.
    In order to ensure that the Committee was in possession of correct 
information in advance of its hearing, the Scottish Government's 
representative in Washington wrote to your office on 28 September to 
set the record straight. I understand that a copy of his letter, which 
I attach for your information, was passed to the office of Senator 
Menendez, who was chairing the hearing.
    It was therefore with intense disappointment that I noted that the 
same misinformation was presented to the hearing, unsupported by any 
evidence whatsoever, and no reference was made to the correction 
provided well in advance by the Scottish Government. The Scottish 
Government has made every effort to provide members of the U.S. Senate 
and their staff with information to assist their understanding of the 
matter, and it is extremely unfortunate that the concerns that I 
expressed in my letter of 10 September 2010 to Senators Menendez, 
Gillibrand, Lautenberg and Schumer about the prospects for a credible 
and impartial investigation have been realised.
    I should therefore be grateful if you would investigate, as a 
matter of urgency, how the Committee came to be misled in this manner 
at its hearing. I would also request that you arrange for the letter of 
correction from the Scottish Government to be entered into the official 
record of the Committee.

                                                      Alex Salmond.

    Attachment.

                           Scottish Affairs Office,
                                           British Embassy,
                                 Washington, DC, 28 September 2010.
Doug Frantz,
Deputy Staff Director,
Senate Foreign Relations Committee.
    Dear Doug: In advance of the Senate Foreign Relations Committee's 
hearing tomorrow on the Al-Megrahi case, the Scottish Government has 
been approached by a journalist representing the Wall Street Journal 
for comment on the issue. Specifically, the journalist has asked about 
statements that are alleged to have been made by Scottish Government 
officials in a meeting with a Senate representative. Presumably he is 
referring to the meeting with officials that the Scottish Government 
offered as a courtesy to a staffer of Senator Menendez's office during 
his recent visit to Edinburgh.
    It is a cause of deep disappointment to the Scottish Government 
that points discussed at the meeting have been passed to the Wall 
Street Journal in a totally inaccurate manner and in breach of the 
terms on which the request for a meeting with Scottish Government 
representatives was made by Senator Menendez's office. This clearly 
raises a question about the objectivity of Senator Menendez's 
investigation.
    Of greater concern, however, is that the information passed to the 
Wall Street Journal is simply wrong. May I set the record straight on 
the two points we have been asked about today?
    First, as has been stated many times, and was said several times at 
the meeting between Scottish Government officials and Senator 
Menendez's staffer, the medical report to the Justice Secretary came 
from Dr. Andrew Fraser, Director of Health and Care of the Scottish 
Prison Service, and the prognosis was his. It was Dr. Fraser's 
responsibility to prepare the medical report for Mr. MacAskill, and Dr. 
Fraser who concluded that his clinical assessment was that a three 
month prognosis was a reasonable estimate, drawing on the work of a 
range of specialists and other Scottish Health Service professionals 
involved in Al-Megrahi's care from when he was first diagnosed with 
cancer in 2008.
    Given the importance of this case, it was appropriate that the most 
senior health professional in the Scottish Prison Service, Dr. Fraser, 
was responsible for providing the medical report which formed part of 
the consideration of the application for compassionate release. With 
the exception of this point, ie the most senior SPS health professional 
providing the report, this is exactly the same process which has been 
followed in the over 60 cases considered under the relevant legislation 
which was passed in 1993.
    Second,it is a matter of public record that Al-Megrahi was not on 
chemotherapy treatment in Scotland at any point, and it is also a 
matter of record that his hormone treatment had failed as the firm 
consensus of specialists was that his condition had become ``hormone 
resistant.''
    I should be grateful if you would draw this clarification to the 
attention of the Committee in advance of its hearing tomorrow, which I 
understand may include consideration of these points.
            Yours,
                                    Robin Naysmith,
                            Scottish Government Counsellor,
                                                     North America.
                                 ______
                                 

   Statements Submitted From Families of Victims of Pam Am Flight 103

To the Committee:
    My name is Susan Cohen. I am the mother of Theodora Cohen who died 
in the Pan Am 103 bombing when she was twenty years old. I welcome 
these hearings. I have never believed that Megrahi's release had 
anything to do with compassion. Compassion is a saintly virtue. 
Megrahi's release can be traced to far more devilish motives. Greed, 
chiefly. A corrupt British government, fueled by British Petroleum's 
eagerness for oil profits decided to get Megrahi out of prison one way 
or another. If not a prison transfer, then compassionate release. If 
they could have gotten away with it they would have put Megrahi in a 
box tied with ribbons and hand-delivered him to Ghadafi. The price of 
bringing Ghadafi into the so-called community of nations has been a 
collapse of any policy that isn't total appeasement. Ghadafi has done 
horrible things, and to this day his regime's human rights record is 
one of the worse in the world. But governments bow and scape to him, 
flatter him, give him what he wants. And he wanted Megrahi. Never mind 
that Megrahi was a convicted mass murderer, that Lockerbie was the 
worst mass murder in British history, in Scottish history, and until 
911 the worst act of terror against civilians in United States history. 
Megrahi was released, presumably to die within three months. He 
received a hero's welcome in Libya, is alive today and lives in luxury 
in Tripoli. Why did we ever both with the trial in the first place?
    This situation is absolutely appalling. A cynical move; government 
at its worst. Two hundred seventy people died gruesome deaths when Pan 
Am 103 was bombed. My daughter's body landed in a sheep meadow miles 
from the plane. All her bright promise gone in an instant. and my life 
ruined. I blame Bush and Cheney for initiating the policy of 
appeasement towards Ghadafi. I blame Tony Blair, now so cozy with 
Ghadafi that he stays in Ghadafi's palace and advises companies on how 
to do business with Libya; for a price, of course. And this from a 
Britain which was remarkably brave in World War II. As for my own 
government, Obama has continued the Bush policy. We were lied to when 
we were told our government was taken by surprise at Megrahi's release. 
The Le Baron letter makes clear our government knew in advance, and 
though we would have preferred Megrahi to remain in jail our weak tepid 
response showed the Brits they had nothing to fear from us if he was 
released. From the time Obama (and I supported him and donated to his 
campaign) became president, several of the families tried to get a 
meeting with Secretary of State Clinton to enourage our government to 
work hard to keep Megrahi in prison. A tough America might have been 
able to force the British to keep Megrahi in prison. We never got our 
meeting. We were not even given a contact person high in the 
Administration to talk to. The Obama Administration claims it's in 
touch with the families. Not so. It is only in touch with some of the 
families. it should be in touch with the rest of us.
    Megrahi in prison was merely a sliver of justice. Now we don't even 
have that. And nothing was ever really done to punish Ghadafi. And how 
could the bombing have taken place without his approval? So what have 
we become, we Americans? Would we stand up to Hitler? Would we stand up 
to the Soviet Union or China? I am not at all sure. If we are willing 
to kiss the feet of a tinpot tyrant like Ghadafi because all we care 
about is money, we'll cave in to more powerful nations when the 
moment's right. That's what happens to nations who make money their 
God.

                                                       Susan Cohen.
                                 ______
                                 
                                  Columbia, SC, September 28, 2010.
    Dear Senator Menendez: My first husband Bill Daniels was killed on 
board Pan Am 103 December 21, 1988. I followed the Scottish trial in 
the Netherlands very closely. I was living in NJ at that time and could 
get to the closed circuit tv's set up by the Scots for us to view the 
trial in NYC. Four times I flew over to the Netherlands and was there 
in person when the first Scottish panel of judges found Mr. Megrahi 
guilty of mass murder. Later, he appealed his conviction and I was 
there for much of that appeal, and likewise was present in Zeist, 
Holland, when he was AGAIN found guilty by another panel of Scottish 
judges, and lost his first appeal. I have followed this story very 
closely over the years. He is a convicted mass murderer, whose 
conviction remains on the books.
    I went with my younger daughter last year to testify via video 
conference in front of Kenny MacAskill in Washington, DC. We begged him 
not to let Megrahi go free. At that time, we thought he was only 
considering the Prisoner Transfer Agreement, not this ``compassionate 
release'' that he later used. Unfortunately Mr. MacAskill did let Mr. 
Megrahi go because he had cancer. This was such a travesty that he 
should do so when all of us were begging him to keep him in jail. Mr. 
Megrahi showed no compassion to our loved ones on Pan Am Flight 103.
    Mr. Megrahi, of course, went home to a hero's welcome in his native 
Libya. Mr. Megrahi, of course, has lived MUCH longer than his three 
month life expectancy that Mr. MacAskill told the world that he had 
left--in fact, thirteen months later he is still alive. Now we have 
found out that the doctors who SUPPOSEDLY had been consulted about his 
life expectancy, of course, hadn't been consulted! Now we find out that 
BP oil has a big new contract to dig off the coast of Libya, of course, 
a coincidence, too.
    Senator Menendez, I write you as a private citizen, but also as the 
VP of the Victims of Pan Am Flight 103. We on the board of VPAF103 
applaud you for taking these steps to try to get some answers to this 
and to show the world that the Scottish government acted too hastily at 
the very least. Prostate cancer is a very treatable disease and Mr. 
Megrahi's cancer should have been treated IN JAIL IN SCOTLAND instead 
of letting him free to go back to his homeland. What kind of message 
does this send to the terrorists of the world?
    Thank you and good luck on this hearing. I wish that I could be 
there in person tomorrow to tell you how grateful I am for your 
support!
            Sincerely,
                                          Kathy (Daniels) Tedeschi.
                                 ______
                                 
                           Elizabeth Delude-Dix and
                                         Dermot Delude-Dix,
                                                     Jamestown, RI.
    Senator Menendez and other members of the Committee, on learning of 
Mr. al-Megrahi's imminent release, I went straight to my laptop and 
googled: Libya + oil fields. It was then that I learned Libya has an 
undeveloped oil field the size of Belgium. At first I was startled but 
quickly experienced what can be described as a clarifying moment. Since 
then it has become public knowledge that BP actively lobbied for Mr. 
al-Megrahi's release to secure an oil deal in Libya. Once again the 
almighty profit motive has trammeled the rule of law.
    My name is Elizabeth Delude-Dix. My husband Peter Dix (aged 35) was 
a passenger aboard Pan Am flight 103 which was destroyed over 
Lockerbie, Scotland. Peter was on his way to a one day business trip in 
NYC. At the time we were living in London and Peter planned a quick 
turn-around so that he would be home to celebrate Christmas with his 22 
month old son, Dermot. Dermot, now aged 23, is with me here today. We 
have prepared this statement together.
    The long saga of Lockerbie has been filled with half truths, heart 
break and crushing political cynicism. Our family believes that we have 
never learned the full truth of what happened on December 21, 1988.
    That the U.K. and Scottish authorities colluded to release Mr. al-
Megrahi is clear. What is less clear is: Why?
    U.K. oil companies certainly stand to reap enormous profit from the 
development of Libyan oil. But what has also occurred is the quiet 
subversion of the legal process. How convenient that any potential 
irregularities in Mr. al-Megrahi's conviction will now never be 
examined.
    Indeed there have been many questions surrounding Mr. al-Megrahi's 
conviction. The legal community suggested several different reasons to 
support his appeal. However, in requiring Mr. al-Megrahi to drop his 
appeal, the Scottish authorities effectively foreclosed the possibility 
of a more complete disclosure of the truth surrounding the bombing of 
PanAm flight 103. Who other than the corporation BP stood to benefit 
from the discontinuation of this legal inquiry? Once again any 
information held by U.K. or the U.S. governments which may have 
clarified the events leading to the bombing is now beyond the reach of 
the families and the public.
    Mr. al-Megrahi's release was clearly motivated by more than 
compassion for his poor health. His return to Libya not only advanced 
U.K. commercial interests, it subverted the judicial process. How can 
there be justice without accountability? This is not an act of judicial 
compassion but an exploitation and manipulation of the rule of law.
    As the wife and son of Peter Dix, what matters most to us is not 
whether one man dies in prison. We know that the available intelligence 
was not acted upon by those whose job it is to protect us. Lockerbie 
could have been prevented. Today, twenty-one years later, we ask that 
all those who carried out this crime be held responsible, and we also 
demand a full disclosure of the circumstances leading up to this event.
                                 ______
                                 
    FROM Helen Engelhardt, widow of Anthony Lacey Hawkins, one of the 
270 people murdered when a semtex bomb in a Toshiba RT-SF 16 stereo 
radio cassette recorder model Bombeat, wrapped in a random assortment 
of clothing purchased in a clothing shop in Malta, all of it hidden 
inside of a copper colored 26-inch Samsonite Silhoutte 4000 hardshell 
suitcase, exploded in the baggage container AVE4041 of the Boeing 747 
Maid of the Seas on its evening flight Pan Am #103 out of London, 
31,000 feet over the town of Lockerbie, Scotland at 7:03 pm on December 
21, 1988.
    Al-Megrahi, a Major in the Libyan Intelligence Service, the man 
accused of having organized the assembly of the bomb, of having bought 
the clothing that filled the unaccompanied suitcase case, was 
unanimously found guilty in the Lockerbie Trial held at Camp Zeist in 
the Scottish Court in the Netherlands on January 31, 2001. His appeal 
was unanimously denied a year later and Al-Megrahi was flown to 
Scotland on March 14, 2002, where he was supposed to begin serving a 
life sentence. He served seven years, five months and five days before 
being released on August 20, 2009.
    Here we are again. The case that will not die. That refuses to 
close. The lid of the coffin that keeps being pried open.
    Through all the upheavals and reversals, the legal battles and 
victories and set-backs of the past 21 years, there was one reliable 
rock we thought we could rely on: the integrity of the Scots. They 
would never betray us. And then, they did.
    Megrahi appealed the guilty verdict again. While it crept its way 
forward during the past winter and spring of 2008/2009, we paid more 
attention to the Prisoner Transfer Agreement. (The curious history of 
the PTA: Jack Straw, The British Secretary of State for Justice, had 
negotiated with Libya in the summer of 2007, a new Agreement which 
would allow prisoners to be returned to their respective nations. The 
original formulation specifically excluded al-Megrahi by name until 
suddenly in December 2007, Straw withdrew Megrahi's name, making him 
eligible for exchange since ``The wider negotiations with the Libyans 
are reaching a critical state, and in view of the overwhelming 
interests for the United Kingdom, I have agreed that in this instance 
the PTA should not mention any individual.
    ``Saif Gaddafi, son of the Libyan leader, has said that 
negotiations on the PTA intersected with the commercial discussions 
between the two countries. A $900 million oil and gas exploration 
agreement between the British energy giant BP and Libya's National Oil 
Company was reached in May 2007. BUT IT WAS NOT RATIFIED UNTIL AFTER 
THE PTA WAS AGREED UPON'' (my emphasis) (quoted from Time September 14, 
2009 page 30).
     On August 20, 2009, the Scottish Cabinet Minister of Justice, 
Kenny MacAskill, denied Libya's application for Megrahi's release under 
the PTA. But then MacAskill went on to declare that he was releasing 
Megrahi on ``Compassionate Grounds'' because he ``might die within 
three months from terminal prostate cancer,'' and refused to consider 
transferring him elsewhere in Scotland because security would be too 
difficult. While announcing his decision to the press, Megrahi was on 
his way home to a hero's welcome in Saif Qadaffi's private plane. If 
Al-Megrahi had indeed died within three months--which had to be 
reasonably certain for the Grounds of Compassion to be legally 
applied--it wouldn't have made the decision just or appropriate. It 
still was stained by the oil deal. But at least, it wouldn't have been 
a public embarrassment to the Scottish government, and a continuing 
outrage to the American families. (Why the English and Scottish 
families are divided on this issue is too complicated to discuss in 
this statement. I don't know how the other families in some twenty 
other nations feel, having not heard any opinion from them.).
    For twenty one years, the families took comfort in the meticulous 
dedication of the Scottish Police, the dog handlers who located the 
bodies and the women who washed the clothing of our loved ones. Debris 
from the crash had spread over more than 800 square miles--from 
Lockerbie to the North Sea. The searchers were told: ``If it's not a 
rock and it's not growing, pick it up and put it in a bag.'' By 
Christmas Day, a piece of metal was found that FAA senior explosives 
expert, Walter Korsgaard, identified as the first proof a bomb had 
caused the explosion.
    Because of the thorough, dedicated work of hundreds of men and 
women, several critical pieces of evidence were retrieved from the tons 
of debris: the blast damaged fragments of that Samsonite suitcase, the 
blast damaged fragment of an instruction manual for the Toshiba RT-SF16 
recorder, the blast damaged fragment of a printed circuit board from a 
MEBO MST 13 timer, the blast damaged label from a ``Yorkie'' brand pair 
of trousers.
    And the significance of these discoveries? ``A summary of the 
world-wide sales figures for Toshiba RTSF16 stereo radio cassette 
recorders from October 1985 to March 1989 . . . shows that Libya 
(purchased) almost 76 percent of that model from Toshiba between 
October 1988 and March 1989.
    Mr. Bollier (the ``Bo'' in MEBO) in his testimony for the 
prosecution at the Lockerbie Trial in June of 2000, stated in 1991 to 
Scottish and American detectives, that he only sold this model timer to 
Libya (in 1993 after Libya offered him a loan of 1.8 million dollars, 
he suddenly recalled he had sold MST 13 timers to the Stasi as well); 
he delivered radio devices and 20 timers to Libya in 1986 into the 
hands of Abdelbaset Megrahi, a man Bollier believed to be a Major in 
the Libyan Intelligence Services.
    Bollier taught Libyan military people in the autumn of 1987 in 
Libya, how to prevent bombs from exploding prematurely. In December of 
1988 he tried to deliver and collect payment on 40 more MST 13 timers. 
He flew to Tripoli on December 18 and booked a return flight on 
December 20 from Tripoli to Malta on the very same flight that al-
Megrahi and al-Fhimah were on. Bollier changed his plans and returned 
to Zurich on a direct flight. He claims that he did not meet with 
Abdelbaset. He claims that no one paid him for his timers.
    The ``Yorkie'' brand label on a pair of trousers, led detectives to 
the factory which led them to Mary's House, in the town of Slima on the 
island of Malta. Mary's House was the clothing shop where the clothing 
surrounding the Toshiba stereo recorder bomb had been purchased. The 
shopkeeper, Anthony Gauci, told the police who came to see him in 
September 1989, that he had sold two pairs of Yorkie trousers--one 
bearing the identical order number to the fragment found in Lockerbie--
to a Libyan man a fortnight before Christmas, in December 1988. The man 
also bought a random assortment of clothing, obviously not for any 
particular person. Anthony Gauci found that peculiar, and therefore, 
memorable. He assisted in an artist's rendering of what the Libyan had 
looked like in September 1989, picked out the face of al-Megrahi among 
a group of photographs in February of 1991, picked him out in an 
identification parade of persons in April 1999, and then, ultimately 
pointed him out in the dock during the trial in Kamp Zeist in 2000. The 
judges wrote: ``he was entirely credible . . . doing his best to tell 
the truth to the best of his recollection We are satisfied that his 
identification of the first accused as the purchaser was reliable and 
should be treated as highly important evidence in this case.''
    In an extraordinary coincidence, one of the policemen who followed 
the clothing clue from Lockerbie to Malta was the very man who found 
the body of my husband lying on a field in Halldykes Farm in the 
outskirts of Lockerbie, Detective John Crawford. My son Alan and I, met 
Detective Crawford in New York City in September 2000. We were also in 
the courtroom at Camp Zeist when Mr. Gauci identified Mr. Al-Megrahi.
    You are not retrying the evidence that sent Mr. Al-Megrahi to 
prison with a life sentence. If you were, there is even more damning 
and convincing evidence that sent Al-Megrahi to prison that I could 
outline. Even Kenny MacAskill went out of his way to reiterate Al-
Megrahi's guilt before he sent him home to Libya. He also stated that 
``This is a global issue and international in its nature. The questions 
to be asked and answered are beyond the jurisdiction of Scots law and 
the restricted remit of the Scottish government. If a further inquiry 
were felt to be appropriate then it should be initiated by those with 
the required power and authority. The Scottish Government would be 
happy to fully cooperate in such and inquiry.''
    There have been, in my opinion, some half hearted investigations by 
the Scottish government looking into Mr. MacAskill's reasoning. With 
all the evidence revealed a year ago in the British press of the oil 
deal brokered between BP and Libya, with BP lobbying on behalf of 
Libya's obsessive interest in obtaining the release of Al-Megrahi, the 
British government has not and has no intention of opening an 
investigation of its own. Prime Minister Cameron called the release 
``completely and utterly'' wrong and refuses to call for his government 
to look into BP's role.
    We had a measure of justice--and then it was snatched away from us. 
We all know that Megrahi was acting under orders from his government. 
Unnamed coconspirators were indicted along with Al-Megrahi and Fhimah. 
The criminal case is still open.
    Through all the upheavals and reversals, the legal battles and 
victories and set-backs of the past 21 years, there was another 
reliable rock we thought we could rely on: the integrity of the men and 
women in our government. They would never betray us. And they haven't. 
From day one, Congressmen and women, Senators, people who work in the 
FBI and CIA and the Justice Department, have done everything they could 
to see that the evidence was gathered thoroughly and accurately and 
that justice would be done. Bills and amendments to bills were crafted 
and passed in order to keep the unresolved case in the forefront of our 
collective attention.
    Five years ago this month, the Senators and Congressmen from New 
York and New Jersey, stood with us when we gave a press conference 
calling for our government not to give diplomatic recognition to Libya 
until it fulfilled the last provision of the legal agreement it had 
signed with the families. And now this summer, Senators Schumer and 
Menendez called for investigating BP under the Foreign Corrupt 
Practices Act.
    I support you wholeheartedly in this endeavor. I have never felt 
helpless in the face of this tragedy, but I have recognized the reality 
that the mass murder that occurred over Lockerbie Scotland twenty two 
years ago is international in scope and involves several governments 
and their agencies--and now it seems, the biggest company in Britain 
and the fifth biggest on Earth: British Petroleum. Sir Mark Allen, 
former head of the counterterrorism department of Britain's M16 
intelligence service, retired from that post to become a senior 
executive in British Petroleum. It is a difficult investigation to 
conduct. But it needs to be done--to honor the two hundred and seventy 
souls who were murdered because they flew in a plane that carried the 
American flag as a logo.
            Sincerely,
                                          Helen Engelhardt Hawkins.
                                 ______
                                 
    It is with the deepest pain and anguish that I submit this 
testimony 21\1/2\ years after the premeditated destruction of Pan Am 
Flight 103 over Lockerbie, Scotland. Throughout this time, the families 
have advocated, at great personal cost, for truth and justice in the 
resolution of this case of mass murder. At no time did we request or 
expect any monetary compensation for this grave injustice but rather, 
we simply, wanted the answers to the questions, who, why, where and 
how. It took years of lobbying to effect U.N. sanctions which, 
ultimately, resulted in a trial and conviction. I remember sitting with 
the U.S. Ambassador to the U.N., when we insisted that no money be 
demanded as part of the sanction regimen. His reply was that it was 
absolutely necessary, as money is the currency of diplomacy. In the 
end, we got one conviction and 10 million dollars per family (less one-
third plus expenses for the lawyers). Even our small modicum of justice 
was tinged with blood money and greed.
    One year ago, that small token of justice was snatched from us as 
Megrahi was released to go back to Libya on compassionate grounds. All 
the reasons why this was a gross miscarriage of justice have been 
eloquently reiterated in the interviews and letters from the Senators 
from NJ, Menendez and Lautenberg, and from NY, Schumer and Gillibrand, 
Secretary of State Clinton, President Obama and U.K. Prime Minister 
Cameron. The flim-flam medical opinion that precipitated the release 
was transparently laughable and the lobbying influence of BP and other 
oil interests clamoring for Libyan oil contracts was patently 
despicable.
    So what happens now? One year later, you are holding hearings to do 
what? The oil contracts have been awarded, Colonel Kaddafi has recouped 
his $270 million in compensation fourfold and Megrahi is ensconced in 
luxury in the bosom of his family for the next ten years or more. Tell 
me, Senators, how do I explain this to my grandchildren?
    There is no political, economic or diplomatic will to force Kaddafi 
to give up Megrahi again. The families are powerless as they prostrate 
themselves before you in grief and desperation. I, for one, after 21 
years, am tired of taking the high road to truth and justice to no 
avail.
    So, I propose the following:
    (1) The U.S. must convince the U.N. to reimpose sanctions against 
Libya which demand that Megrahi be incarcerated in Libya under the 
watchful eye of a Scottish security detail 24-7. That is the very least 
the Scots can do after they abandoned the families.
    (2) Kaddafi must pay $20 million more to each family from the oil 
enrichment funds that have been pouring into his coffers since last 
August. No lawyer's fees or expenses.
     Sounds greedy and opportunistic, doesn't it? Sounds un-American, 
doesn't it? It comes from sheer desperation and futility from this 
mockery of justice. The families have spent the last 20 plus years 
working to protect the American people from suffering the same horrors 
we face everyday. We have altruistically turned our grief into positive 
actions for the common good. Senators, you have to walk in my shoes to 
know how victimized, abandoned and abused I feel.
     I can assure you that I can do more in one week with that blood 
money in The Alexia Foundation for World Peace and Cultural 
Understanding (www.alexia
foundation.org) than Khaddafi can do in two lifetimes with his ill-
gotten gains from the oil contracts.
                          Aphrodite Thevos Tsairis,
                                  Mother of Alexia Tsairis,
                                          Victim Pan Am Flight 103.
                                 ______
                                 
    Statement from the Victims Pan Am Flight 103:
    On December 21, 1988, Pam Am Flight 103 exploded over Lockerbie, 
Scotland, murdering all 259 people on the plane and 11 citizens in 
Lockerbie. All of these victims were innocents. As the Lord Advocate of 
Scotland, Colin Boyd, later summarized: ``400 parents lost a son or a 
daughter, 46 parents lost their only child, 65 women were widowed, 11 
men lost their wives, 140 children lost a parent, and 7 children lost 
both parents.''
    After an exhaustive investigation by U.S. and Scottish authorities, 
Libyan agent Abdel Basset Ali al-Megrahi was convicted. He appealed 
this conviction but it stood. It still stands, even though Scottish 
Minister of Justice Kenny MacAskill released Megrahi on August 20, 
2009, on ``compassionate grounds'' based on the claim that he had only 
3 months to live.
    The Scottish government has shown compassion to this convicted mass 
murderer of 270 innocent souls. The convicted mass murderer never 
showed compassion for any of his victims.
    On behalf of VPAF103,
                                     Judy O'Rourke,
                             Recording Secretary, VPAF 103,
                                       Syracuse University Alumnae.
                                 ______
                                 
    As America witnessed the release and subsequent hero's welcome 
granted Abdel-Basset Al Megrahi upon his return to Libya, our 
collective sense of outrage at this miscarriage of justice was 
palpable. It was a sad moment for the American people. But for the 
families of the victims of Pan Am 103, it was something worse. It was 
not merely an act that reopened old wounds and raised troubling new 
questions. As one of those family members shared with me, it was as if 
their loved one had been murdered all over again.
    Our concern has only deepened now that as this convicted terrorist, 
granted compassionate release because he supposedly had only months to 
live, remains alive and healthy over one year later.
    This is a man convicted of ending 270 innocent lives by turning an 
airplane full of college students coming home for Christmas into a 
deadly fireball. As I said at the time, he did not deserve the supposed 
``compassion'' he failed to show others, and he does not deserve his 
freedom today.
    Releasing Megrahi was the opposite of ``compassionate.'' Speak with 
the mothers, sons, friends, neighbors and classmates who lost a loved 
one on Pan Am Flight 103 and you will get a gut-wrenching reminder that 
this has torn open wounds that will never fully heal.
    Lisa Jones, who lost her husband, Charles, said that Megrahi's 
``early release continues to add to the emotional toll on all our 
families.''
    Doris Cory lost her twenty-year-old son, Scott. ``When your 
children are murdered,'' she said. ``You don't let that go.''
    Nicholas Bright was just sixteen months old when his father was 
murdered. Even before Megrahi outlived his medical prognosis, Nicholas 
was pained that Megrahi should have the family time he denied to the 
Brights.
    Jeannine Boulanger lost her daughter Nicole, a talented acting 
student at Syracuse coming home from her study abroad. As Jeannine 
said, ``We feel our children were ripped from our bodies and spirits, 
and we feel we can do no less than to see this to a justifiable 
conclusion.
    They--and not Mr. Megrahi--are the ones who deserve our compassion.
    I welcome U.K. Prime Minister David Cameron's frank acknowledgment 
that Megrahi's release was ``wrong.'' We will continue to express our 
outrage at the release of this convicted terrorist. And we will 
continue to investigate how justice could have been so ill-served.
                                 ______
                                 
    My name is Ioana Alimanestianu, a U.S. citizen for 56 years and New 
York resident for nearly 60 years. I submit this statement on behalf of 
my family and my deceased husband Mihai. We are victims of Libyan 
terrorism. On September 19, 1989, UTA Flight 772 was forty minutes into 
its flight from Chad to Paris, cruising at 35,000 feet, when a bomb 
exploded causing the plane to break up and crash into the Sahara 
Desert, killing all 170 people on board, seven of whom were Americans. 
Our beloved husband, father and brother, Mihai Alimanestianu, was a 
passenger on Flight 772. Mr. Al-Megrahi was ultimately convicted for 
involvement in the bombing of Pam Am Flight 103 over Lockerbie in 1988, 
but his position as a Libyan intelligence officer provides reason to 
believe that he was involved in the bombing of UTA 772 which killed my 
husband one year later.
    I am compelled to submit this statement because I share many of the 
same sentiments, and questions, that have been expressed by a number of 
Senators, including my own Senators Schumer and Gillibrand, about the 
circumstances surrounding the release of Mr. Al-Megrahi. I don't know 
whether there is anything the United States government can do to 
correct the apparent injustice of his premature release from prison by 
another sovereign government. But shining a light on this situation 
hopefully will cause others in the future to think more carefully about 
the need to respect the victims of terrorism. That said, I am also 
compelled to use the occasion to call the Committee's attention to a 
perhaps little known situation that has resulted in an injustice 
totally within the control of our own government that continues to 
haunt American victims more than 20 years after the UTA Flight 772 
bombing.
    First, and most importantly, I want you to know my husband Mihai, 
who was an amazing man.
    Mihai was born in Bucharest, Romania in 1919. In Romania, we met 
and married in 1947. Shortly thereafter, we escaped from communist 
Romania and made our way to New York via Texas where we became U.S. 
citizens. We were married for 42 wonderful years, and had five 
children. Mihai was a caring and engaged father who encouraged his 
children to excel in their chosen careers. He created a home life for 
his children that included constant learning and art. Mihai diligently 
taught his children to be mindful of how their conduct would affect the 
world. His loss deprived them of a strong and loving father figure. 
Mihai's murder affected not only his immediate family, but also his 
brothers and their families.
    In addition to a loving family, Mihai also left behind a legacy of 
great achievement. He was a mechanical engineer by training and an 
amazing inventor. He held several patents on his inventions including 
one for an automatic parking garage system and another for an automated 
people mover. At the time of the bombing, he was returning from Africa 
where he had just concluded a contract with the United States Agency 
for International Development to help build Africa's infrastructure, 
and was on his way to see his daughter, Joanna, and her five-month-old 
twins. In Africa he was first in Gabon where he was assisting the 
country in its efforts to build a national railroad system, he then 
moved on to Chad where he was assisting that country in its efforts to 
rebuild a crumbling infrastructure. Working was one of his great 
passions.
    Upon Mihai's return to New York, he was planning to continue to 
engage in some freelance work, redevelop his patents and develop a 
parcel of land he owned along the Hudson River in New York. It was a 
long-time dream of his to build the perfect house along the Hudson 
River. He spent many days along the river with his children planting 
trees and further beautifying the land. The land was his refuge. To 
honor Mihai's memory, our family conveyed his beloved land to the Trust 
for Public Land so that it would be preserved for future generations to 
enjoy.
    Although nothing will ever make our pain go away, we wanted to 
ensure that justice was served. To that end, our family and other 
families of the U.S. victims of UTA Flight 772 pursued the remedies 
made available to us by Congress under the Foreign Sovereign Immunities 
Act (``FSIA''), commenced litigation in 2002, and successfully obtained 
judgments in U.S. courts. We and other family members testified, and 
ultimately we were able to prove that Libya was guilty of murdering our 
loved ones. The hearing record describes in great detail the evidence 
supporting the horrendous and painful manner in which the passengers of 
UTA 772 died: ``In addition to the initial shock of explosive 
decompression . . . the disorienting experience of feeling the 
temperature instantly drop 129 degrees . . . shards of metal . . . 
embedding themselves into people badly enough to cause pain but not 
badly enough to kill. Some passengers caught on fire from the 
explosion. As a result, many of the passengers burned alive as they 
plummeted [39,000 feet] to earth.'' As you can only imagine, the trial 
was a difficult and painful process that required us to relive our 
worst nightmare.
    In January 2008, the United States District Court for the District 
of Columbia entered judgment against Libya and awarded approximately 
$1.6 billion to the estates of the deceased and 44 immediate family 
members to compensate for wrongful death, emotional distress and loss 
of solatium injuries. With this decision by a federal court came some 
closure to our long ordeal with Libya being held responsible for the 
heinous crime that was committed against our beloved husband, father 
and brother.
    When S. 3370, the Libyan Claims Resolution Act, was introduced, we 
were shocked that Congress was considering invalidating our verdict. 
Without consulting the victims' families, Congress unanimously passed 
S. 3370 the day the bill was introduced. No hearing was ever held or 
debate undertaken on the legislation. Although we raised strong 
objection to the legislation itself and the process, our pleas were 
ignored. When we inquired into the need for government intervention, we 
were told that legislation was necessary so that all the claims against 
Libya could be resolved quickly. In addition, we received assurances 
that our court judgment would be honored and respected.
    We were skeptical of these claims, and unfortunately our worst 
fears have come true. The State Department has delegated much of the 
implementation of S. 3370 to the Foreign Claims Settlement Commission 
(``FCSC''). Once again, we strongly objected to this action by the 
State Department because we believe that the FCSC is not well suited to 
take on this unique responsibility, and the process would be further 
delayed. The federal courts have already made a determination about the 
damages that are due to our family, and thus, we believe that the State 
Department is in a position to resolve this issue expeditiously.
    Furthermore, it has now been nearly two years since the U.S. 
government received a settlement from Libya and the issue is still not 
resolved, and there is no end in sight. The FCSC has been without a 
quorum since February so their proceedings have come to a standstill 
until a new Commissioner can be nominated and confirmed by the Senate. 
A name has not even been sent to the Senate for consideration, so it is 
highly unlikely that we will see closure by the end of this year. Given 
the broken process, the State Department should take responsibility and 
award funding for claims such as ours that take no significant fact 
finding. For claims that are more complicated, the State Department 
could appoint a special master to resolve the outstanding issues in a 
timely manner.
    As the Foreign Relations Committee considers the Al-Megrahi 
release, we beg you to consider other victims of Libyan terrorism and 
their families. All too often our pleas for fairness and assistance 
have gone unanswered. It has now been twenty-one years since our family 
lost Mihai, and it so important that you do what you can so that we can 
reach closure. This has gone on too long.
    Thank you.
                                 ______
                                 
    Truth and justice do not simply demand an investigation of the role 
BP played in the release of Megrahi last August. The interplay of the 
British with Scottish and U.S. officials and business interests must be 
uncovered and made public. Megrahi's release was inevitable--a decision 
of governments, years long in the making. The decision was handed over 
to the Scots but was one for which the British and U.S. governments 
bear a heavy burden of responsibility.
    Megrahi's release was a devastating blow to the families of the Pan 
Am 103 victims. However shameful and appalling, the release was not 
surprising. In fact, the expectation of some families was that he would 
be released--the question was when and how.
    The stage was set for Megrahi's release the day the United States 
relinquished control over his prosecution and detention. The United 
States surrendered its jurisdiction to pressures driven by oil and big 
business and politics to try Megrahi internationally instead of in the 
United States. Gadhafi spent years seeking a compromise to a trial in 
the United States--the only way he could get Libya out from under the 
sanctions the United Nations and the United States had imposed. This 
was also the only way oil and big business interests could get back 
into Libya.
    During the span of years between the indictment of Megrahi in 1991 
and the imposition of U.N. sanctions to the trial of Megrahi in 1999, 
the U.S. attitude toward his prosecution changed. The families knew the 
end of U.S. control was in sight. The British had been pressuring the 
U.S. for an international solution. The dialogue was no longer about 
U.S. objection to an international trial but what kind of international 
trial could be acceptable. In 1999, the day U.S. officials told some of 
us that they were getting daily calls from oil interests to reach a 
solution, we knew Gadhafi had won. Two of us knew an international 
trial was imminent when the Ambassador from one of the large moderate 
Middle East countries asked us to come to the Embassy in DC for a 
meeting. He said Gadhafi would agree to families demands to Gadhafi to 
turn Megrahi over--with one ``little bitty change''--an international 
trial.
    The British had gone so far as promise then-President Clinton that 
if either or both of the indicted defendants were convicted they would 
remain imprisoned in the United Kingdom. Clinton was so assured that he 
conveyed this to the families at the ceremony in Arlington in 1998 
marking the 10th anniversary of the bombing--a ceremony at which 
Hillary Clinton, then first lady was present.
    Yet, the promise lacked the status of a formal written agreement 
and did not take into account any future changes in British or Scottish 
law--changes which were significant to Megrahi's future release. When 
Megrahi began serving his term in Scotland, there was no Prisoner 
Transfer Agreement and the Scots did not have independent authority 
over their prison system which they did have when they released 
Megrahi.
    The trial of Megrahi at Camp Zeist in the spring of 2000 began the 
progression that led to Gadhafi's rehabilitation. After Megrahi's 
conviction, the rest is the history of that rehabilitation and how 
Gadhafi succeeded in getting Megrahi released.
    Looking back on events, Gadhafi had barely mouthed acceptance of 
responsibility for the bombing (the first condition imposed by the U.N. 
for ending sanctions) when he renounced that acceptance. Gadhafi and 
Libyan officials proceeded over the years to issue statements saying 
that Megrahi was innocent. They never stopped trying to get Megrahi 
released--through their spokesmen to the families and their business 
and political supporters. Gadhafi took all the necessary steps to get 
the U.N. and U.S. sanctions removed. And, the greatest travesty of 
all--the removal of Libya from the U.S. list of terrorist nations.
    With the ending of economic, airline, travel, and diplomatic 
sanctions, Libya once again opened its doors to western trade. However, 
Libya withheld lucrative trade and oil contracts, using them as 
bargaining chips for Megrahi's release. By May 2007, the same month 
that Britain and Libya signed a memorandum of understanding that would 
lead to a Prisoner Transfer Agreement, BP reportedly signed a $900 
million oil exploration agreement with Libya.
    When the negotiations of former British Prime Minister Tony Blair 
for this future Prisoner Transfer Agreement with Libya were revealed 
publicly some months after they occurred, the families sprang into 
action. Our concerns were quickly brushed aside by U.S. officials. The 
Bush administration and the Congress should have gone public then. 
Instead, the families were told that nothing had happened yet and there 
was nothing they could do until something happened. Repeated requests 
by the families to meet with Secretary of State Rice in 2008 went 
unanswered. Obama became President and families' requests to meet with 
Secretary of State Clinton went unanswered.
    This let-it-go mentality permeated the progression of events--from 
the finalization of the Prisoner Transfer Agreement which would allow 
Britain and Libya to exchange prisoners to the Agreement's ratification 
by the British parliament to the consideration of Megrahi's release 
either through the British transfer agreement or by Scottish 
compassionate release.
    As the decision drew closer, the United States still did not go 
public with objections to the release. Secretary of State Clinton did 
meet with Scottish First Minister Alex Salmond when he visited 
Washington in the spring of last year. Along the way, the Scots 
transferred the decisionmaking to Justice Minister MacAskill. In the 
final days before the decision, both the Secretary of State and 
Attorney General telephoned objections to Megrahi's release to 
MacAskill. NSC's John Brennan telephoned MacAskill on behalf of Obama. 
A concerned few in the Congress wrote a powerful letter to the 
administration. However, it was too late. The U.S. response had not 
been visible or forceful enough all along or at the 11th hour.
    The press reported a few days ago that the deputy head of London's 
U.S. Embassy, Richard LeBaron, sent a letter to First Scottish Minister 
Alex Salmond a week before the release stating that compassionate 
release of Megrahi would be a preferable alternative to his release 
under the Prisoner Transfer Agreement. He, in effect, said we prefer 
you don't release him but, if you must, do it on compassionate grounds. 
What was clear from his letter was that fighting Megrahi's release 
wasn't an important enough issue for the United States--that the United 
States was not going to demand that Megrahi be kept in prison in 
Scotland--that the United States was being careful not to anger the 
Scots and tread on their jurisdiction--the very reason U.S. officials 
told the families all along that they could not intervene. Megrahi's 
release was inevitable by now and doing it under compassionate grounds 
was the lesser of two evils, the one that would avoid taking on the 
British and rattling key alliances with them.
    Almost a year later, Megrahi is still alive and home in Libya--he 
has lived nine months beyond medical projections. At no time during the 
Scots' consideration of his release did the United States strongly and 
publicly demand that direct medical evidence be produced or decry the 
insignificance of the evidence produced or further urge that an 
international team of doctors review the evidence and be identified 
(families did ask U.S. officials to make this request). Full disclosure 
of the medical evidence that was used to release Megrahi is still as 
important now, if not more important, than at the time of his release. 
The Scottish people and the police and prosecutors who carry the scars 
of this decision should demand this and if not, call on Justice 
Minister MacAskill and First Minister Salmond to resign.
    Regardless of the medical evidence, the release of Megrahi under 
any circumstances was a blow not only to justice for the families but 
future international efforts to prosecute and contain terrorism. The 
Scottish government's release of Megrahi was a betrayal not only to the 
U.S. families and government but the entire Scottish nation.
    Ultimately, the international trial to prosecute Megrahi and the 
decision to release him was more about the rehabilitation of Gadhafi 
and access to rich Libyan crude than about justice for the convicted 
murderer of 270 innocent victims, 189 of them Americans. My 20-year-old 
step-daughter, Miriam Luby Wolfe, was one of them.
                                    Rosemary Wolfe,
                                          Former President,
                                          Pan Am 103 Family Groups.

                                  <all>

</pre></body></html>
